SUPREME COURT OF THE UNITED STATES
BIBIJI INDERJIT KAUR PURI, RANBIR SINGH BHAI,
KAMALJIT KAUR KOHLI and KULBIR SINGH PURI
Petitioners,
vs.
SOPURKH KAUR KHALSA; PERAIM KAUR KHALSA; SIRI RAM KAUR
KHALSA; SIRI KARM KAUR KHALSA; KARTAR SINGH KHALSA;
KARAM SINGH KHALSA; ROY LAMBERT; SCHWABE, WILLIAMSON &
WYATT, an Oregon Professional Corporation; LEWIS M. HOROWITZ; LANE
POWELL, an Oregon Professional Corporation; UNTO INFINITY, LLC, an
Oregon Limited Liability Company; SIRI SINGH SAHIB CORPORATION, an
Oregon nonprofit Corporation; GURUDHAN SINGH KHALSA; GURU HARI
SINGH KHASLSA; AJEET SINGH KHALSA; EWTC MANAGEMENT, LLC
and DOES 1 through 5
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI
SURJIT P. SONI
Counsel of Record
Email: Surjit@sonilaw.com
LEO E. LUNDBERG, JR.
THE SONI LAW FIRM
P.O. Box 91593
Pasadena Window Unit - 600 Lincoln Ave
Pasadena, CA 91101
Telephone: 626-683-7600
Facsimile: 626-683-1199
Attorneys for Petitioners

QUESTIONS PRESENTED
Petitioners, the widow and three adult children of Siri Singh Sahib
Harbhajan Singh Khalsa Yogiji, aka Yogi Bhajan, brought this lawsuit to require
two corporations established and exclusively controlled by Yogi Bhajan to comply
with their Articles and Operating Agreements and appoint Petitioners to their
Boards, as is required by Oregon Corporate Laws. Yogi Bhajan’s trusted assistants
who served on the Boards of the two entities when he died did not implement his
plan of succession so that they could convert assets from those entities, and
improperly withheld documents and information from Petitioners.
The District Court ruled on summary judgment that Petitioners’ claims were
barred under the First Amendment by the Ministerial Exception and Ecclesiastical
Abstention doctrine and did not rule on any other issue. The Ninth Circuit Court
of Appeals, on de novo review, eschewed the First Amendment issues and instead
ruled Petitioners’ claims were time-barred under the statute of limitations,
weighing the evidence on disputed facts and making findings of fact at odds with
the underlying evidence.
1.

May a Court of Appeals on de novo review of summary judgment

refuse to decide a claim predicated on a failure of two non-religious corporations,
with religious affiliates, to comply with neutral principles of corporate law, when
the sole basis for the District Court’s decision was that the Ministerial Exception
and Ecclesiastical Abstention Doctrine barred the claim?

i

2.

May the Court of Appeals, on de novo review of a summary

judgment, sua sponte weigh the evidence on disputed fact issues and make findings
not supported by the record, in direct conflict with this Court’s ruling in American
Pipe & Const. Co. v. Utah, 414 U.S. 538, 559, 94 S. Ct. 756, 769 (1974), to affirm
on the ground of statute of limitations which was not granted by the District Court,
to avoid deciding First Amendment issues properly before it?

ii

STATEMENT OF RELATED CASES
The following Federal District Court and Ninth Circuit Court of Appeals
Cases are related to the matter before this Court:
1. Bibiji Inderjit Kaur Puri, et al. vs. Sopurkh Kaur Khalsa, et al., U.S.D.C.,
Dist. Or., Case No. 3:10-cv-01532 MO. Judgment entered April 26, 2018.
2. Bibiji Inderjit Kaur Puri, et al. vs. Sopurkh Kaur Khalsa, et al., Ninth
Circuit Court of Appeals, Appeal No. 18-35479, Memorandum Opinion
issued December 23, 2019.
3. Bibiji Inderjit Kaur Puri, et al. vs. Sopurkh Kaur Khalsa, et al., Ninth
Circuit Court of Appeals, Appeal No. 13-36024, Opinion issued January 6,
2017.

iii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED .......................................................................................i
STATEMENT OF RELATED CASES ................................................................... iii
TABLE OF AUTHORITIES ....................................................................................vi
OPINIONS BELOW ..................................................................................................1
JURISDICTION.........................................................................................................1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED ................ 1
STATEMENT ............................................................................................................2
REASONS FOR GRANTING THE PETITION ....................................................... 3
I.

DE NOVO REVIEW DOES NOT ENTITLE THE COURT
OF APPEALS TO WEIGH THE EVIDENCE TO RESOLVE
DISPUTED FACTS, OR TO MAKE FINDINGS THAT
ARE NOT SUPPORTED BY THE EVIDENCE ON
SUMMARY JUDGMENT.................................................................... 5
A.

The Court Of Appeals Reviews Summary Judgment De
Novo And Must Apply The Same Legal Standards As
The District Court ....................................................................... 9

B.

Petitioners Were Not Aware Of Facts Sufficient To
State A Cause Of Action For Fraud Under Rule 11
Until 2010 .................................................................................10

C.

The Court Of Appeals Failed To View The Facts And
Draw Inferences Most Favorably To Petitioners ......................12

D.

Statutes Of Limitations Are Tolled Where, As Here,
Facts Supporting A Plaintiffs’ Claims Were
Deliberately Concealed .............................................................19

E.

The Purpose Of The Statute Of Limitations Is Not
Served By Barring Petitioners’ Claims .....................................21

iv

II.

THE COURT OF APPEALS SHOULD HAVE
CORRECTED THE DISTRICT COURT’S ERRONEOUS
APPLICATION OF THE MINISTERIAL EXCEPTION
AND ECCLESIATICAL ABSTENTION DOCTRINE TO
EXCUSE COMPLIANCE BY NON-CHURCH
CORPORATE ENTITIES WITH THEIR OWN ARTICLES
AND OPERATING AGREEMENT AS IS REQUIRED BY
NEUTRAL PROVISIONS OF STATE LAW ....................................24
A.

The Ministerial Exception Does Not Apply On The
Facts Of This Case ....................................................................24

B.

The Ecclesiastical Abstention Doctrine Was Not
Properly Applied By The District Court ...................................32

THE QUESTION PRESENTED IS IMPORTANT ................................................35
III.

CONCLUSION ...................................................................................37

v

TABLE OF AUTHORITIES
Page(s)
Cases:
American Pipe & Const. Co. v. Utah,
414 U.S. 538, 94 S. Ct. 756 (1974) ................................................... 19, 21, 22, 23
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 106 S. Ct. 2505 (1986)....................................................................8
Askew v. Trustees of Gen. Assembly of Church
of the Lord Jesus Christ of the Apostolic Faith Inc.,
684 F.3d 413 (3d Cir. 2012), cert. denied, 133 S. Ct. 947,
184 L. Ed. 2d 728 (U.S. 2013) ...................................................................... 33, 34
Branch Banking & Tr. Co. v. D.M.S.I., LLC,
871 F.3d 751 (9th Cir. 2017) .................................................................................9
Brooks v. BC Custom Constr., Inc.,
No. 3:18-CV-00717-YY, 2019 WL 3763769 (D. Or. May 21, 2019) report
and recommendation adopted, No. 3:18-CV-00717-YY, 2019 WL 3502907
(D. Or. Aug. 1, 2019) ...........................................................................................20
Brosseau v. Haugen,
543 U.S. 194, 125 S. Ct. 596 (2004)......................................................................9
Cooter & Gell v. Hartmarx Corp.,
496 U.S. 384, 110 S. Ct. 2447 (1990)..................................................................15
Dental v. City of Salem,
No. 3:13-CV-1659-HU, 2014 WL 4243777 (D. Or. Aug. 20, 2014) ..................11
Glus v. Brooklyn Eastern District Terminal,
359 U.S. 231, 79 S. Ct. 760 (1959) ......................................................................23
Gonzalez v. Roman Catholic Archbishop of Manila,
280 U.S. 1 (1929) .................................................................................................34
Greene v. Legacy Emanuel Hospital,
335 Or. 115, 60 P.3d 535 (2002) .................................................................. 13, 17
Griffeth v. Utah Power & Light Co.,
226 F.2d 661 (9th Cir. 1955) .................................................................................9

vi

Hamling v. United States,
418 U.S. 87, 94 S. Ct. 2887 (1974) ........................................................................6
Hana Fin., Inc. v. Hana Bank,
574 U.S. 418, 135 S. Ct. 907 (2015)......................................................................6
Hennegan v. Pacifico Creative Serv., Inc.,
787 F.2d 1299 (9th Cir.1986) ..............................................................................19
Hohri v. United States,
847 F.2d 779 (Fed. Cir. 1988)..............................................................................11
Holmberg v. Armbrecht,
327 U.S. 392, 66 S. Ct. 582 (1946) ..................................................................6, 23
Hosanna-Tabor Evangelical Lutheran Church & Sch. v. E.E.O.C.,
565 U.S. 171 (2012) ................................................................................ 24, 25, 27
Kaseberg v. Davis Wright Tremaine, LLP,
351 Or. 270, 265 P.3d 777 (2011) .......................................................................13
Kedroff v. Saint Nicholas Cathedral
of Russian Orthodox Church in North America,
344 U.S. 94, 73 S. Ct. 143 (1952) ........................................................................32
Korff v. City of Phoenix,
700 F. App’x 573, 2017 WL 4947414 (9th Cir. 2017) ..........................................9
Maktab Tarighe Oveyssi Shah Maghsoudi, Inc. v. Kianfar,
179 F.3d 1244 (9th Cir. 1999) .............................................................................33
Merck & Co. v. Reynolds,
559 U.S. 633, 130 S. Ct. 1784 (2010)....................................................................6
Ogan v. Ellison,
297 Or. 25, 682 P.2d 760 (1984) .........................................................................13
Order of Railroad Telegraphers v. Railway Express Agency,
321 U.S. 342, 64 S. Ct. 582 (1944) ......................................................................22
Oregon Life & Health Ins. Guar. Ass’n v. Inter-Reg’l Fin. Grp., Inc.,
156 Or. App. 485, 967 P.2d 880 (1998) ..............................................................15
Philpott v. A.H. Robbins Co., Inc.,
710 F.2d 1422 (9th Cir. 1983) .............................................................................19

vii

Puri v. Khalsa,
321 F.Supp.3d 1233 (D. Or. 2018) ........................................................... 1, 27, 32
Puri v. Khalsa,
844 F.3d 1152 (9th Cir. 2017) .........................................................................1, 26
Rosekrans v. Class Harbor Ass’ n, Inc.,
228 Or. App. 621, 209 P.3d 411 (2009) ..............................................................24
S.E.C. v. M & A West, Inc.,
538 F.3d 1043 (9th Cir. 2008) .............................................................................17
Sears, Roebuck & Co. v. Metro. Engravers, Ltd.,
245 F.2d 67 (9th Cir. 1956) .................................................................................16
SEC v. Koracorp Indus.,
575 F.2d 692 (9th Cir.), cert. denied, 439 U.S. 953, 99 S. Ct. 348 (1978) .........17
Serbian Eastern Orthodox Diocese for the United States
of America and Canada v. Milivojevich,
426 U.S. 696, 96 S. Ct. 2372 (1976) ....................................................................32
Strawn v. Farmers Ins. Co. of Oregon,
350 Or. 336, 258 P.3d 1199, adhered to on reconsideration, 350 Or. 521,
256 P.3d 100 (2011) .............................................................................................10
Suzuki Motor Corp. v. Consumers Union, Inc.,
330 F.3d 1110 (9th Cir. 2003) ...............................................................................9
T.R. v. Boy Scouts of Am.,
344 Or. 282, 181 P.3d 758 (2008) ...................................................................7, 14
United States v. Gaudin,
515 U.S. 506, 115 S. Ct. 2310 (1995)....................................................................6
Vucinich v. Paine, Webber, Jackson & Curtis, Inc.,
739 F.2d 1434 (9th Cir. 1984) .............................................................................16
Wood v. Santa Barbara Chamber of Commerce, Inc.,
705 F.2d 1515 (9th Cir.1983) ..............................................................................19
Statutes & Other Authorities:
U.S. Const. Amend. I .................................................................................................1
28 U.S.C. 1254(1) ......................................................................................................1
viii

Dobbs, 1 THE LAW OF TORTS § 218 .........................................................................17
Fed. R. Civ. P. 11 .................................................................................. 10, 11, 15, 35
Fed. R. Civ. P. 11(b) ................................................................................................10
O.R.S. §12.110(1) ......................................................................................................2

ix

OPINIONS BELOW
The opinion of the Court of Appeals (App. A, infra) is available at 788
Fed.Appx. 563. The opinion of the District Court (App. B, infra) is reported at 321
F.Supp.3d 1233. The published portion of the prior opinion of the Court of
Appeals (App. C, infra) is reported at 844 F.3d 1152 and the unpublished portion
(App. D, infra) is available at 674 Fed.Appx. 679. The prior opinion of the District
Court is set forth in Appendix E (App. E, infra).
JURISDICTION
The judgment of the court of appeals was entered on December 23, 2019. A
petition for rehearing was denied on February 3, 2020 (App. F, infra). On March
19, 2020, due to the COVID-19 crisis, this Court extended the time within which to
file a petition for a writ of certiorari by 150 days from the date of the order denying
a timely petition for rehearing. The jurisdiction of this Court is invoked under 28
U.S.C. 1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The First Amendment to the Constitution provides, in relevant part:
“Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof ***.” U.S. Const. Amend. I. is reproduced in
the appendix to this petition. Oregon Revised Statutes provide, in relevant part,

1

“An action . . . shall be commenced within two years; provided, that in an action at
law based upon fraud or deceit, the limitation shall be deemed to commence only
from the discovery of the fraud or deceit.” O.R.S. §12.110(1).

STATEMENT
This case involves important issues regarding the proper application of the
Ministerial Exception and the Ecclesiastical Abstention doctrine under the First
Amendment, as well as the Court of Appeals’ sua sponte determination on de novo
review of a summary judgment determining when Petitioners “should have known”
a fraud has been perpetrated against them such that the statute of limitations bars
their claim for fraud under the discovery rule.
The Court of Appeals in this instance sidestepped the First Amendment
issues and, Petitioners believe, improperly determined that Petitioners “should
have known” a fraud had been perpetrated against them in 2004. To reach that
conclusion it relied on statements that the Petitioners “believed” they should have
been appointed to the boards of Siri Singh Sahib Corporation (“SSSC”) and Unto
Infinity, LLC (“UI”) upon the death of Yogi Bhajan without being able to know or
confirm that Yogi Bhajan had taken the appropriate measures to appoint them to
the Boards. The Court of Appeals’ reliance on the statement that “the family
obtained a lawyer in 2004 to represent their interests in obtaining the board

2

positions” was improper because it was unsupported argument by Respondents and
was denied and disputed by the Family. The lawyer was not hired to represent
Petitioners’ interests in obtaining the board positions but to assist Petitioners in
probate matters arising from Yogi Bhajan’s death in October 2004. [ER 625]
Dismissal of Petitioners’ claims on statute of limitations grounds was
unfounded, contrary to law and was unjust. The Court of Appeals should have
addressed the First Amendment issues which are necessary to clarify that nonreligious entities, even those with religious affiliates, must comply with neutral
principles of corporate law with respect to appointment of Board members not
employed by a church and whom do not minister to the faithful in that capacity and
that do not implicate religious doctrine, and that the Ministerial Exception and
Ecclesiastical Abstention Doctrine are inapplicable in these circumstances.

REASONS FOR GRANTING THE PETITION
This petition should be granted because:
(a) the Ninth Circuit “United States Court of Appeals has entered a decision
in conflict with the decision of other United States courts of appeals on the same
important matter [i.e. the proper review of summary judgment determinations and
the applicability of First Amendment principles to non-church entities]” and “has
so far departed from the accepted and usual course of judicial proceedings, or

3

sanctioned such a departure by a lower court, as to call for an exercise of this
Court’s supervisory power”; and
(b) applicability of the Ministerial Exception and the Ecclesiastical
Abstention Doctrine to non-church entities’ duty to comply with their recorded
governance documents under neutral principles of state law are important
questions of federal law that should be settled by this Court.”
The Ninth Circuit Court of Appeals held that:
The record reflects that Appellants knew, or should have known, of
the alleged acts giving rise to their claims by 2004. Bibiji confirmed
in her deposition that she knew that she should have occupied a board
seat shortly after her husband’s death in 2004. Kamaljit and Kulbir
testified to similar knowledge. And the family obtained a lawyer in
2004 to represent their interests in obtaining the board positions.”
The holding of the Court of Appeals is incorrect and warrants this Court’s
review, because the alleged “facts” on the statute of limitations issue cited in
support of the Court of Appeal’s Opinion were disputed by Petitioners on summary
judgment, as the Court of Appeals itself recognized, requiring a trial by jury. The
Court of Appeals improperly sought to resolve the disputed issues of fact and made
findings that are inconsistent with the evidence of record in contravention to the
teachings of this Court and well-established precedents.
The Ninth Circuit “United States Court of Appeals has entered a decision in
conflict with the decision of other United States courts of appeals on the …
4

important matter” of the consistent application of summary judgment standards
and the appropriate limits of appellate review and “has so far departed from the
accepted and usual course of judicial proceedings, or sanctioned such a departure
by a lower court, as to call for an exercise of this Court’s supervisory power The
exercise of this Court’s supervisory powers is required.
This Court also needs to provide guidance that the Ministerial Exception and
Ecclesiastical Abstention Doctrine are inapplicable to non-church entities such as
SSSC and UI, and in cases where the relief sought does not implicate church
employees or involve religious doctrine and merely requires compliance with
neutral principles of state law which sanction the existence of those entities and
require adherence to their governance documents.

I.

DE NOVO REVIEW DOES NOT ENTITLE THE COURT OF
APPEALS TO WEIGH THE EVIDENCE TO RESOLVE DISPUTED
FACTS, OR TO MAKE FINDINGS THAT ARE NOT SUPPORTED
BY THE EVIDENCE ON SUMMARY JUDGMENT
The Court of Appeals’ factual findings are incorrect. The record does not

reflect that Appellants knew, or should have known, of the alleged acts giving rise
to their claims by 2004. Bibiji, Kamaljit and Kulbir’s deposition testimony only
confirmed their expectations that they should have occupied a board seat shortly
after Yogi Bhajan’s death in 2004 based on Yogi Bhajan’s statements to them, not
that they knew Yogi Bhajan had made the designations he promised or that those
5

designations were self-executing and that the Boards were without discretion to not
implement them. The lawyer the family retained in 2004 was tasked solely to
represent their interests in connection with the probate issues and not with respect
to obtaining the board positions. [ER 625; 662; 666; 857-58]
It is not proper for a reviewing court on summary judgment to impute
knowledge to a nonmoving party, in applying the statute of limitations, particularly
where the evidence shows Defendants fraudulently concealed the facts necessary
to support essential elements for Petitioners’ claims. See, e.g., Merck & Co. v.
Reynolds, 559 U.S. 633, 644–45, 130 S.Ct. 1784, 1794 (2010) “where (a plaintiff
has been injured by fraud and remains in ignorance of it without any fault or want
of diligence or care on his part, the bar of the statute does not begin to run until the
fraud is discovered.”) (quoting Holmberg v. Armbrecht, 327 U.S. 392, 397, 66
S.Ct. 582 (1946). Hana Fin., Inc. v. Hana Bank, 574 U.S. 418, 422–23, 135 S.Ct.
907, 911 (2015) (“[W]hen the relevant question is how an ordinary person or
community would make an assessment, the jury is generally the decisionmaker that
ought to provide the fact-intensive answer.”) (citing United States v. Gaudin, 515
U.S. 506, 512, 115 S.Ct. 2310 (1995).) See also Hamling v. United States, 418 U.S.
87, 104–105, 94 S.Ct. 2887 (1974) (emphasizing “the ability of the juror to
ascertain the sense of the ‘average person’ ” by drawing upon “his own knowledge

6

of the views of the average person in the community or vicinage from which he
comes” and his “knowledge of the propensities of a ‘reasonable’ person”).
It was improper for the Court of Appeals to weigh the evidence to resolve
disputed facts or rule on questions of scienter. The District Court realized factual
findings about scienter must be reserved to the jury; he did not grant Defendants’
motion for summary judgment on statute of limitations. T.R. v. Boy Scouts of Am.,
344 Or. 282, 296, 181 P.3d 758, 765 (2008). The Court of Appeals could not have
concluded that no reasonable jury could have found Petitioners did not know that
Yogi Bhajan had given the appropriate instructions to appoint Petitioners to the
SSSC and UI Boards or that their governing documents required Petitioners’
appointment in 2004, when the undisputed evidence established Plaintiffs did not
have that knowledge until mid-2009. [ER 662; 666]
The Court of Appeals decision is premised on an erroneous understanding of
the facts regarding what Petitioners knew and when. The Court of Appeals failed
to recognize Plaintiffs could not have asserted their claims until they discovered
the Bylaws and Operating Agreements of SSSC and UI established a succession
plan allowing Yogi Bhajan to designate successor Directors and that he had made
such a designation including them. Merely believing they should be installed on
the Boards because Yogi Bhajan had told them he would appoint them is

7

insufficient to sue without also knowing he had made a designation and his
designation was self-executing upon his death to install Plaintiffs to the Boards.
The Memorandum Opinion improperly focuses on Bibiji, Kamaljit and
Kulbir’s beliefs that they should have occupied board seats rather than recognizing
their lack of knowledge about what the governing documents of those entities
established as a succession plan and that they had a right to be installed under those
plans because Yogi Bhajan had made the required designations, especially when
the evidence showed the Defendants deliberately deceived Plaintiffs and strung
them along. [ER 625-26; 634-35]
The Court of Appeals was also misled into believing that Petitioners had
retained a lawyer in 2004 to secure their board positions; that was just legal
argument by Respondents without factual support. The undisputed evidence shows
Plaintiffs did not retain counsel on this issue until mid-2009 after receipt of the
Bylaws. [ER 637; 662; 666]
These disputed issues of fact must be viewed in a light most favorable to
Petitioners on summary judgment and require a trial by jury on the statute of
limitations issue. Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255, 106 S.Ct.
2505 (1986) (“The evidence of the nonmovant is to be believed, and all justifiable
inferences are to be drawn in his favor.”). The Court of Appeals did not do that.

8

A.

The Court Of Appeals Reviews Summary Judgment De Novo And
Must Apply The Same Legal Standards As The District Court

A summary judgment is reviewed de novo, using the same standard as the
trial court. Branch Banking & Tr. Co. v. D.M.S.I., LLC, 871 F.3d 751, 759 (9th
Cir. 2017); Suzuki Motor Corp. v. Consumers Union, Inc., 330 F.3d 1110, 1131
(9th Cir. 2003). The evidence and inferences therefrom must be viewed in the
light most favorable to the nonmoving party and summary judgment must be
denied if there are any genuine issues of material fact. Brosseau v. Haugen, 543
U.S. 194, 195 n.2, 125 S. Ct. 596, 597 n.2 (2004). The purpose of summary
judgment is to identify whether material fact questions exist, not to resolve them.
Korff v. City of Phoenix, 700 F. App’x 573, (Mem)–574, 2017 WL 4947414 (9th
Cir. 2017).
Resort to summary judgment procedure is futile where there is any
doubt as to whether there is a fact issue. All doubts upon the point
must be resolved against the moving party. … This procedure is not,
and of right ought not to be, a substitute for a trial by jury or judge.
Griffeth v. Utah Power & Light Co., 226 F.2d 661, 669 (9th Cir. 1955) (footnotes
omitted, emphasis added).
On de novo review the Court of Appeals affirmed Summary Judgment on
grounds the District Court did not rely upon below; perhaps a strong signal the
District Court realized disputed facts on the issue of scienter precluded summary
judgment. Even though the Panel agreed the discovery rule applies, and the
9

evidence unequivocally established Defendants engaged in deception and
deliberate coverup, the Court of Appeals somehow concluded that Petitioners
“should have known” they had justiciable claims in 2004. The facts and the law do
not support such a finding.
B.

Petitioners Were Not Aware Of Facts Sufficient To State A Cause
Of Action For Fraud Under Rule 11 Until 2010

Fed.R.Civ.P. 11 requires all pleadings be based on “actual knowledge” or
“information, and belief, formed after an inquiry reasonable under the
circumstances” that “the claims, defenses, and other legal contentions are
warranted by existing law or by a nonfrivolous argument for extending, modifying,
or reversing existing law or for establishing new law” and that “factual contentions
have evidentiary support” and will have evidentiary support after a reasonable
opportunity for further investigation or discovery Fed.R.Civ.P. 11(b).
A fraud claim must allege: “the defendant made a material
misrepresentation that was false; the defendant did so knowing that the
representation was false; the defendant intended the plaintiff to rely on the
misrepresentation; the plaintiff justifiably relied on the misrepresentation; and the
plaintiff was damaged as a result of that reliance.” Strawn v. Farmers Ins. Co. of
Oregon, 350 Or. 336, 352, 258 P.3d 1199, 1209, adhered to on reconsideration,
350 Or. 521, 256 P.3d 100 (2011).

10

Petitioners did not know Defendants’ representations were false until 2010
and therefore could not have in good faith pled Defendants had knowingly made
false representations until then. Dental v. City of Salem, No. 3:13-CV-1659-HU,
2014 WL 4243777, at *5 (D. Or. Aug. 20, 2014) citing Hohri v. United States, 847
F.2d 779, 783 n. 6 (Fed.Cir.1988) (Baldwin, J., dissenting in part) (Rule 11 is a
judicial weapon against claims that do not have a good faith basis, and noting the
“emphasis on developing a good faith basis for complaints before they are filed”
as well as “the concomitant distaste for using discovery for unknowing fishing
expeditions”). .
Petitioners’ belief in 2004 through 2010 that they were entitled to be placed
on SSSC and other boards was based on oral communications with Yogi Bhajan
and his assurances to them. They did not know the governing documents of SSSC
required installation of the persons identified in Yogi Bhajan’s written
designations, or that Yogi Bhajan had in fact included them in his designation.
Defendants concealed the Bylaws and Yogi Bhajan’s designations from
Petitioners.
Petitioners only received copies of SSSC’s Articles and Bylaws on March
27, 2009 in connection with a separate matter, and learned Yogi Bhajan was to
make a written designation of board members of SSSC. [ER666] Petitioners still
did not have possession of the designations and could not assert they had been in

11

fact included. Petitioners only discovered Defendants’ lies in or about March
2010 after the Consent Minutes appointing Bibiji to the UI board were filed in the
State Court Action. [ER627, 636-37, 648-49, 661, 669-709]
The vast majority of the documents and information known to Petitioners
was gathered from the State Court Action. However, Petitioners were not parties to
that action and discovery conducted in that case was shielded by a protective order.
Testimony from the attorney for SSSC and UI only came to be known by
Petitioners after it was filed in a pleading in open court. [ER665;706-09]
Defendants’ involvement and activities were not known until much later.
C.

The Court Of Appeals Failed To View The Facts And Draw
Inferences Most Favorably To Petitioners

On review of a summary judgment the Court of Appeals should not have
disregarded evidence that Petitioners relied upon statements by the persons then in
charge of SSSC, UI, and the attorney for those entities, that Petitioners were not
entitled to be immediately appointed to the governing boards of those entities.
[ER665-66] The Court of Appeals should not have inferred that Petitioners had
sufficient factual knowledge to state a claim for fraud under Rule 11, in 2004.
The Court of Appeals should not have engaged in weighing of the evidence,
ruling on credibility or inherently factual issues such as scienter and accrual of
knowledge.

12

This is not a case where a reasonable jury could ONLY reach the conclusion
that Petitioners “knew or should have known” the critical facts on any particular
date and did not file suit. Quite the contrary. Central to resolution of whether
Petitioners’ claims are barred is a necessary determination of each of the facts
about when they knew Yogi Bhajan had executed a written designation placing
them on the boards of SSSC and UI, and that those entities were bound by that
designation. The proof of those facts was in the hands of Defendants who kept the
information secret.
Under the discovery rule, the period of limitations is deemed to have
commenced from the earlier of two possible events: “(1) the date of the plaintiff’s
actual discovery of injury; or (2) the date when a person exercising reasonable care
should have discovered the injury, including learning facts that an inquiry would
have disclosed.” Greene v. Legacy Emanuel Hospital, 335 Or. 115, 123, 60 P.3d
535 (2002) (emphasis in original); see also Kaseberg v. Davis Wright Tremaine,
LLP, 351 Or. 270, 278, 265 P.3d 777 (2011) (“The discovery rule applies an
objective standard”).
As to the claims based on fraud, … On summary judgment, the date of
the discovery of the fraud is a disputed fact to be resolved by the trier
of fact.
Ogan v. Ellison, 297 Or. 25, 35, 682 P.2d 760, 766 (1984) (emphasis added).
The Court of Appeals acknowledged the applicability of the discovery rule

13

which tolls statutes under certain circumstances but failed to recognize the
“application of the discovery accrual rule is a factual issue for the jury unless the
only conclusion a reasonable jury could reach is that the plaintiff knew or should
have known the critical facts at a specified time and did not file suit within the
requisite time thereafter.” T.R. v. Boy Scouts of Am., 344 Or. 282, 296, 181 P.3d
758, 765 (2008) (emphasis added). +
Yet, without any specific citation to the record or viewing the facts most
favorably to Petitioners, the Court of Appeals concluded “Appellants knew, or
should have known, of the alleged acts giving rise to their claims by 2004.”
Bibiji’s deposition testimony was only that, sitting there as she was, she knew she
should have occupied a board seat shortly after her husband’s death in 2004, not
that she knew in 2004 she was entitled to that seat.
The Court of Appeals improperly relied on the fact that the Family had
retained counsel to address estate issues relating to Yogi Bhajan’s death in 2004 to
conclude that counsel was also charged pursuing with Petitioners’ interests in
obtaining the board positions.
The Court of Appeals’ suggestion that believing “key material facts were not
as they had been represented” is enough to file a fraud claim urges filing first and
developing a factual and legal basis for the claims later through discovery is
contrary to long standing countless precedent from courts throughout the United

14

States, including this Court, and including by codifying Rule 11 of the Federal
Rules of Civil Procedure, that such claims are insufficient and such tactics will not
be tolerated. Cooter & Gell v. Hartmarx Corp., 496 U.S. 384, 393, 110 S.CT.
2447, 2454 (1990) (“Rule 11 imposes a duty on attorneys to certify that they have
conducted a reasonable inquiry and have determined that any papers filed with the
court are well grounded in fact, legally tenable, and ‘not interposed for any
improper purpose.’ an attorney who signs the paper without such a substantiated
belief ‘shall’ be penalized by ‘an appropriate sanction.’ ”
The Court of Appeals gave no citation to the specific portions of the
depositions or the exact statements made or the context in which the testimony was
given. The Court of Appeals fails to explain how Petitioners could have known or
should have known they were being done dirty when Defendants were lulling
Petitioners into inaction by representing they were working to get Petitioners on
the boards but they needed security clearances, and using other delay tactics.
Unlike in as Oregon Life & Health Ins. Guar. Ass’n v. Inter-Reg’l Fin. Grp.,
Inc., 156 Or. App. 485, 967 P.2d 880 (1998), Defendants continually assured
Petitioners they were doing all they could to get them on the boards, but their
hands were tied by outside forces and legal requirements. Petitioners did not know
Defendants were deliberately lying to them and hiding relevant documents. Nor
did Petitioners know that the Boards of SSSC and UI had no discretion in regard to

15

turning over control to those designated by Yogi Bhajan or that he had made the
required designations or that the Petitioners were included in those designations.
Plaintiffs’ testimony, when viewed in proper context, does not support the
Court of Appeals’ ruling. For example, in Sears, Roebuck & Co. v. Metro.
Engravers, Ltd., 245 F.2d 67, 70 (9th Cir. 1956) the District Court assumed that
Sears should have discovered they had made overpayments for engraving services
for over 15 years and ruled that laches or the statute of limitations barred the
plaintiff’s claim. The Court of Appeals reversed, stating:
While the motion for summary judgment is not before this Court
because the trial court did not rule upon it, the following discussion
will indicate in our opinion, whatever the state of the record, there
were material questions of disputed fact arising on the face of the
amended complaint which could be settled only by trial.
…
But the complaint explicitly alleges Sears had no knowledge of any of
the matter set out in the complaint until December 10, 1951, since it
only started an investigation upon receiving an anonymous letter July
6, 1951. It was error to sustain a motion to dismiss when the clear
allegation of the complaint was to the contrary. There was a question
of fact to be tried. …But here there was a question of fact as to the
knowledge of Sears which could not be thud decided [sic] without
evidence.
Sears, 245 F.2d at 70.
Summary judgment is generally inappropriate when mental state is an
issue, unless no reasonable inference supports the adverse party’s
claim. Id. at 1298–99.
Vucinich v. Paine, Webber, Jackson & Curtis, Inc., 739 F.2d 1434, 1436 (9th Cir.
1984).
16

Petitioners’ state of mind was most certainly in issue here. Petitioners had
expectations based on conversations with Yogi Bhajan but they did not know Yogi
Bhajan had taken all necessary actions for their appointment nor that Defendants
had been lying about their entitlements. Defendants also induced delay by assuring
Petitioners they were going to be installed in due course and then trying to spin
those promises as merely written acknowledgement of Petitioners’ desires to be
placed on the boards of SSSC and UI.
Nor is summary judgment appropriate where credibility is at issue.
Credibility issues are appropriately resolved only after an evidentiary hearing or
full trial. SEC v. Koracorp Indus., 575 F.2d 692, 699 (9th Cir.), cert. denied, 439
U.S. 953, 99 S.Ct. 348 (1978). See also S.E. C. v. M & A W., Inc., 538 F.3d at
1054–55 (9th Cir.2008). Petitioners testified they were unaware of their
appointment to the SSSC and UI boards until 2010. [ER 627; 636; 648; 661] The
credibility of Petitioners’ testimony is directly at issue. In such circumstances, it is
inappropriate to rule against Petitioners on summary judgment.
The Court of Appeals believed Petitioners should have been on inquiry
notice. However, even when a duty to investigate exists, the statute only begins to
run if the investigation would have disclosed the necessary facts. Greene v. Legacy
Emanuel Hospital, 335 Or. at 123. See also Dobbs, 1 THE LAW OF TORTS § 218.
It is the party asserting the statute of limitations defense that must prove that an

17

investigation would have disclosed those facts. Doe, 322 Or. at 514–15, 910 P.2d
364. They did not prove that in this case.
Defendants deliberately misrepresented the facts. Petitioners only
discovered Defendants’ lies in or about March 2010. [Id.] Petitioners were not
parties to the State Court Action and the discovery in that case was shielded by a
protective order. Petitioners only learned of the testimony of SSSC and UI’s
attorney concerning events after it was filed in a pleading in open court. Other
Defendants’ involvement and activities were not known until much later.
Petitioners acted promptly when they became aware of the documents which
supported their claims. Without documents showing Petitioners were appointed to
the SSSC and UI Boards by Yogi Bhajan, Petitioners could not establish their
exclusion was unlawful.
There are no facts which establish as a matter of law Petitioners knew or
should have known of the liability of Defendants more than two years before the
filing of the Complaint. At most, Defendants have raised an issue which must be
adjudicated by a jury – it could not be resolved on a motion for summary
judgment.

18

D.

Statutes Of Limitations Are Tolled Where, As Here, Facts
Supporting A Plaintiffs’ Claims Were Deliberately Concealed

This Court has held that federal courts have the unrestricted power to toll the
statute of limitations in circumstances such as this, where Petitioners were induced
through fraudulent concealment not to file suit. American Pipe, supra, 414 U.S. at
559, 94 S.Ct. at 769. See also. Hennegan v. Pacifico Creative Serv., Inc., 787 F.2d
1299, 1302 (9th Cir.1986). “A fraudulent concealment defense requires a showing
both that the defendant used fraudulent means to keep the plaintiff unaware of his
cause of action, and also that the plaintiff was, in fact, ignorant of the existence of
his cause of action.” Wood v. Santa Barbara Chamber of Commerce, Inc., 705
F.2d 1515, 1521 (9th Cir.1983). Both are met here.
In fact, the Court of Appeals itself, applying Oregon law, has held that
equitable estoppel serves to bar a statute of limitations defense when: (1) the
defendant “lulled the plaintiff, by affirmative inducement, into delaying the filing
of a cause of action, or similarly, ... he lulled the plaintiff into believe he had no
cause of action against the defendant[.]” or (2) “there has been fraud on the part of
a fiduciary in concealing material facts evincing a cause of action.” Philpott v. A.H.
Robbins Co., Inc., 710 F.2d 1422, 1425 (9th Cir. 1983). Both situations exist in
this case.
Oregon courts have held that where, as here, “plaintiffs have specifically and
precisely alleged how they made repeated inquiries, but were provided with vague
19

answers and misrepresentations, which is sufficient to allege that a reasonably
diligent inquiry would not have uncovered the fraud. Nothing more is needed.”
Brooks v. BC Custom Constr., Inc., No. 3:18-CV-00717-YY, 2019 WL 3763769,
at *20 (D. Or. May 21, 2019), report and recommendation adopted, No. 3:18-CV00717-YY, 2019 WL 3502907 (D. Or. Aug. 1, 2019).
In the State Court Action, Judge Roberts found “Unto Infinity and KITT,
and the majority of their boards, assisted by Roy Lambert acted consistently and
knowingly . . . to mislead and misinform persons and organizations . . ..” Judge
Roberts also found, “[t]he indirection and misleading communications that
characterized communications by and in behalf of Unto Infinity and KIIT boards to
the community for which the Yogi Bhajan enterprises existed, carried over,
lamentably, to sworn trial testimony." [ER 855; 2039] Petitioners were given
constant reassurance that Defendants were working to place Petitioners on the
Boards and were told to be patient. Plaintiffs' investigation would have led to dead
end since all of the pertinent documents needed to establish Petitioners' claims
were in the hands of Defendants, who were actively lying and concealing the truth
from Petitioners and others.
Petitioners did not discover Bibiji’s exclusion from the UI Board until Mr.
McGrory attached Consent Minutes placing Bibiji on the UI Board to his March
10, 2010 Declaration in the State Court case. The facts and exhibits, including

20

deposition excerpts had hitherto not been public information, making it impossible
for Petitioners to have previously discovered that information.
Bibiji subpoenaed the articles for SSSC in a separate lawsuit to determine
whether SSSC should be identified as an asset of Yogi Bhajan’s personal estate for
probate and distribution purposes. Defendants caused SSSC to resist the subpoena.
Peitioners ultimately received copies of SSSC’s Articles and Bylaws on March 27,
2009. [ER 666] The Articles revealed Yogi Bhajan was to designate his successor
Board in writing provided to Yogi Bhajan’s attorney. On December 21, 2009,
Judge Roberts in a pending State Court case ordered SSSC’s Articles and Bylaws
be produced to the Private Plaintiffs represented by counsel for Defendants here,
after Defendants in the State Court action had resisted and refused to produce
them.
Bibiji’s deposition testimony was misconstrued; she did not testify she knew
in 2004, only that at the time of her deposition she knew she was to be appointed in
2004.
E.

The Purpose Of The Statute Of Limitations Is Not Served By
Barring Petitioners’ Claims

This Petition seeks to correct a Court of Appeals decision that conflicts with
this Court’s ruling in American Pipe & Const. Co. v. Utah, 414 U.S. 538, 559, 94
S.Ct. 756, 769 (1974). This Court has stated: “statutory limitation periods are

21

‘designed to promote justice by preventing surprises through the revival of claims
that have been allowed to slumber until evidence has been lost, memories have
faded, and witnesses have disappeared. …’ ” American Pipe, 414 U.S. at 554, 94
S. Ct. at 766 (quoting Order of Railroad Telegraphers v Railway Express Agency,
321 U.S. 342, 348-49, 64 S.Ct. 582 (1944).)
Barring Petitioners from pursuing their claims would not further the
underlying purpose of the statute of limitations. No evidence was lost, no
witnesses have disappeared, and memories have not faded to a prejudicial extent as
the facts have been litigated in the State Court Action against several of the
Defendants and deposition and trial testimony plus existing documents would
sufficiently refresh memories which may have faded (which is extremely doubtful
given the circumstances of this case since the issues have been ongoing for many
years).
The purpose of a statute of limitations is to require a claim to be adjudicated
while evidence is still available so that a defendant may prepare a proper defense.
Defendants were always in possession of all the evidence and were keeping it from
the Petitioners. In such situations all doubt should be weighed heavily in favor of
Plaintiffs. Moreover, Defendants deliberately deceived Petitioners and withheld
documents to prevent Petitioners from exercising their rights.

22

Barring Petitioners’ just claims in such circumstances would subvert the
purposes of the statute of limitations and allow Defendants to use it as a sword
instead of a shield. That would be a totally inequitable and unjust result.
This Court in American Pipe ruled federal courts have the unrestricted
power to toll the statute of limitations under certain circumstances. American Pipe
explained, by an example that precisely mirrors this case, that when the delay in
filing was induced by the defendant, “or because of fraudulent concealment, this
Court has not hesitated to find the statutory period tolled or suspended by the
conduct of the defendant.” Id. 414 U.S. at 559, 94 S. Ct. at 769 (citing Glus v.
Brooklyn Eastern District Terminal, 359 U.S. 231, 79 S.Ct. 760 (1959), and
Holmberg v. Armbrecht, 327 U.S. 392, 66 S.Ct. 582 (1946).) That is what
happened here and the Court of Appeals’ decision that Petitioners’ claims are time
barred conflicts with the teachings of American Pipe.
This Petition implicates exceptionally important questions that affects all
cases of every vein. The Court of Appeals did not apply the rules set forth by this
Court relating to proper application of statutes of limitation.

23

II.

THE COURT OF APPEALS SHOULD HAVE CORRECTED THE
DISTRICT COURT’S ERRONEOUS APPLICATION OF THE
MINISTERIAL EXCEPTION AND ECCLESIATICAL ABSTENTION
DOCTRINE TO EXCUSE COMPLIANCE BY NON-CHURCH
CORPORATE ENTITIES WITH THEIR OWN ARTICLES AND
OPERATING AGREEMENT AS IS REQUIRED BY NEUTRAL
PROVISIONS OF STATE LAW
Oregon, like every other state, requires entities formed under its laws to

comply with the terms set forth in their Articles and Operating Agreement.
Rosekrans v. Class Harbor Ass’ n, Inc., 228 Or. App. 621, 209 P.3d 411 (2009)
(enforcing bylaws). Petitioners in this case sought application of neutral state law
to implement the succession of control provisions of SSSC and UI, which were not
themselves churches, but which own Sikh Dharma International (“SDI”) which
engages in church activities.
A.

The Ministerial Exception Does Not Apply On The Facts Of This
Case

In ruling on Defendants’ motion for summary judgment the District Court
improperly applied this Court’s decision in Hosanna-Tabor Evangelical Lutheran
Church & Sch. v. E.E.O.C., 565 U.S. 171, 188 (2012) regarding the applicability of
the Ministerial Exception under the First Amendment.
This Court held in Hosanna-Tabor that judicial review of a religious group’s
ministerial employment decisions would constitute “government interference with
an internal church decision that affects the faith and mission of the church itself”

24

(Hosanna-Tabor, 565 U.S. at 190), and that “[r]equiring a church to accept or
retain an unwanted minister, or punishing a church for failing to do so, intrudes
upon more than a mere employment decision. Such action interferes with the
internal governance of the church, depriving the church of control over the
selection of those who will personify its beliefs.” Id. at 188. That is not what this
case is about and the concerns of Hosanna-Tabor are not implicated here.
The plaintiff in Hosanna-Tabor, was a minister “Called” as a teacher of a
school operated by a member congregation of the Lutheran Church. The
congregation issued the teacher a “diploma of vocation” according her the title
“Minister of Religion, Commissioned” reflecting a significant degree of religious
training, followed by a formal process of commissioning, and the teacher held
herself out as a minister by accepting the formal call to religious service, claiming
a special housing allowance on her taxes, and her job duties reflected a role in
conveying the Church’s message and carrying out its mission. By contrast,
Petitioners were appointed to the Boards of SSSC and UI by Yogi Bhajan and their
positions and duties on those Boards do not require them to conduct any religious
activities.
The indisputable evidence confirms that no SSSC Board Member, as Board
Member, is involved in “how the members of Sikh Dharma worship, the
requirements for attending worship services, the number of active members in the

25

religion and the forms of sacraments, including baptisms, weddings and funerals”;
all of those functions are performed by SDI without SSSC’s involvement or
participation.
As the Court of Appeals noted when it took up the case from the District
Court’s grant of a Motion to Dismiss the Complaint with prejudice, “this case
appears to concern board members who, in that capacity, are neither employed by
a church nor employed to minister to the faithful.” Puri v Khalsa, 844 F.3d 1152,
1162 (9th Cir. 2017). “UI and SSSC are not churches,” even though the
organizations have some religious purposes. Id at 1160-61 (noting that “the
complaint alleges that a ‘mission and purpose’ of SSSC and UI is ‘to benefit the
Sikh Dharma community and to advance and promote [Yogi Bhajan’s]
teachings’”).
Notably, the Court of Appeal recognized in that earlier appeal that “it is not
clear that the ministerial exception could ever apply to the type of positions at issue
here. This is a dispute over seats on the boards of corporate entities that are
apparently affiliated with a church, but are not themselves churches.” Id. at 1159.
Nevertheless, despite this statement by the Court of Appeals the District
Court after remand ruled:
I conclude the application of the ministerial exception is a close call.
On one hand, the board members of SSSC did not appear to need a
religious title at the time of the employment decision in question. And
neither board appeared to require religious training. Furthermore, this
26

case falls outside the typical cases in which the ministerial exception
applies, which tend to involve religious educators. On the other hand,
the Supreme Court suggested “a fairly broad application of the
exception” in Hosanna-Tabor. Puri, 844 F.3d at 1159 (citing
Hosanna-Tabor, 565 U.S. at 188-89). I conclude the importance of
each board in the religious hierarchy of Sikh Dharma at the time
Plaintiffs allege they were appointed to the board is particularly
relevant. And there were significant religious duties involved in
these leadership positions, including choosing and firing religious
leaders, approving the governing documents of SDI, and approving
the actions of SDI’s board of directors.
Puri v. Khalsa, 321 F.Supp.3d 1233, 1248 (D. Or. 2018)(emphasis added). App. B
infra.
The evidence of record does not establish that the SSSC or UI Boards had
any involvement in the “the religious hierarchy of Sikh Dharma at the time
Plaintiffs allege they were appointed to the board” or that the Board Members had
any religious duties or any role in “approving the governing documents of SDI,
and approving the actions of SDI’s board of directors.” To the contrary, an
affiliate of ministers, Khalsa Council, which is neither owned nor controlled by
SSSC or UI was responsible for appointing religious leaders, ministers and
ensuring religious doctrine was followed.
The relief Petitioners seek would not implicate the decision by SDI, the only
church entity or religious organization involved. Nor was the decision one to
employ or not employ a minister; those decisions belong to SDI. This is a dispute
over seats on the boards of corporate entities that incidentally own a church but are

27

not themselves churches. Defendants contend the evidence establishes SSSC and
UI are inherently religious, but the facts prove otherwise.
The relevant facts are undisputed and unequivocally relate to the provisions
of the corporate governance documents for SSSC in place prior to October 2004
that establish the means and methods for succession of control over SSSC after the
death of Yogi Bhajan and his instructions to appoint Petitioners to the Boards of
SSSC, UI and other entities of their choosing; nothing else matters.
We need look no further than the public statements and acknowledgements
by SSSC on its own website (https://www.ssscorp.org/history--nonprofitstatus.html), through the Office of the Chancellor (SSSC and UI refer to their Chief
Legal Counsel, as “Chancellor”) and cannot be disclaimed or disavowed:
It is universally acknowledged that the Siri Singh Sahib prepared a list
containing the names of 13 qualified persons, including the Siri Sikdar
Sahib/a and the Bhai Sahib/a as ex-officio members, to sit on the initial
Siri Singh Sahib Corporation Board following his death, and that he
delivered said list in trust to Roy Lambert, the then attorney for the Siri
Singh Sahib Corporation and Unto Infinity.
On October 3, 2004, an Articles of Restatement of Siri Singh Sahib
Corporation was adopted by the then sitting board of directors, which
was subsequently filed with the State of Oregon on January 11, 2005.
In that document, the board members of Unto Infinity, the then existing
executive board of the organization, were given far reaching powers in
the organization, essentially giving them complete control not only of
Unto Infinity, but the Siri Singh Sahib Corporation itself.
As we know, the Siri Singh Sahib left his body on October 6, 2004. In
short, the members of the Unto Infinity Board were able to effectuate
their plan to take over complete control of the organization by having
28

their attorney, Roy Lambert, withhold the list of the names of the 15
persons the Siri Singh Sahib had appointed to serve on the initial Siri
Singh Sahib Corporation Board of Directors following his death and to
which he had entrusted Mr. Lambert. Essentially the Unto Infinity
board members filled that void in authority that they themselves had
created.
HARI NAM SINGH KHALSA
ASSISTANT CHANCELLOR OF
SIRI SINGH SAHIB CORPORATION
(Emphasis added.) If you can’t believe a corporate entities’ Assistant Chancellor
(i.e. Assistant General Counsel) and the entities’ own public pronouncements, who
can you believe? This is certainly an admission against interest if Respondents are
taking positions contrary to these public statements.
Enforcement of the governing documents does not invoke or implicate any
ministerial, religious or ecclesiastical doctrines or evaluation. It simply directs
installation of a slate of designees that Yogi Bhajan identified to Sopurkh, SSSC’s
President, and to his and SSSC’s, lawyers, Lambert/Schwabe. Yogi Bhajan made
his designations but, as indicated on SSSC’s own website, that act was kept secret
by the then sitting Board and SSSC and UI’s lawyer to subvert Yogi Bhajan’s
intentions and to allow them to convert company assets and pillage the companies.
These are not merely accusations; these are adjudicated facts Lambert/Schwabe
and the UI Defendants had possession of Yogi Bhajan’s designations but

29

intentionally concealed them and refused to comply with SSSC’s governance
documents.
As evidenced by the organizational chart of the various entities created by
Yogi Bhajan, it is only SDI which is the ecclesiastical entity, assisted and advised
by the Khalsa Council which is a council of Sikh ministers. [ER 2189-91] While
SSSC owns SDI, it does not ordain Sikh ministers or directly control the religious
activities or operations of SDI, which has its own Bylaws by which it operates.
SSSC sits atop of all other organizations created by Yogi Bhajan that
furthered his educational and charitable interests as well as his entrepreneurial
aspirations, including the Dharmic organizations, which are but a small percentage.
SSSC does not embody the church, in the form of its leadership body, for the
followers of Sikh Dharma in the Western Hemisphere, the church is SDI.
Defendants cited no evidence proving either SSSC or UI are a “Church” or
exercise ecclesiastical authority over the Sikh religion. In fact, that is the role of
SDI and the Khalsa Council, which have separate governing documents to guide
such ecclesiastical functions. According to Attorney Roy Lambert Yogi Bhajan
did not intend for any of the entities he created to exercise any religious authority,
but merely administrative authority. 1

The following is testimony from Roy Lambert, the attorney who formed the
entities for Yogi Bhajan:
1

30

The MacMillan Dictionary identifies numerous religious activities. See
https://www.macmillandictionary.com/thesaurus-category/british/religiousceremonies-and-practices. Defendants failed to show that SSSC or UI Board
Members are involved in any of those activities. Those activities are all under the
aegis of SDI and Khalsa Council.
Petitioners seek enforcement of the charters of SSSC and UI and Yogi
Bhajan’s dying directives. Petitioners seek implementation of the directives of the
last lawful authority over SSSC and UI, namely Yogi Bhajan, and not to effect any
change of religious personnel or doctrine. This does not implicate “matters of

Q.
. . . is it your understanding the Siri Singh Sahib Corporation primary goal,
then, was to promote the, use its assets to promote the religious aspect of the
community, of the entities?
A.
I would say no. And the reason I would say no is simply because I know
that YB wanted to benefit the entire community, and the entire community
encompasses the Yoga part of his loves, in addition to the Sikhism part of it. So in
that sense I say no.
* * *
A.
So what he wanted to do is recreate in a legal form the kind of organization
that he had created and controlled on a purely individual force of personality level.
And he did that by creating a sole member for each of these non-profits that would
exercise that kind of administrative authority. And it was very clear that what he
wanted was administrative authority. He was not looking for an entity to exercise,
in the case of Sikh Dharma, for example, any authority with respect to how it
conducted itself on a religious level. . . .
31

church government” or those of “faith and doctrine.” Thus, the “ministerial
exception” does not apply.
B.

The Ecclesiastical Abstention Doctrine Was Not Properly Applied
By The District Court

The District Court ruled the Ecclesiastical Abstention Doctrine bars
Plaintiffs’ claims by crediting disputed evidence in favor of the moving party
rather than in favor of the nonmoving party as required, and improperly
characterizing the issue as a “church leadership dispute.” Furthermore, the District
Court’s ruling on the Ecclesiastical Abstention Doctrine is dependent upon its
findings under the Ministerial Exception. Its Order granting summary judgment to
Defendants stated:
Given my conclusions that UI and SSSC are religious organizations,
and that board membership constitutes a religious leadership role in
SDI, I look to see how the case law that the Ninth Circuit previously
distinguished from this case may now apply to the facts of this case.
… To grant Plaintiffs’ requested relief, this Court would have to
determine the legitimacy of Yogi Bhajan’s succession. Additionally,
this relief would place Plaintiffs at the helm of religious institutions,
thus displacing board members chosen by other methods. In my view,
this raises a “substantial danger that the State will become entangled
in essentially religious controversies or intervene on behalf of groups
espousing particular doctrinal beliefs.”
Puri, supra, 321 F.Supp.3d at 1249, 1251(emphasis added) (citing this Court’s
rulings in Kedroff v. Saint Nicholas Cathedral of Russian Orthodox Church in North
America, 344 U.S. 94, 73 S.Ct. 143 (1952) and Serbian Eastern Orthodox Diocese

32

for the United States of America and Canada v. Milivojevich, 426 U.S. 696, 96 S.Ct.
2372 (1976) along with the Court of Appeals’ ruling in Maktab Tarighe Oveyssi
Shah Maghsoudi, Inc. v. Kianfar, 179 F.3d 1244 (9th Cir. 1999).)(emphasis added)
No religious decision is required to determine the legitimacy of Yogi
Bhajan’s succession. Its simply a question of whether yogi Bhajan made a
designation of his successor Board members. The relief sought by Petitioners
would not place Plaintiffs at the helm of religious institutions, nor displace board
members lawfully chosen by other methods. Petitioners would be only four (4) of
fifteen (15) Board members [two additional designations to the SSSC Board by
Yogi Bhajan beyond the original thirteen (13); that hardly gives Petitioners any
control. The governance documents are unequivocally clear – the successor Board
is to be the persons designated by Yogi Bhajan and no one else. There are no other
lawful means to appoint Board members on Yogi Bhajan’s death. The Board
members who held the Board positions at the time of Yogi Bhajan’s death ceased
to have any lawful authority to act; nobody was displaced. Moreover, most to the
Board members in place when Yogi Bhajan died were to continue to serve in the
new enlarged Board Yogi Bhajan had designated.
The cases relied upon by the District Court are inapposite here. All
concerned interference with church doctrine. None of the remedies sought by
Petitioners invoke any church doctrine, religious or ecclesiastical principles or

33

controversies; they merely seek compliance with neutral tenets of corporate law in
connection with appointment of successor directors consistent with the operating
agreements and bylaws of those organizations. Thus, the Ecclesiastical Abstention
Doctrine does not apply. Askew v. Trustees of Gen. Assembly of Church of the
Lord Jesus Christ of the Apostolic Faith Inc., 684 F.3d 413, 418-19 (3d Cir. 2012)
cert. denied, 133 S. Ct. 947, 184 L. Ed. 2d 728 (U.S. 2013).
Moreover, Ecclesiastical Abstention should not be applied in cases like this,
which implicate fraud or collusion. See, e.g., Askew, supra, 684 F.3d at 418 (citing
Milivojevich, 426 U.S. 696, 713; Gonzalez v. Roman Catholic Archbishop of
Manila, 280 U.S. 1, 16 (1929).)
The District Court’s erroneous finding regarding the Ministerial Exception
infected its analysis under the Ecclesiastical Abstention doctrine and led to a
perverse result. SSSC and UI are not religious organizations whose membership
constitutes a religious leadership role. As such there was no requirement to abstain
from enforcing neutral principles of corporate law to implement Yogi Bhajan’s
plan of succession for the various corporations and organizations he created during
his lifetime.
The Court of Appeals improperly sought to avoid the “thicket” of the
District Court’s flawed analysis which it had already once before reviewed and
found lacking and it already had a roadmap to follow. Neither the Ministerial

34

Exception nor the Ecclesiastical Abstention doctrine applies under the facts of this
case.

THE QUESTION PRESENTED IS IMPORTANT
Where, as here, disputed issues of material fact are present regarding the
application of the discovery rule under the statute of limitations for fraud and
deceit, which include whether a plaintiff knew, or had sufficient evidence to
establish they should have known, a claim for fraud sufficient to comply with the
requirements of Fed.R.Civ.P. 11 exists, summary judgment is not an option and the
factual issues must be adjudicated by a jury.
Guidance is also required regarding the application of neutral principles of
law in circumstances such as this where the application of neutral legal principles
will not impinge upon religious liberty but will uphold the rule of law and correct
the injustice visited upon Petitioners through Defendants’ corrupt use of corporate
positions of power to deprive them of their rightful appointed positions on the
Boards of the various entities designated by Yogi Bhajan, their husband and father.
The Court of Appeals did not follow this Court’s teachings regarding the
application of Ministerial Exception and the Ecclesiastical Abstention doctrine to
First Amendment law. First Amendment law simply does not apply to these nonchurch entities or to the appointments sought. Ministerial Exception and the

35

Ecclesiastical Abstention doctrine also do not apply under these circumstances.
The compliance sought by Petitioners merely requires SSSC and UI’s adherence
and implementation of their own governance provisions which they adopted when
the prepared and filed their Articles and Operating Agreement. This Court’s
decision in this case should make clear the proper application of those legal
concepts.
Hundreds, if not thousands of religious organizations operate in the United
States under charters from each and every state. Are they all free to simply ignore
their charters and the requirements of the States that authorize and recognize their
existence? Tens of thousands, and probably much more, of non-religious entities
operate under state laws that require they adhere to their Articles and Operating
Agreements. Are they all exempt from compliance with corporate state laws under
First Amendment doctrines simply because they have religious affiliates when no
religious decision or doctrine is impacted by adherence to neutral principles of
state law? Summary judgments are filed in a large percentage of cases in Federal
courts throughout the country. Are courts of appeals reviewing those decisions
free to ignore the teachings of this Court that disputed facts cannot be resolved on
summary judgment, that facts must not be contrary to the evidence and that
inherently factual determinations about scienter and credibility must be reserved to

36

the jury? This Court needs to provide guidance and bring order to the application
of these Federal laws.

III.

CONCLUSION
For the foregoing reasons, the petition for a writ of certiorari should be

granted.
Dated: July 2, 2020

THE SONI LAW FIRM
By: /s/ Surjit P. Soni
Surjit P. Soni
Counsel of Record
Email: surj@sonilaw.com
and
Leo E. Lundberg, Jr.
P.O. Box 91593
Pasadena Window Unit - 600 Lincoln Ave
Pasadena, CA 91101
Telephone: 626-683-7600
Facsimile: 626-683-1199
Attorneys for Petitioners

37

APPENDIX

APPENDIX A

Case: 18-35479, 12/23/2019, ID: 11541668, DktEntry: 60-1, Page 1 of 5

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

DEC 23 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT

BIBIJI INDERJIT KAUR PURI; RANBIR
SINGH BHAI; KAMALJIT KAUR
KOHLI; KULBIR SINGH PURI,

No.

18-35479

D.C. No. 3:10-cv-01532-MO

Plaintiffs-Appellants,
MEMORANDUM*
v.
SOPURKH KAUR KHALSA; PERAIM
KAUR KHALSA; SIRI RAM KAUR
KHALSA; KARTAR SINGH KHALSA;
KARAM SINGH KHALSA; UNTO
INFINITY, LLC, an Oregon Limited
Liability Company; SIRI SINGH SAHIB
CORPORATION, an Oregon non-profit
corporation; SIRI KARM KAUR
KHALSA; LANE POWELL PC, an
Oregon Professional Corporation; LEWIS
M. HOROWITZ; GURUDHAN SINGH
KHALSA; GURU HARI SINGH
KHASLSA; EWTC MANAGEMENT,
LLC; AJEET SINGH KHALSA,
Defendants-Appellees.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

Case: 18-35479, 12/23/2019, ID: 11541668, DktEntry: 60-1, Page 2 of 5

BIBIJI INDERJIT KAUR PURI; RANBIR
SINGH BHAI; KAMALJIT KAUR
KOHLI; KULBIR SINGH PURI,

No.

18-35658

D.C. No. 3:10-cv-01532-MO

Plaintiffs-Appellants,
v.
SOPURKH KAUR KHALSA; PERAIM
KAUR KHALSA; SIRI RAM KAUR
KHALSA; SIRI KARM KAUR
KHALSA; KARTAR SINGH KHALSA;
KARAM SINGH KHALSA; LEWIS M.
HOROWITZ; LANE POWELL PC, an
Oregon Professional Corporation; UNTO
INFINITY, LLC, an Oregon Limited
Liability Company; SIRI SINGH SAHIB
CORPORATION, an Oregon non-profit
corporation,
Defendants-Appellees.

Appeal from the United States District Court
for the District of Oregon
Michael W. Mosman, Chief District Judge, Presiding
Argued and Submitted November 8, 2019
Portland, Oregon
Before: GILMAN,** PAEZ, and RAWLINSON, Circuit Judges.

**

The Honorable Ronald Lee Gilman, United States Circuit Judge for
the U.S. Court of Appeals for the Sixth Circuit, sitting by designation.
2

Case: 18-35479, 12/23/2019, ID: 11541668, DktEntry: 60-1, Page 3 of 5

Appellants challenge the district court’s order granting summary judgment,
in favor of Appellees. Appellants also take issue with the district court’s award of
$46,164.53 in costs to Appellees. We have jurisdiction under 28 U.S.C. § 1291
and review de novo the district court’s summary judgment order. See Weber v.
Allergan, Inc., 940 F.3d 1106, 1110 (9th Cir. 2019). The district court’s award of
costs is reviewed for abuse of discretion. See Draper v. Rosario, 836 F.3d 1072,
1087 (9th Cir. 2016). This court may affirm on any basis supported by the record.
See United States v. Mixon, 930 F.3d 1107, 1110 (9th Cir. 2019).
1.

Rather than venture into the thicket of the ministerial exception to

judicial review of business decisions made by religious organizations, or the
ecclesiastical abstention doctrine, we affirm on the alternative basis that the claims
are time-barred. Appellants brought claims for declaratory relief, fraud, negligent
misrepresentation, tortious interference with prospective economic advantage, and
claims under the federal Racketeer Influenced and Corrupt Organizations (RICO)
Act and the Oregon RICO statute (ORICO).1 Declaratory relief claims are subject
to the statute of limitations that applies to the underlying claim. See Doyle v. City
of Medford, 351 P.3d 768, 771 (Or. Ct. App. 2015). Therefore, if the underlying

1

Appellants voluntarily dismissed their ORICO claim.
3

Case: 18-35479, 12/23/2019, ID: 11541668, DktEntry: 60-1, Page 4 of 5

claims are barred by the limitations period, so is the claim for declaratory relief.
See Brooks v. Dierker, 552 P.2d 533, 535 (Or. 1976).
Oregon law provides that claims for fraud, negligent misrepresentation, and
tortious interference must generally be commenced within two years. See Or. Rev.
Stat. § 12.110(1); see also Spirit Partners, LP v. Stoel Rives LLP, 157 P.3d 1194,
1201 (Or. Ct. App. 2007) (fraud and negligent misrepresentation); Butcher v.
McClain, 260 P.3d 611, 614 (Or. Ct. App. 2011) (tortious interference). “The
statute of limitations for RICO is four years . . .” Scott v. Boos, 215 F.3d 940, 950
(9th Cir. 2000). The statute incorporates a discovery rule, whereby the claims
accrue “when the plaintiff has discovered facts or, in the exercise of reasonable
diligence, should have discovered facts that would alert a reasonable person to the
existence of . . . the alleged fraud.” Murphy v. Allstate Ins. Co., 284 P.3d 524, 528
(Or. Ct. App. 2012).
The record reflects that Appellants knew, or should have known, of the
alleged acts giving rise to their claims by 2004. Bibiji confirmed in her deposition
that she knew that she should have occupied a board seat shortly after her
husband’s death in 2004. Kamaljit and Kulbir testified to similar knowledge. And
the family obtained a lawyer in 2004 to represent their interests in obtaining the
board positions.

4

Case: 18-35479, 12/23/2019, ID: 11541668, DktEntry: 60-1, Page 5 of 5

Appellants protest that they could not obtain specific evidence of Appellees’
actions until the Multnomah County case was initiated in 2009. But Appellants’
exclusion from the boards, along with their belief that Yogi Bhajan had appointed
them to the positions, was enough to demonstrate that “key material facts were not
as they had been represented.” Oregon Life & Health Ins. Guar. Ass’n v. InterReg’l Fin. Grp., Inc., 967 P.2d 880, 885 (OR. Ct. App. 1998). There is no reason
Appellants could not have filed an action long before 2010 to obtain internal
governance documents identifying board appointments. Accordingly, their claims
were properly determined to be time-barred.
2.

The district court acted within its discretion in awarding costs to

Appellees. Appellees’ 80-page spreadsheet described the services performed and
expenses incurred with sufficient “specificity, particularity, and clarity.” In re
Online DVD-Rental Antitrust Litig., 779 F.3d 914, 928 (9th Cir. 2015); see also
Save Our Valley v. Sound Transit, 335 F.3d 932, 945-46 (9th Cir. 2003)
(discussing the presumption in favor of awarding costs).
AFFIRMED.

5

APPENDIX B

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 1 of 26

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
PORTLAND DIVISION

BIBIJI INDERJIT KAUR PURl;
RANBIR SINGH BHAI; KAMALJIT
KAUR KOHLI; KULBIR SINGH PURl,
No. 3:10-cv-01532-MO
Plaintiffs,
OPINION AND ORDER
v.

SOPURKH KAUR KHALSA;
PERAIM KAUR KHALSA; SIRI
RAM KAUR KHALSA; KARTAR
SINGH KHALSA; KARAM SINGH
KHALSA; SIRI KARM KAUR
KHALSA; ROY LAMBERT;
SCHWABE, WILLIAMSON &
WYATT, an Oregon Professional
Corporation; LEWIS M. HOROWITZ;
LANE POWELL PC, an Oregon
Professional Corporation; UNTO
INFINITY, LLC, an Oregon Limited
Liability Company; SIRI SINGH
SAHIB CORPORATION, an Oregon
non-profit corporation; GURUDHAN
SINGH KHALSA; GURU HARI SINGH
KHALSA; AJEET SINGH KHALSA;
EWTC MANAGEMENT, LLC; DOES, 1-5,
Defendants.

MOSMAN,J.,
This matter comes before me on Plaintiffs' Motion for Partial Summary Judgment [389]
and Defendants' Motion for Summary Judgment [390]. The parties also filed several motions to
1 -OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 2 of 26

strike. [418, 424, 428]. For the reasons below, I GRANT Defendants' Motion for Summary
Judgment [390], DENY Plaintiffs' Motion for Partial Summary Judgment [389], and DENY or
DENY as moot the parties' Motions to Strike [418, 424, 428].

BACKGROUND
I.

Factual Background
This dispute revolves around the now deceased Siri Singh Sahib Bhai Sahib Harbhajan

Singh Khalsa Yogiji, aka Yogi Bhajan. Yogi Bhajan was a Sikh Dharma spiritual leader who
helped promulgate the Sikh religion and Kundalini Yoga in the United States until his death in
2004. In 1971, Yogi Bhajan became "Siri Singh Sahib," or the Chief Religious and
Administrative Authority for the Ordained Ministry of Sikh Dharma in the Western Hemisphere.
Gurujot Decl. [396], ,, 6, 8. Pursuant to his role as Siri Singh Sahib, Yogi Bhajan established
numerous non-profit organizations and for-profit businesses. This case involves three of these
organizations: Sikh Dharma International (SDI), Siri Singh Sahib Corporation (SSSC), and Unto
Infinity, LLC (UI).
The Plaintiffs in this case are Bibiji Inderjit Kaur Puri, Ranbir Singh Bhai, Kamaljit Kaur
Kohli, and Kulbir Singh Puri, the widow and three children of Yogi Bhajan. 1 The Defendants
remaining in this case are UI, SSSC, Sopurkh Kaur Khalsa, the President and a member of the UI
Board of Managers and a member of the SSSC Board of Trustees, and Kartar Singh Khalsa, a
member of the UI and SSSC boards. Plaintiffs allege in the operative Second Amended
Complaint (SAC) that after Yogi Bhajan's death on October 6, 2004, the individual Defendants
conspired to exclude them from management of UI and SSSC. SAC [234] ,, 24-29. They seek
declaratory relief placing them on the boards and monetary damages.
1

This opinion will refer to certain individuals in this case by their first names to distinguish from others who have
the same last name.

2

OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 3 of 26

A. SDI
SDI is a California nonprofit religious corporation. Gumjot Decl. [396],

~

13; id. Ex. 1.

It is undisputed that SDI is a religious organization. SDI, which was originally named Sikh
Dharma Brotherhood, was formed in 1973 for the following primary purposes:
[T]o operate for the advancement of education, science and religion and for
charitable purposes by the distribution of its funds for such purposes by operating
as a religious organization and as association of religious organizations, by
teaching the principles of the Sikh Dharma, or way of life, in the Westem
Hemisphere and including, but not limited to, the creation and operation of places
of worship, the ordination of ministers of divinity, the creation and operation of
educational centers and associated and suppmtive activities related to these
primary purposes.
Gumjot Decl. [396], Ex. 1 (SDI Articles oflncorporation). SDI's 2003 Bylaws, which were in
effect at the time of the events underlying this case, stated:
[SDI] is organized and shall be operated exclusively for the purposes of operating
as a religious organization and as an association of religious organizations by
teaching the principles of the Sikh Dharma, or way of life; by creation and
operation of places of worship; by ordination of ministers of divinity; by creation
and operation of educational centers; and by the conduct of associated and
supportive activities related to these purposes; and to do all things necessary,
expedient or appropriate to the accomplishment of the purposes for which this
corporation is formed.
See Gumjot Decl. [396], Ex. 9 at 1. And SDI receives a tax exemption as "a church or a convention
or association of churches" under 26 U.S.C. § 501(c)(3) and§ 170(b)(l)(A)(i). Gumjot Decl.
[396], Ex. 4.
Prior to Yogi Bhajan's death, there were two individual religious positions in SDI: the
Siri Singh Sahib and the Bhai Sahiba. Yogi Bhajan, in his role as Siri Singh Sahib, served as the
chief religious authority ofSDI, and the Bhai Sahiba "over[saw] religious protocoL" Gurojodha
Decl. [395], Ex. 3 at 31. Following Yogi Bhajan's death, the "Siri Sikdar Sahib/a and the Bhai
Sahib or Bhai Sahiba [are] together ... the chief authority on the teachings of Siri Singh Sahib

3

OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 4 of 26

Harbhajan Singh Khalsa Yogiji on the practice of Sikh Dharma." Gurojot Decl. [396], Ex. 9 at
10. The Bhai Sahiba advises SDI, the Khalsa Council, and UI on religious matters. Gurojot Decl.
[396], Ex. 9 at 13. The Siri Sikdar Sahib/a "shall champion the spiritual and secular education of
the children of Sikh Dharma" and "shall devote time daily for meditation and prayer on behalf of
the congregations of Sikh Dharma, shall be responsible through the office of the Bhai Sahib/a for
maintaining and improving the quality of spiritual practice in Western hemisphere communities
and for inspiring and promoting devotion to Shabd Guru." Gurojot Decl. [396], Ex. 9 at 12.
Additionally, the 2003 SDI Bylaws call for the Siri Sikdar Sahib/a to lead annual pilgrimages
and perform outreach to other Sikh religious leaders. Gurojot Decl. [396], Ex. 9 at 12.
SDI's bylaws also outlined several governing boards, including an advisory board of SDI
ministers called the Khalsa Council, which advises UI "on matters of significance" to SDI, and a
board of directors called the Khalsa Council Adh Kari. Gurojot Decl. [396], Ex. 9 at 8.

B. SSSC
SSSC is an Oregon nonprofit religious corporation formed in 1997 "to take over the
leadership function of [Yogi Bhajan] after his death." Gurojodha Decl. [395], Ex. 3 at 30.
SSSC's purposes include overseeing the "administration and program services" of SDI and
"conduct[ing] and/or facilitat[ing] religious, charitable, and educational activities." Gurojodha
Decl. [395], Ex. 3 at 17, 20; Soni Decl. [394], Ex. C, Art. VI. Like SDI, SSSC receives a tax
exemption as "a church or a convention or association of churches." Gurojodha Decl. [395], Ex. 3
at 2, 25.
During his lifetime, Yogi Bhajan was the sole director ofSSSC. Soni Decl. [394], Ex. B
(SSSC Articles oflncorporation), at 3. Following his death, a board of trustees/directors was to
govern SSSC. According to the original SSSC Articles oflncorporation, following Yogi

4

OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 5 of 26

Bhajan's death or incapacity, "the directors shall be those persons designated in writing by [Yogi
Bhajan]. The written designation; and any amendment, or supplement to it, shall be dated upon
execution and shall be delivered to, and held in confidence by the attorney for the corporation
and Sikh Dharma designated in the corporation's Bylaws." Soni Decl. [394], Ex. Bat 3. The
original SSSC Bylaws designated Roy Lambert (who was a Defendant in this case until Plaintiffs
settled their claims against him) as the attorney for SSSC. Soni Decl. [394], Ex. C, Art. VI.
These disputed designations that are at the core of Plaintiffs claims in this case.
The Bylaws also outline certain job duties for the trustees:
A trustee shall perform his or her duties as a trustee including his or her duties as
a member of any committee of the board upon which the trustee may serve, in
good faith, in a manner the trustee believes to be in or not opposed to the best
interests of the corporation and with such care as an ordinarily prudent person
would use under similar circumstances in a like position.
Soni Decl. [394], Ex. C, Art. 2 (Bylaws). The SSSC Articles outline an additional job duty for
the board: the Articles state that Yogi Bhajan would designate an individual to succeed to the
office ofSiri Sikdar Sahib/a, who would also serve as a director of the SSSC board. Soni Decl.
[394], Ex. Bat 4. But if Yogi Bhajan failed to designate such an individual, the SSSC board was
to choose a new Siri Sikdar Sahib/a, with the advice of the Khalsa Council. Soni Decl. [394],
B at4-5.
Additionally, later amended versions ofthe Articles ofRestatement ofSSSC and the
Restated Articles of Incorporation required that SSSC board members be qualified as ministers
of Sikh Dharma and live "in a manner consistent with the teachings and values of [Yogi
Bhajan]." Soni Decl. [394], Ex. E. Although some ofthese documents were dated October 1-3,
2004, prior to Yogi Bhaj an's death, it appears that the documents were actually created in
November 2004, after his death. Soni Decl. [394], Ex. DD.
5

OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 6 of 26

After Yogi Bhajan's death and the subsequent 2012 settlement agreement, SSSC's role
within the Sikh Dharma hierarchy changed. The current SSSC board "has the authority to
appoint and remove the board members of Sikh Dharma International (SDI), which, among other
things, contains the Sikh Dharma Ministry and, through the Ministry, carries out the function of
ordaining Sikh Ministers." Gurojodha Decl. [3 95] ~ 28. The current mission statement of SSSC2
reads:
With the guidance of God and the grace of the Guru it is the mission of the SSSC
to protect, preserve and cultivate the prosperity of the constituent community and
its assets; listen to, serve and elevate the constituent community; support the nonprofit and for profit entities and the family of constituent communities; and live to
and hold the values of the teachings of the Siri Guru Granth Sahib and the Siri
Singh Sahib Bhai Sahib Harbhajan Singh Khalsa Yogi Ji: selfless service,
compassion, kindness, honesty, integrity, trustworthiness and Guru inspired
consciousness.
Gurojodha Decl. [395]

~

25. The current president of the SSSC board stated that board members

"act as representatives and ambassadors of Sikh Dharma. SSSC Board members, myself
included, regularly participate in outreach, interfaith, mission building, and Sikh awareness
events." Gurojodha Decl. [395]

~

39. Finally, the SSSC board president describes the current

election process for SSSC as following:
For the 2012, 2015, and 2017 SSSC Board elections, the elected SSSC Board
members were elected by fellow Sikh Dharma ministers, active Khalsa Council
members, and members of the Sikh Dharma community pursuant to the terms of
the SSSC Board Election Policy. For future elections, and pursuant to a change in
the SSSC Board Election Policy, only Sikh Dharma ministers who are in good
standing will be eligible to vote for SSSC Board members.
Gurojodha Decl. [395]

~

16.

2

Plaintiffs move to strike Defendants' declarations as they pertain to the current status of SSSC, arguing they are
irrelevant. I disagree, because I conclude the current status of the boards is pertinent to the question whether relief
may be granted in this case without violating the First Amendment, as it pertains to the ecclesiastical abstention
doctrine. I therefore DENY Plaintiffs' Motion [424] on these grounds.

6- OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 7 of 26

C. UI
Following the death of Yogi Bhajan, SSSC became the sole member ofUI, an Oregon
nonprofit LLC formed in 2003. UI was the sole member ofSDI until2012, when SSSC assumed
this role. 3 Gurujot Decl. [396], ,[ 13; id. Ex. 3. Former attorney for Defendants (and former
Defendant) Roy Lambert testified that UI was intended to be the "ultimate decision-maker with
respect to the ... [Yogi Bhajan] community" after Yogi Bhajan's death, because Yogi Bhajan
feltthattheboardofSSSCwastoolarge. SoniDecl. [394],Exh. WWat 138. To this end, Yogi
Bhajan issued a proclamation on June 30, 2004 stating:
I hereby proclaim that Unto Infinity, LLC, is the entity authorized by me to
continue to exercise the administrative authority of the office of the Siri Singh
Sahib of Sikh Dharma, once I no longer occupy that office, in all those ca..<>es
where authorization by the Siri Singh Sahib is required in the articles, bylaws, or
any contractual commitment of a Sikh Dharma affiliated organization.
Southwick Decl. [398], Ex. 44.
A board of managers governs UI. The original operating agreement for UI outlined that
Yogi Bhajan would appoint the first UI board. Southwick Decl. [398], Ex. 21 at 1. The original
operating agreement for UI also stated that the original agreement would be superseded upon
Yogi Bhajan's death by the "Amended and Restated Operating Agreement." Southwick Decl.
[398], Ex. 21 at 3. The "Amended and Restated Operating Agreement" outlines certain eligibility
standards, including that a board member had to be: (1) qualified as a minister of Sikh Dharma;
(2) a member in good standing of the Khalsa Council of the Sikh Dharma; and (3) living,
practicing, and participating in the affairs of the Sikh community in a manner consistent with the
teachings and values of Yogi Bhajan. Southwick Decl. [398], Ex. 22 at 3-4.

3

I note that Yogi Bhajan appeared to change his mind regarding the intended roles ofSSSC and Ul, and their
relationships to SDI. As of 1997, SSSC was to play the key leadership role in SDI and act as SDI's sole member. Ul
then took this role in 2003. And following the settlement agreements in 2012, SSSC took over this leadership role
yet again.

7

OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 8 of 26

According to the Bylaws of SDI established in December 2003, as the sole member of
SDI, UI was to perform a number of duties related to SDI and the Khalsa Council, including: (1)
approving all actions of the Khalsa Council Adh Kari; (2) electing the directors of the Khalsa
Council Adh Kari, other than the Siri Sikdar Sahib/a; (3) amending the Articles and Bylaws of
SDI; (4) approving the Executive Officers ofSDI; (5) choosing the Secretary General of SDI,
who would become the new Siri Sikdar Sahib/a if the Siri Sikdar Sahib/a died or was
incapacitated; (6) approving the removal of employees, including the Siri Sikdar Sahib/a if the
Siri Sikdar Sahib/a died or was incapacitated; (7) appointing the members of the Khalsa Council;
and (8) "designat[ing] such other religious or administrative officials of [SDI] as it deems
appropriate; ... defin[ing] or redefin[ing] the function and scope of authority of each such
official from time to time; and ... appoint[ing] and ... remov[ing] any person from any official
position designated by it." Gurojot Decl. [396], Ex. 9 at 2-14. Additionally, UI played a role in
determining whether and how a new Siri Sikdar Sahib/a would assume his or her position
through a particular type of religious ceremony. See Gurojot Decl. [396],

9 at 10.

D. State Court Litigation
On September 21, 2009, several Sikh Dharma ministers and board members of Sikh
Dharma entities sued Sopurkh, Kartar, UI, SSSC, and several other defendants derivatively, on
behalf of the Sikh Dharma Community. The State of Oregon subsequently sued the same parties,
and the state court consolidated these cases. McGrory Decl. [177] Exs. 2 & 3. The state court
plaintiffs asserted numerous claims against the UI defendants, EWTC Management, and its
owners, including claims for breach of fiduciary duty, fraud, and unjust enrichment. This
litigation culminated in a four week trial, and the state court plaintiffs prevailed on all claims.

8 - OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 9 of 26

McGrory Decl. [177] Ex. 4. The parties eventually reached several settlement agreements, after
which SSSC assumed UI's role as sole member of SDI. Gurojot Decl. [396], Ex. 3.

E. Plaintiffs' Claims to Board Membership
Plaintiffs allege that Bibiji and the three children should be on the SSSC Board and that
Bibiji should be on the UI Board. SAC [234]

~~ 24-29.

They assert that, before Yogi Bhajan's

death, they expressed to him that they wished to become more involved in the management of
the various business entities that he controlled. See, e.g., Soni Decl. [394], Ex. NN (Ranbir Dep.)
at 60. Plaintiffs assert that Yogi Bhajan instmcted defendant Sopurkh, both orally and in writing,
to add plaintiffs to the management boards of whatever business entities the family wanted. Soni
Decl. [394], Ex. NN (Ranbir Dep.) at 60-61. Sopurkh testified that Yogi Bhajan asked her to talk
to the family members about which boards they were interested in participating in. Soni Decl.
[394], Ex. RR (Sopurkh Dep.) at 40-41.
There are several documents in the record that might indicate who Yogi Bhajan intended
to be on the UI and SSSC boards. On July 10, 1997, Sopurkh emailed Yogi Bhajan and referred
to "the listing of the [SSSC] board members as [Yogi Bhajan] gave them to me." Soni Decl.
[394], Ex. I. This list of 13 names included Plaintiffs Bibiji and Kulbir, Defendant Sopurkh, four
dismissed defendants, and seven others. Id. This list was faxed to Lambert on October 12, 2004,
just after Yogi Bhajan died. Id. On October 7, 1997, Yogi Bhajan signed a separate list naming
14 individuals to the SSSC board. Southwick Decl. [398], Ex. 29. This list included the 13 names
from the July 1997 email and added the name Harijot Kaur Khalsa. Id. There is also an undated,
handwritten note that was signed by Yogi Bhajan and stated "Ranbit, Kamaljit, Kulbir will be
added to SSS board." Southwick Decl. [398], Ex. 30. This note was faxed to Lambert on
October 12, 2004, just after Yogi Bhajan died. Id. Finally, there are "Consent Minutes" from a

9

OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 10 of 26

July 2004 UI Board of Managers meeting indicating that Bibiji was elected as manager ofUI,
"effective immediately." Soni Decl. [394], Ex. M.

II.

Procedural Background
A.

2013 Motions to Dismiss and 2017 Ninth Circuit Decision

Plaintiffs originally brought claims for: (1) declaratory relief; (2) breach of fiduciary
duty; (3) fraud; (4) negligent misrepresentation; (5) tortious interference with prospective
economic advantage; (6) conversion; (7) unjust enrichment; (8) RICO; (9) legal malpractice; and
( 1) aiding and abetting. FAC [ 102]. After a 2012 round of motions to dismiss and a First
Amended Complaint (F AC), I granted Defendants' four motions to dismiss [125, 172, 178, 180]
the FAC in full on October 11, 2013, concluding that Plaintiffs lacked standing to bring
derivative claims and that the direct claims failed based on res judicata, mootness, the First
Amendment's ministerial exception, Rule 9(b)'s heightened fraud standard, and/or failure to
state a claim. Minutes of Proceedings [215]; Transcript of Proceedings [220]. Plaintiffs appealed.
The Ninth Circuit affirmed in part, vacated in part, and remanded. In a published opinion, the
Ninth Circuit concluded that dismissal pursuant to the ministerial exception or the ecclesiastical
abstention doctrine was not warranted at the pleadings stage. Puri v. Khalsa, 844 F .3d 1152 (9th
Cir. 2017). In an accompanying unpublished memorandum disposition, the Ninth Circuit
dismissed some of Plaintiffs' claims on other grounds. Puri v. Khalsa, 674 F. App'x 679 (9th
Cir. 2017).

B.

2017 Motions to Dismiss, Motion for Reconsideration, and Partial
Settlement

In the SAC, Plaintiffs brought five claims for declaratory relief, fraud, negligent
misrepresentation, tortious interference with prospective economic advantage, and
RICO/ORICO. SAC [234]. Defendants filed several Motions to Dismiss. I issued an Opinion
10

OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 11 of 26

and Order granting in part and denying in part Defendants' Motions to Dismiss. [296]. I then
denied Plaintiffs' related Motion for Reconsideration and for Entry of Judgment Pursuant to Rule
54(b) [305], and granted in part and denied in part Plaintiffs' Motion for Leave to Amend [301 ].
[338]. Following these Opinions and the subsequent settlement of the claims between Plaintiffs,
Lambert, and Schwabe, the following claims remain in this case:
•
•
•

Claim One (declaratory relief): direct claims against UI and SSSC by all Plaintiffs (relief
of having Bibiji placed on UI board and all Plaintiffs placed on SSSC board).
Claim Two (fraud): claim by all Plaintiffs against Sopurkh and Kmtar,
Claim Four (tortious interference): claim by all Plaintiffs against Sopurkh

C.

Motions for Summary Judgment

Defendants move for summary judgment, arguing Plaintiffs' claims are barred by the
ministerial exception, the ecclesiastical abstention doctrine, the statute oflirnitations, and
because they cannot show damages. [390]. Defendants also argue that certain of Plaintiffs'
claims are moot and that the Plaintiffs seek relief not included in the SAC. Plaintiffs move for
partial summary judgment on Claim One for Declaratory Relief and against each ofDefendants'
affirmative defenses. 4 [389].

LEGAL STANDARD
Summary judgment is proper "if the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter of law." Fed. R. Civ. P. 56(a). The
initial burden for a motion for summary judgment is on the moving party to identify the absence of a
genuine issue of material fact. Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986). Once that burden
is satisfied, the burden shifts to the non-moving party to demonstrate, through the production of
evidence listed in Fed. R. Civ. P. 56(c)(l), that there remains a "genuine issue for trial." Celotex, 477
U.S. at 324. The non-moving party may not rely upon the pleading allegations, Brinson v. Linda Rose
4

Because I conclude the ministerial exception and the ecclesiastical abstention doctrine bar review in this case, I do
not reach the parties' other arguments.

11

OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 12 of 26

Joint Venture, 53 F.3d 1044, 1049 (9th Cir. 1995) (citing Fed. R. Civ. P 56(e)), or "unsupported

conjecture or conclusory statements," Hernandez v. Spacelabs Med. Inc., 343 F.3d 1107, 1112 (9th
Cir. 2003). All reasonable doubts and inferences to be drawn from the facts are to be viewed in the
light most favorable to the nonmoving party. Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio Corp.,
475

u.s. 574, 587 (1986).
DISCUSSION

I.

Whether the Ministerial Exception Bars Review in this Case
"The Supreme Court has long recognized religious organizations' broad right to control

the selection of their own religious leaders." Puri, 844 F.3d at 1157. Pursuant to this principle,
the Supreme Court has recognized a ministerial exception, which "precludes application of
[employment discrimination laws] to claims concerning the employment relationship between a
religious institution and its ministers." Hosanna-Tabor Evangelical Lutheran Church & Sch. v.
E.E.O.C., 565 U.S. 171,188 (2012). The ministerial exception "applies to claims that impinge on

protected employment decisions regarding a religious organization and its ministers, and when
applicable, it flatly prohibits courts from requiring a church to accept or retain an unwanted
minister, or punishing a church for failing to do so." Puri, 844 F.3d at 1158 (citations and
internal quotation marks removed). In Hosanna-Tabor, the Supreme Court reasoned that judicial
review of a religious group's ministerial employment decisions would constitute "government
interference with an internal church decision that affects the faith and mission ofthe church
itself." Hosanna-Tabor, 565 U.S. at 190. "Requiring a church to accept or retain an unwanted
minister, or punishing a church for failing to do so, intrudes upon more than a mere employment
decision. Such action interferes with the internal governance of the church, depriving the church
of control over the selection of those who will personifY its beliefs." Id. at 188.

12

OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 13 of 26

Although "the ministerial exception is not limited to the head of a religious
congregation," the Supreme Court in Hosanna-Tabor declined "to adopt a rigid formula for
deciding when an employee qualifies as a minister." Id. at 190. Instead, the Supreme Court put
forth several guidelines for courts to consider when deciding whether the ministerial exception
applies in a given case. In Puri, the Ninth Circuit described these considerations as follows:
First, an employee is more likely to be a minister if a religious organization holds
the employee out as a minister by bestowing a formal religious title. Although an
ecclesiastical title "by itself, does not automatically ensure coverage, the fact that
an employee has been ordained or commissioned as a minister is surely relevant."
A second consideration is the "substance reflected in that title," such as "a
significant degree of religious training followed by a formal process of
commissioning." Third, an employee whose "job duties reflect [] a role in
conveying the Church's message and carrying out its mission" is likely to be
covered by the exception, even if the employee devotes only a small portion of
the workday to strictly religious duties and spends the balance of her time
performing secular functions. Finally, an employee who holds herself out as a
religious leader is more likely to be considered a minister.
Puri, 844 F.3d at 1160 (quoting Hosanna-Tabor, 565 U.S. at 191-93). Courts have applied the

ministerial exception to the claims of a number of different types of employees, including the
claims ofthe"called" teacher in Hosanna-Tabor, 565 U.S. at 176; a musical director at a Catholic
church, Cannata v. Catholic Diocese ofAustin, 700 F.3d 169 (5th Cir. 2012); a principal of a
parochial school, Fratello v. Archdiocese ofNew York, 863 F.3d 190 (2d Cir. 2017); and a
Hebrew teacher at a Jewish day school, Grussgott v. Milwaukee Jewish Day Sch., Inc., 882 F.3d
655 (7th Cir. 2018).
As discussed above, the Ninth Circuit concluded, based on the pleadings alone, that the
ministerial exception does not bar review in this case. Although the court noted that "a 'mission
and purpose' of SSSC and UI is 'to benefit the Sikh Dharma community and to advance and
promote [Yogi Bhajan's] teachings,' and it is 'surely relevant' that their board members must be
ordained ministers of Sikh Dharma and must meet certain other religious criteria," the court
13 -OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 14 of 26

concluded that other factors outweighed these considerations. Puri, 844 F.3d at 1160. In
particular, the Ninth Circuit found it significant that the pleadings did not allege that: (1) the
board members have ministerial duties; (2) the board members are held out as religious leaders,
either by the members or their employers; or (3) that board membership required significant
religious training or requirements. Id. at 1160-61.
The Ninth Circuit also found it important that UI and SSSC are not churches, reasoning
"it is not clear that the ministerial exception could ever apply to the type of positions at issue
here. This is a dispute over seats on the boards of corporate entities that are apparently affiliated
with a church, but are not themselves churches." Id. at 1159. However, the Ninth Circuit noted
that the Supreme Court suggested "a fairly broad application of the exception" in HosannaTabor, as has the Ninth Circuit in previous cases. Id. (citing Hosanna-Tabor, 565 U.S. at 18889; Bollard v. Cal. Province ofthe Soc y ofJesus, 196 F.3d 940, 947 (9th Cir. 1999)).
Defendants argue that information outside the pleadings now shows that membership on
the UI and SSSC boards clearly qualifies for the ministerial exception. In particular, Defendants
argue that SSSC and UI are religious organizations and that board members serve as ministers,
because they hold themselves out as such and have explicitly religious duties. Plaintiffs argue
that SSSC only holds administrative authority, that board members were not required until after
Yogi Bhajan's death to be ministers, and that the UI and SSSC boards do not require any
religious training. 5 Below, I address each of Hosanna-Tabor's guidelines, the Ninth Circuit's

5

Plaintiffs also argue that the Ninth Circuit's decision is law of the case, but the Ninth Circuit clearly stated its
decision was based on the pleadings alone.

14- OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 15 of 26

interpretation of those guidelines in this case, and how any new evidence outside of the pleadings
may affect the ministerial exception analysis in this case. 6

A.

Whether UI and SSSC are Religious Groups

The Supreme Court referred to "religious groups" in Hosanna-Tabor, but did not offer a
specific definition of"religious group." See, e.g., Hosanna-Tabor, 565 U.S. at 196 (referencing
"the interest of religious groups in choosing who will preach their beliefs, teach their faith, and
carry out their mission"). In a recent case, the Second Circuit noted that although the Supreme
Court did not define "religious groups" in Hosanna-Tabor, "other circuits have applied the
ministerial exception in cases involving 'religiously affiliated entit[ies],' whose 'mission[s are]
marked by clear or obvious religious characteristics."' Penn v. New York Methodist Hasp., 884
F.3d 416, 424 (2d Cir. 2018) (quoting Conlon v. Inter Varsity Christian Fellowship, 777 F.3d
829, 834 (6th Cir. 2015)).
In this case, the Ninth Circuit determined that "[i]n assessing the responsibilities
attendant to the board positions, it is relevant that the entities involved are not themselves
churches, but rather corporate parents of a church." Puri, 844 F.3d at 1160. The Court concluded
that "SSSC's primary responsibility appears to be holding title to church property, and UI, in
addition to being the sole member of SDI-i.e., the direct corporate parent of the Sikh Dharma
church--owns and controls a portfolio of for-profit and nonprofit corporations, including a major
security contractor and a prominent tea manufacturer." !d. The Ninth Circuit noted that based on
the pleadings, "UI and SSSC are not churches," even though the organizations have some
religious purposes. !d. at 1160-61 (noting that "the complaint alleges that a 'mission and

6

In addressing the ministerial exception, I refer to the documents in existence at the time of the "employment
decisions" Defendants argue are "protected" by the exception. This means the 1997 SSSC documents and the 2003
UI and SDI documents. I therefore DENY as moot the parties' Motions to Strike [418, 424, 428] as they pertain to
this issue.

15 -OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 16 of 26

purpose' of SSSC and UI is 'to benefit the Sikh Dhmma community and to advance and promote
[Yogi Bhajan's] teachings"'). Plaintiffs m·gue that nothing has changed from the pleadings stage,
but Defendants argue there is new evidence showing that UI and SSSC are clearly churches or
religious groups.
There is some evidence that UI and SSSC are not churches, or at the very least, have
some secular duties. As the Ninth Circuit described, SSSC and UI hold assets and oversee
several subsidiaries, including for-profit companies like East-West Tea Company and Akal
Security. Gurojodha Decl. [395], Ex. 7. And relevant documents sometimes describe their roles
as "administrative" or overseeing the "program services" of SDI. See Southwick Decl. [398], Ex.
44; GurojodhaDecl. [395], Ex. 3 at 17.
But I conclude that evidence outside of the pleadings 7 show that SSSC and UI are
"religious groups," even if they are not churches in the traditional sense. 8 First, SSSC received a
tax exemption as a "church or a convention or association of churches." Gurojodha Decl. [395]
, 32; id. Ex. 3. Referring to Yogi Bhajan's role as "current leader of the Sikh religion in the
Western Hemisphere," the tax documents stated SSSC was to be Yogi Bhajan's "successor, to
fulfill his leadership functions following his death." Gurojodha Decl. [395], Ex. 3 at 17, 20.
Other documents state that SSSC's purposes include "conduct[ing] and/or facilitat[ing]
religious, charitable, and educational activities." Soni Decl. [394], Ex. C, Art. VI. And according
7

The Plaintiffs agreed at oral argument that to decide whether SSSC and UI are religious groups, I should look only
to governing documents in existence at the time of the events in question, not to the declarations in the record.
Minutes [433].

8

There are several reasons why this case does not fit neatly into the precedents set by prior case law. First, it
involves a religion not within the Judeo-Christian tradition, which is most commonly addressed by the case law. But
see Maktab Tarighe Oveyssi Shah Maghsoudi, Inc. v. Kianfar, 179 F.3d 1244 (9th Cir. 1999) (addressing the
competing claims of individuals in an ancient Sufi order). This precedent presumes there are relatively clear
distinctions between religious and secular purposes. Here, by contrast, it is by no means straightforward to
detennine that, for example, running yoga clinics is a secular endeavor, instead of part of the Sikh Dharma religious
message. Additionally, this case addresses a dispute during a time when the Sikh Dharma hierarchy was evolving.
During his illness and up to the time of his death, Yogi Bhajan was in the process of creating several new structures
to replace him as the leader of Sikh Dharma in the Western Hemisphere.

16

OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 17 of 26

to SSSC's 1997 Articles, the SSSC board also had the duty to choose a new Siri Sikdar
Sahib/a-one of the two religious leaders of the Sikh Dharma religion in the Western
Hemisphere-in the case that Yogi Bhajan did not choose such an individual. Soni Decl. [394],
Ex. Bat 4-5; Gurojot Decl. [396], Ex. 9 at 12. And SSSC was to make this decision with the
advice of the Khalsa Council Adh Kari, SDI's board of directors, and with nominations from the
Khalsa Council, SDI's ministerial board-two clearly religious bodies. Soni Decl. [394], Ex. B
at 4-5; Gurojot Decl. [396], Ex. 9 at 12.
Similarly, according to the 2003 SDI Amended and Restated Operation Agreement, UI
had a significant role in running the religious affairs of SDI. UI was to approve or elect nearly all
religious and administrative leaders ofSDI. Gurojot Decl. [396], Ex. 9 at 2-14 (UI to choose the
directors of the Khalsa Council Adh Kari and the Khalsa Council, the Executive Officers of SDI,
the Secretary General of SDI, and "designat[ing] such other religious or administrative officials
of [SDI] as it deems appropriate"). UI could also remove employees, including the Siri Sikdar
Sahib/a if the Siri Sikdar Sahib/a died or was incapacitated. Gurojot Decl. [396], Ex. 9 at 2-14.
UI also had final authority over all actions of the Khalsa Council Adh Kari and could amend the
A1ticles and Bylaws ofSDI. Gurojot Decl. [396], Ex. 9 at 2-14.
In my view, these documents show that although SSSC and UI do act as corporate boards
in some ways, they were also formed to perform Yogi Bhajan's leadership role in approving
religious policy and leaders. Although both organizations perform some secular functions, they
appear to be "religiously affiliated entities" with clearly religious purposes. See Penn, 884 F.3d
at 424. Taking this information into consideration, I now address Hosanna-Tabor's other
guidelines.

17

OPINION AND ORDER

Case 3:10-cv-01532-MO

B.

Document 436

Filed 04/26/18

Page 18 of 26

Whether the Board Members Have Formal Religious Titles

The Ninth Circuit acknowledged that board members must be ministers, but concluded
that "[a]n employee's status as an ordained minister, standing alone, does not trigger the
ministerial exception when that individual is employed in a secular capacity by an entity other
than a church." Puri, 844 F.3d at I 161. I take this to mean that formal religious titles can satisfy
this first prong of the Hosanna-Tabor analysis, but do not control the outcome. Here, Plaintiffs
do not dispute that the UI Amended and Restated Operating Agreement required board members
to be qualified as Sikh Dhru.ma ministers and included other religious qualifications. See
Southwick DecL [398], Ex. 22 at 3-4. But appears that the SSSC ministerial qualifications came
into effect immediately after Yogi Bhajan's death and may not have applied at the time of the
"employment decision" disputed by Plaintiffs. I therefore conclude this factor weighs in favor of
applying the ministerial exception to Plaintiffs' claims against UI and against applying the
ministerial exception to Plaintiffs' claims against SSSC. 9
C.

Religious Training and Other Religious Requirements

The Ninth Circuit noted that the pleadings did not allege that board membership required
significant religious training or requirements. Puri, 844 F .3d at 1161. The Defendants do not
specifically allege that board membership requires religious training, or detail what is required to
become a minister with SDI. I therefore conclude this factor weighs against applying the
ministerial exception to Plaintiffs' claims.

9

SSSC's evolution over the past fifteen years raises the novel question of how to apply the ministerial exception to
an organization which has assumed more religious characteristics over time. I have only considered documents
describing SSSC prior to Yogi Bhajan's death in analyzing the ministerial exception, because the tem1 "protected
employment decision" appears to apply to a particular moment in time. But doing so fails to take into account the
fact that granting a remedy to Plaintiffs regarding SSSC would affect SSSC now, a significantly religious
organization. Viewed in this light, the "formal title" factor would weigh in favor of applying the ministerial
exception to SSSC, which now requires such titles for board members.

18

OPINION AND ORDER

Case 3:10-cv-01532-MO

D.

Document 436

Filed 04/26/18

Page 19 of 26

Job Duties

The Ninth Circuit found it significant that the pleadings did not allege that the board
members have ministerial duties. Puri, 844 F.3d at 1160. Defendants argue that "the SSSC and
UI Board positions carry a responsibility to convey the Sikh Dharma message and carry out its
mission." Def. MSJ [390] at 23. Plaintiffs argue there are no ministerial requirements or religious
job duties listed in the then-applicable 1997 Articles and Bylaws for SSSC, or in UI's governing
documents. See Soni Decl. [394], Ex. B (SSSC Articles oflncorporation); Soni Decl. [394], Ex.
C, Art. VI; Southwick Decl. [398], Ex. 21 at 1.
In my view, the evidence not available at the pleadings stage changes considerably the
analysis of this factor. On one hand, Plaintiffs are correct that the section of the SSSC Bylaws
entitled "Duties" makes no reference to religion. See Soni Decl. [394], Ex. C, Art. 2. But on the
other hand, the boards members of SSSC and UI have some express religious duties. SSSC was
to choose a new Siri Sikdar Sahib/a, one of the two religious positions to exist after Yogi
Bhajan's death, in the event that Yogi Bhajan did not choose such an individual. Soni Decl.
[394], Ex. Bat 4-5. And as discussed above, UI had the power to choose .and remove many of
SDI's religious leaders, approve the decisions of the Khalsa Council Adh Kari, and amend the
bylaws and articles ofSDI. Gurojot Decl. [396], Ex. 9 at 2-14. Furthermore, some of the
Plaintiffs testified that they were appointed to "spread the word of [Yogi Bhajan's] mission,"
including "the word of the Holy Scripture," and "teach the Sikh way oflife." Southwick Decl.
[419], Ex. 1 (Bibiji Dep.) at 59-60.
The duties of the board members do not fit neatly into case law, which often involves
religious educators. See, e.g. Hosanna-Tabor, 565 U.S. at 192 (noting the plaintiff was
"expressly charged ... with 'lead[ing] others toward Christian maturity' and 'teach[ing]

19-0PINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 20 of 26

faithfully the Word of God, the Sacred Scriptures, in its truth and purity and as set forth in all the
symbolical books of the Evangelical Lutheran Church"'). But in my view, the board members of
UI and SSSC have important religious duties: they may choose and remove religious leaders, and
approve religious decisions and governing documents. Although the board members do not act as
teachers, they have significant religious duties that allow them to shape the future of the Sikh
Dharma religion through its religious employees, governing documents, and the decisions of its
board of directors. In the context of SSSC' s and UI' s leadership roles in relation to SDI, these
facts weigh strongly in favor of applying the ministerial exception to Plaintiffs' claims.

D.

Whether Board Members or the Board Hold the Members Out as
Religious Leaders

The Ninth Circuit found it significant that the pleadings did not allege that the board
membe~s

are held out as religious leaders, either by the members themselves or their employers.

Puri, 844 F.3d at 1160. However, there is evidence not available at the pleadings stage that both

the Plaintiffs and their potential "employers" viewed these positions as involving religious
leadership components. In their depositions, the Plaintiffs testified that they were appointed to
"spread the word of [Yogi Bhajan's] mission," including "the word of the Holy Scripture," and
"teach the Sikh way oflife." Southwick Decl. [419], Ex. 1, (Bibiji Dep.) at 59-60; see also
Southwick Decl. [398], Ex. 10 at 116 (Kulbir agreeing with the statement that board members
would "generally be in a position to engage in that kind of outreach to religious leaders").
Furthermore, the Plaintiffs admitted "that the members of the SSSC Board of Trustees hold
positions of leadership within the Sikh Dharma community by virtue of their position as SSSC
Trustees." Southwick Decl. [398], Ex. 1 at 4. In terms of the boards themselves, it is clear from
the governing documents of SSSC, UI, and SDI that the board members of SSSC and UI were to
play an important role as religious leaders, in choosing and removing subordinate religious
20- OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 21 of 26

leaders, and by affecting religious policy. Given these facts, I conclude this factor weighs in
favor of applying the ministerial exception to Plaintiffs' claims.
Considering the role UI and SSSC were to play in the hierarchy of Sikh Dharma and
these four factors, I conclude the application of the ministerial exception is a close call. On one
hand, the board members of SSSC did not appear to need a religious title at the time of the
employment decision in question. And neither board appeared to require religious training.
Furthermore, this case falls outside the typical cases in which the ministerial exception applies,
which tend to involve religious educators. On the other hand, the Supreme Court suggested "a
fairly broad application ofthe exception" in Hosanna-Tabor. Puri, 844 F.3d at 1159 (citing

Hosanna-Tabor, 565 U.S. at 188-89). I conclude the importance of each board in the religious
hierarchy of Sikh Dharma at the time Plaintiffs allege they were appointed to the board is
particularly relevant. And there were significant religious duties involved in these leadership
positions, including choosing and firing religious leaders, approving the governing documents of
SDI, and approving the actions of SDI' s board of directors.
Given this religious structure and the ministerial leadership roles played by the board
members, I conclude that judicial review of the decisions to not place Plaintiffs on the UI and
SSSC boards falls within the purpose of the ministerial exception, as it would constitute
"government interference with an internal church decision that affects the faith and mission of
the church itself." See Hosanna-Tabor, 565 U.S. at 190. In effect, Plaintiffs seek court
interference in the membership of the boards that choose Sikh Dharma's highest level of
leadership and exercise significant control over the direction of the Sikh Dharma religious in the
Western Hemisphere. Therefore, the ministerial exception bars review in this case.

21-0PINION AND ORDER

Case 3:10-cv-01532-MO

II.

Document 436

Filed 04/26/18

Page 22 of 26

Whether the Ecclesiastical Abstention Doctrine Bars Review in this Case
Because this case does not involve the typical application of the ministerial exception, I

address in the alternative whether the ecclesiastical abstention doctrine applies. The ecclesiastical
abstention doctrine is based on courts' determination that "[t]he Free Exercise Clause restricts
the government's ability to intrude into ecclesiastical matters or to interfere with a church's
governance of its own affairs." Bollard, 196 F.3d at 945. "Under this doctrine of ecclesiastical
abstention, 'a State may adopt any one of various approaches for settling church ... disputes so
long as it involves no consideration of doctrinal matters."' Puri, 844 F .ed at 1162 (quoting Jones
v. Wolf, 443 U.S. 595, 602 (1979)). But "[u]nlike the ministerial exception, which completely

bars judicial inquiry into protected employment decisions, the ecclesiastical abstention doctrine
is a qualified limitation, requiring only that courts decide disputes involving religious
organizations without resolving underlying controversies over religious doctrine." Puri, 844 F.3d
at 1164 (internal quotation marks and citation omitted). To this end, the Supreme Court held in
Jones that "civil courts, consistent with the First and Fourteenth Amendments to the

Constitution, may resolve [church property] dispute[s] on the basis of 'neutral principles of
law."' Jones, 443 U.S. at 597. The Ninth Circuit noted in this case that "we are unaware of any
authority or reason precluding courts from deciding other types of church disputes by application
of purely secular legal rules, so long as the dispute does not fall within the ministerial exception
and can be decided without resolving underlying controversies over religious doctrine." Puri,
844 F.3d at 1165 (internal quotation marks and citation omitted).
Here, the Ninth Circuit concluded that a neutral-principles approach may be appropriate,
because "the plaintiffs here ask the comis to decide what amounts to a secular factual question:
under Oregon law and the secular governing documents ofUI, an Oregon nonprofit limited

22 ~ OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 23 of 26

liability company, and SSSC, an Oregon nonprofit religious corporation, were the plaintiffs
elected or designated to the disputed board positions?" Id at 1167. The Ninth Circuit noted the
Plaintiffs do not ask "for resolution of a controversy over religious doctrine. Nor do they ask
civil courts to decide whether a religious organization properly applied ecclesiastical rules in
settling a leadership dispute[.]" !d.
Defendants argue that evidence beyond the pleadings show that Plaintiffs do, in fact, ask
the court for resolution of a question of religious doctrine: whether Yogi Bhajan' s succession
plan as to the religious leadership of the UI and SSSC boards. Plaintiffs disagree, arguing that
neutral principles can clearly resolve this issue. Given my conclusions that UI and SSSC arc
religious organizations, and that board membership constitutes a religious leadership role in SDI,
I look to see how the case law that the Ninth Circuit previously distinguished from this case may

now apply to the facts of this case.
In Kedroff v. Saint Nicholas Cathedral of Russian Orthodox Church in North America,
344 U.S. 94 (1952), the Supreme Court considered whether a state court could determine which
faction of the Russian Orthodox Church was entitled to the Russian Orthodox Cathedral in New
York City. !d. at 95-97. The state court applied a state law requiring that the decisions of the
American churches be authoritative. !d. at 99. The Supreme Court reversed, holding that the
application of the state law "displace[d] one church administrator with another" and "passe[d)
the control of matters strictly ecclesiastical from one church authority to another." ld at 119.
This was unconstitutional, concluded the Court, because it placed the "power of the state into the
forbidden area of religious freedom contrary to the principles of the First Amendment." ld. at
119. Similarly, in Serbian Eastern Orthodox Diocese for the United States ofAmerica and
Canada v. Milivojevich, 426 U.S. 696 (1976), the Supreme Court considered a case in which a

23 -OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 24 of 26

state court reinstated a bishop because the church had failed to follow its own constitution, as
interpreted by the court. 426 U.S. at 707-08. Again the Supreme Court reversed, holding that the
state court had "unconstitutionally undertaken the resolution of quintessentially religious
controversies." Id. at 720.
In Maktab Tarighe Oveyssi Shah Maghsoudi, Inc. v. Kianfar, 179 F.3d 1244 (9th Cir.
1999), the Ninth Circuit considered a dispute involving corporate bodies competing over
trademarks related to a Sufi order. The Court concluded that the ecclesiastical abstention doctrine
did not bar review of the trademark claims in the case. Id. at 1250. But in a separate claim, the
plaintiffs asked that the defendants be enjoined "from representing that the Order ceased to exist
with the death of the Forty-First Teacher, and that they are teachers or masters of the Order." Id.
The Ninth Circuit held that "[t]he district court cannot determine by neutral principles the
legitimacy of [the religious leader's] succession; that kind of determination could only be made
by a recognized decision-making body of the Order itself." Id.
Here, as in Kedroff, Milivojevich, and Kianfar, Plaintiffs ask the Court to adjudicate a
church leadership dispute. Like in Kedroff, the Plaintiffs here ask the Court to "displace[] one
church administrator with another." See 344 U.S. at 119. And although the UI and SSSC board
members are not bishops, as in Milivojevich, the board members have significant religious
leadership roles within SDI. This case is perhaps most akin to Kianfar, which also involved
competing corporate entities linked to a religious organization. The Plaintiffs ask the Court to
determine the legitimacy ofthe SSSC board, which was to be Yogi Bhajan's "successor, to fulfill
his leadership functions following his death," Gurojodha Decl. [395], Ex. 3 at 17, and of the UI
board, which took over Yogi Bhajan's decisionmaking role as to certain religious decisions
within SDI. In my view, this would require the Court to improperly "determine ... the

24- OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 25 of 26

legitimacy of [the religious leader's] succession," because such a "determination could only be
made by a recognized decision-making body of [SDI] itself." Kianfar, 179 F.3d at 1250.
The concerns this case raises are even more apparent when considering the cunent status
of the boards, and SSSC in particular. SSSC's current mission statement includes an explicitly
religious purpose. See Gurojodha Decl. [395]

~

25 (SSSC to protect assets, support non-profit

and for-profit entities, and "live to and hold the values of the teachings of the Siri Guru Granth
Sahib and the Siri Singh Sahib Bhai Sahib Harbhajan Singh Khalsa Yogi Ji: selfless service,
compassion, kindness, honesty, integrity, trustworthiness and Guru inspired consciousness").
And the SSSC board now has religious duties similar to those of the original UI board.
Gurojodha Decl. [395]

~

28 ("SSSC has the authority to appoint and remove the board members

of Sikh Dharma International (SDI), which, among other things, contains the Sikh Dharma
Ministry and, through the Ministry, carries out the function of ordaining Sikh Ministers."). Board
members participate in religious outreach "as representatives and ambassadors of Sikh Dharma."
Gurojodha Decl. [395]

~

39. Finally, the cunent election process for SSSC requires board

members to be elected by fellow Sikh Dharma ministers, active Khalsa Council members, and
members of the Sikh Dharma community pursuant to the terms of the SSSC Board Election
Policy," but in the future, "only Sikh Dharma ministers who are in good standing will be eligible
to vote for SSSC Board members." Gurojodha Decl. [395]

~

16.

To grant plaintiffs' requested relief, this Court would have to determine the legitimacy of
Yogi Bhajan's succession. Additionally, this relief would place Plaintiffs at the helm of religious
institutions, thus displacing board members chosen by other methods. In my view, this raises a
"substantial danger that the State will become entangled in essentially religious controversies or
intervene on behalf of groups espousing particular doctrinal beliefs." See Milivojevich, 426 U.S.

25 -OPINION AND ORDER

Case 3:10-cv-01532-MO

Document 436

Filed 04/26/18

Page 26 of 26

at 709. I therefore conclude the ecclesiastical abstention doctrine also bars review of the claims
in this case. 10
CONCLUSION

For the reasons stated above, I GRANT Defendants' Motion for Summary Judgment
[390], DENY Plaintiffs' Motion for Pruiial Summary Judgment [389], and DENY or DENY as
moot the parties' Motions to Strike [418, 424, 428]. This case is therefore DISMISSED WITH
PREJUDICE.
IT IS SO ORDERED.
DATED this

~

_2/:, day of April, 2018.

~.~
Chief United States District Judge

10

Because I conclude the ministerial exception and the ecclesiastical abstention doctrine bar review in this case, I do
not reach the parties' other arguments.

26- OPINION AND ORDER

APPENDIX C

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 1 of 33

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BIBIJI INDERJIT KAUR PURI;
RANBIR SINGH BHAI; KAMALJIT
KAUR KOHLI; KULBIR SINGH
PURI,
Plaintiffs-Appellants,
v.
SOPURKH KAUR KHALSA;
PERAIM KAUR KHALSA; SIRI
RAM KAUR KHALSA; SIRI KARM
KAUR KHALSA; KARTAR SINGH
KHALSA; KARAM SINGH
KHALSA; ROY LAMBERT;
SCHWABE, WILLIAMSON &
WYATT, an Oregon Professional
Corporation; LEWIS M.
HOROWITZ; LANE POWELL PC,
an Oregon Professional
Corporation; UNTO INFINITY,
LLC, an Oregon Limited
Liability Company; SIRI SINGH
SAHIB CORPORATION, an Oregon
non-profit corporation; DOES, 1
through 5,
Defendants-Appellees.

No. 13-36024
D.C. No.
3:10-cv-01532-MO

OPINION

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 2 of 33

2

PURI V. KHALSA
Appeal from the United States District Court
for the District of Oregon
Michael W. Mosman, Chief District Judge, Presiding
Argued and Submitted March 10, 2016
Portland, Oregon
Filed January 6, 2017
Before: Raymond C. Fisher, Marsha S. Berzon
and Paul J. Watford, Circuit Judges.
Opinion by Judge Fisher

SUMMARY*

First Amendment
The panel vacated the district court’s dismissal, as
foreclosed by the Free Exercise and Establishment Clauses of
the First Amendment, of claims concerning a dispute over the
control of two nonprofit entities associated with the Sikh
Dharma religious community.
The panel held, based only on the pleadings, that the
claims were not barred by the First Amendment’s ministerial
exception. The panel held that the ecclesiastical abstention
doctrine did not apply because the claims could be resolved
by application of neutral principles of law without
*

This summary constitutes no part of the opinion of the court. It has
been prepared by court staff for the convenience of the reader.

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 3 of 33

PURI V. KHALSA

3

encroaching on religious organizations’ right of autonomy in
matters of religious doctrine and administration.
The panel addressed additional issues in a concurrently
filed memorandum disposition.

COUNSEL
Surjit P. Soni (argued) and Leo E. Lundberg, Jr., The Soni
Law Firm, Pasadena, California; R. Scott Palmer, Watkinson
Laird Rubenstein Baldwin & Burgess P.C., Eugene, Oregon;
for Plaintiffs-Appellants.
Paul J.C. Southwick (argued) and John F. McGrory, Jr., Davis
Wright Tremaine LLP, Portland, Oregon, for DefendantsAppellees Unto Infinity, LLC; Siri Singh Sahib Corporation;
Kartar Singh Khalsa; Karam Singh Khalsa; Peraim Kaur
Khalsa; Siri Karm Kaur Khalsa; and Sopurkh Kaur Khalsa.
Janet M. Schroer (argued), Portland, Oregon; Ralph E.
Cromwell, Jr., Byrnes Keller Cromwell LLP, Seattle,
Washington; for Defendants-Appellants Schwabe,
Williamson & Wyatt.
Susan E. Watts (argued), Portland, Oregon; Joseph C.
Arellano, Kennedy Watts Arellano LLP, Portland, Oregon,
for Defendants-Appellees Lane Powell PC and Lewis M.
Horowitz.
Leslie S. Johnson, Kent & Johnson LLP, Portland, Oregon,
for Defendant-Appellee Siri Ram Kaur Khalsa.

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 4 of 33

4

PURI V. KHALSA

Stephen C. Voorhees and Candice R. Broock, Kilmer
Voorhees & Laurick PC, Portland, Oregon, for DefendantAppellee Roy Lambert.
Susan Bower and Rebecca M. Auten, Assistant Attorneys
General; Anna M. Joyce, Solicitor General; Ellen F.
Rosenblum, Attorney General; Oregon Department of Justice,
Salem, Oregon; for Amicus Curiae State of Oregon.

OPINION
FISHER, Circuit Judge:
This appeal concerns a dispute over the control of two
nonprofit entities associated with the Sikh Dharma religious
community. The plaintiffs, the widow and children of the late
spiritual leader of the Sikh Dharma faith, brought claims
against various individuals and entities alleging several
interlocking conspiracies and fraudulent activities designed
to exclude them from certain management positions and to
convert millions of dollars in assets from entities under the
individual defendants’ control for personal benefit. The
district court dismissed the plaintiffs’ complaint, concluding
their claims were foreclosed by the Free Exercise and
Establishment Clauses of the First Amendment.1 We vacate

1

This opinion addresses only the defendants’ First Amendment
defense to the plaintiffs’ direct claims. The plaintiffs also brought several
derivative claims on behalf of Siri Singh Sahib Corporation and Unto
Infinity, LLC. In a concurrently filed memorandum disposition, we affirm
dismissal of those derivative claims. The memorandum disposition also
addresses the parties’ remaining arguments regarding the plaintiffs’ direct
claims.

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 5 of 33

PURI V. KHALSA

5

the district court’s dismissal because we conclude, based only
on the pleadings, that the plaintiffs’ claims are not barred by
the First Amendment’s ministerial exception and can be
resolved by application of neutral principles of law without
encroaching on religious organizations’ right of autonomy in
matters of religious doctrine and administration.
BACKGROUND
This case comes to us on the pleadings, so we accept the
plaintiffs’ factual allegations as true. Our review is limited to
the facts alleged in the plaintiffs’ first amended complaint
(“complaint”) and the attached exhibits incorporated by
reference therein. See Elvig v. Calvin Presbyterian Church,
375 F.3d 951, 953 (9th Cir. 2004).
Yogi Harbhajan Singh Khalsa, also known as Yogi
Bhajan, was a spiritual leader and entrepreneur who spread
Sikhism and Kundalini Yoga in the United States beginning
in the 1960s. In 1971, he was designated the Siri Singh
Sahib, the Sikh leader for the Western Hemisphere. Yogi
Bhajan founded or inspired the creation of numerous forprofit and nonprofit entities that were held and controlled by
Siri Singh Sahib of Sikh Dharma (SSSSD), a California
corporation sole of which he was the only shareholder.2
Three of these entities are particularly relevant to this case:
Siri Singh Sahib Corporation, Unto Infinity, LLC, and Sikh
Dharma International.

2
Under California law, a corporation sole is a corporation “formed
. . . by the bishop, chief priest, presiding elder, or other presiding officer
of any religious denomination, society, or church, for the purpose of
administering and managing the affairs, property, and temporalities
thereof.” Cal. Corp. Code § 10002.

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 6 of 33

6

PURI V. KHALSA

Yogi Bhajan formed Siri Singh Sahib Corporation (SSSC)
as an Oregon nonprofit religious corporation “to act as the
successor legal organization to [SSSSD]” following his death
or incapacity, “and in such capacity to conduct and/or
facilitate religious, charitable and educational activities.”
SSSC would become “the guardian of those assets of
[SSSSD] which are conveyed to it,” and would replace
SSSSD as the sole member of Unto Infinity, LLC. Yogi
Bhajan was the sole director, or “trustee,” of SSSC at its
founding, but the SSSC articles of incorporation provided that
following his death or incapacity, “the directors shall be those
persons designated in writing by [Yogi Bhajan],” with such
written designation to be “delivered to, and held in
confidence by, the attorney for the corporation.” The articles
also set out certain religious criteria for directors:
No individual will be eligible to be designated
or elected as a trustee unless he or she . . . is
currently qualified as a minister of Sikh
Dharma; . . . is an active participant in
Dasvandh [tithing]; . . . [and] is then living,
and participating in the affairs of the Sikh
community, in a manner consistent with the
teachings and values of [Yogi Bhajan], and
accepts the directives and proclamations of
[Yogi Bhajan] as Siri Singh Sahib of Sikh
Dharma, as such teachings, values, directives,
and proclamations are understood by the Siri
Sikdar Sahib/a of Sikh Dharma . . . .
Yogi Bhajan formed Unto Infinity, LLC (UI), as an
Oregon nonprofit limited liability company to serve as a
member or shareholder of various for-profit and nonprofit
entities. Under UI’s operating agreement, SSSSD was to be

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 7 of 33

PURI V. KHALSA

7

the sole member of UI until Yogi Bhajan’s death or
incapacity, at which time SSSC would assume that role, and
UI would become the sole member of Sikh Dharma
International. Acting by virtue of his exclusive control over
SSSSD, Yogi Bhajan appointed himself and four others to the
UI board of managers, which would “exercise full and
exclusive control over the affairs of the Company, subject to
restrictions on that authority under the Oregon Limited
Liability Company Act.” The UI operating agreement set
forth the same religious eligibility criteria for its board of
managers as the SSSC articles established for its directors.
Yogi Bhajan formed Sikh Dharma International (SDI) as
a California nonprofit religious corporation “organized to
advance the religion of Sikh Dharma and as an association of
religious organizations teaching principles of Sikh Dharma,
including by ordination of ministers of divinity and operation
of places of worship.” SDI’s sole member is UI.
Yogi Bhajan died in October 2004. He was survived by
the plaintiffs in this case – his wife, Bibiji Inderjit Kaur Puri
(“Bibiji”), and their three children, Ranbir Singh Bhai
(“Ranbir”), Kamaljit Kaur Kohli and Kulbir Singh Puri.
They allege the general counsel and five board members of
UI and SSSC conspired to exclude them from participating in
the management of those organizations.
First, the plaintiffs assert they have been improperly
excluded from the SSSC board of trustees. They allege Yogi
Bhajan, acting pursuant to the SSSC articles of incorporation,
designated all four of them to become board members
following his death or incapacity and furnished the written
designation to defendant Roy Lambert, attorney for SSSC.
Lambert allegedly failed to produce the designation following

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 8 of 33

8

PURI V. KHALSA

Yogi Bhajan’s death, and the defendants then held board
meetings without providing notice to the plaintiffs and
without the plaintiffs’ attendance, in violation of SSSC
bylaws and Oregon law. Second, the plaintiffs allege the UI
board of managers added Bibiji as a manager of UI on July
26, 2004, prior to Yogi Bhajan’s death, by unanimous written
consent, but the defendants failed to inform her of her
election and denied her the rights and duties of board
membership.
In support of their claims, the plaintiffs point to various
emails and corporate documents, attached to their complaint
and incorporated by reference, that they allege confirm their
allegations of wrongful exclusion from the SSSC and UI
boards. On July 26, 2004, all five members of the UI board
of managers apparently adopted a resolution increasing the
membership of the board to six and electing Bibiji “to fill the
new position as manager of the Corporation.” In October
2004, defendant Sopurkh Kaur Khalsa (“Sopurkh”), president
of the UI board of managers, left a voicemail message for
plaintiff Ranbir explaining that she and Lambert were
“proceeding on getting you guys on the Board” of SSSC and
UI. Sopurkh followed up by email with a “Memo of
Understanding” acknowledging that Bibiji was “already on
[the] board” of UI and confirming that all four plaintiffs
would be added to the SSSC and UI boards. In September
2005, Sopurkh apparently changed course, explaining to
Bibiji that the previous Memo of Understanding
“inadvertently omitted a statement regarding the corporate
involvement of you and your children,” and the “[m]emo was
not intended to indicate either current board membership for
you and your children or agreement that you and your
children would ultimately be elected to the listed boards.”
Sopurkh furnished a “revised Memo of Understanding which

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 9 of 33

PURI V. KHALSA

9

corrects the prior error,” clarifying that the memo constituted
her “understanding of the family’s request to be included in
the various boards in our organization.” The revised
document nonetheless reiterated Bibiji was “already on [the]
board” of UI. Two months later, when Lambert sent an email
listing “the board of [SSSC] as designated by [Yogi Bhajan],”
two of the plaintiffs’ names appeared on the list.
The plaintiffs’ complaint seeks a judgment that Bibiji
“has been a Manager of UI from and after July 26, 2004” and
that all four plaintiffs “be appointed to the Board of Trustees
of SSSC.” They also seek damages for lost compensation
they would have received for their services on the boards.
After the defendants moved to dismiss for failure to state a
claim upon which relief can be granted, see Fed. R. Civ. P.
12(b)(6), the plaintiffs moved for leave to file a second
amended complaint.
The district court granted the
defendants’ motions to dismiss, denied the motion for leave
to amend and entered a judgment of dismissal with prejudice.
The plaintiffs timely appealed.
STANDARD OF REVIEW
We review de novo a district court’s dismissal for failure
to state a claim upon which relief can be granted. See
Daniels-Hall v. Nat’l Educ. Ass’n, 629 F.3d 992, 998 (9th
Cir. 2010). We accept as true all well-pleaded allegations of
material fact and construe them in the light most favorable to
the plaintiffs. See id. We also review de novo a district
court’s legal determinations, including constitutional rulings,
and its determinations on mixed questions of law and fact that
implicate constitutional rights. See Berger v. City of Seattle,
569 F.3d 1029, 1035 (9th Cir. 2009) (en banc).

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 10 of 33

10

PURI V. KHALSA
DISCUSSION

The question before us is whether the Free Exercise and
Establishment Clauses of the First Amendment preclude a
civil court from granting relief on the plaintiffs’ claims,
which seek declaratory and injunctive relief in the form of
placement on the management boards of organizations
associated with the Sikh Dharma religious community as well
as damages for lost compensation due to their previous
exclusion from those boards. The defendants raise the
“ministerial exception” as an affirmative defense, and
contend even if that exception does not apply, the plaintiffs’
claims still cannot be decided by a civil court because the
requested relief would infringe on the sphere of autonomy
constitutionally guaranteed to religious organizations.
I.
A.
The Supreme Court has long recognized religious
organizations’ broad right to control the selection of their
own religious leaders. See, e.g., Gonzalez v. Roman Catholic
Archbishop of Manila, 280 U.S. 1, 16 (1929). Recently, the
Court “confirm[ed] that it is impermissible for the
government to contradict a church’s determination of who
can act as its ministers,” and formally recognized “a
‘ministerial exception,’ grounded in the First Amendment,
that precludes application of [employment discrimination
laws] to claims concerning the employment relationship
between a religious institution and its ministers.” HosannaTabor Evangelical Lutheran Church & Sch. v. EEOC, 132 S.
Ct. 694, 704–05 (2012). This ministerial exception “ensures
that the authority to select and control who will minister to

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 11 of 33

PURI V. KHALSA

11

the faithful – a matter ‘strictly ecclesiastical’ – is the church’s
alone.” Id. at 709 (citation omitted) (quoting Kedroff v. Saint
Nicholas Cathedral of Russian Orthodox Church in N. Am.,
344 U.S. 94, 119 (1952)). The Court explained:
Requiring a church to accept or retain an
unwanted minister, or punishing a church for
failing to do so, intrudes upon more than a
mere employment decision. Such action
interferes with the internal governance of the
church, depriving the church of control over
the selection of those who will personify its
beliefs. By imposing an unwanted minister,
the state infringes the Free Exercise Clause,
which protects a religious group’s right to
shape its own faith and mission through its
appointments. According the state the power
to determine which individuals will minister
to the faithful also violates the Establishment
Clause, which prohibits government
involvement in such ecclesiastical decisions.
Id. at 706.
Although the Supreme Court has not articulated the scope
of the ministerial exception beyond employment
discrimination claims, see id. at 710, our court has framed the
exception as applicable “to any state law cause of action that
would otherwise impinge on the church’s prerogative to
choose its ministers or to exercise its religious beliefs in the
context of employing its ministers.” Bollard v. Cal. Province
of the Soc’y of Jesus, 196 F.3d 940, 950 (9th Cir. 1999); see
also Werft v. Desert Sw. Annual Conference of United
Methodist Church, 377 F.3d 1099, 1100 n.1 (9th Cir. 2004).

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 12 of 33

12

PURI V. KHALSA

Thus, any claim “with an associated remedy . . . [that] would
require the church to employ [a minister]” would “interfer[e]
with the church’s constitutionally protected choice of its
ministers,” and thereby “would run afoul of the Free Exercise
Clause.” Bollard, 196 F.3d at 950. The ministerial exception
also bars relief for “consequences of protected employment
decisions,” such as damages for “lost or reduced pay,”
because such relief “would necessarily trench on the Church’s
protected ministerial decisions.” Elvig, 375 F.3d at 966; see
also Hosanna-Tabor, 132 S. Ct. at 709 (“An award of such
relief would operate as a penalty on the Church for
terminating an unwanted minister, and would be no less
prohibited by the First Amendment than an order overturning
the termination.”).
B.
The ministerial exception is an affirmative defense. See
Hosana-Tabor, 132 S. Ct. at 709 n.4. It applies to claims that
impinge on protected employment decisions regarding “a
religious organization and its ministers,” Elvig, 375 F.3d at
955 (quoting Bollard, 196 F.3d at 945), and when applicable,
it flatly prohibits courts from “[r]equiring a church to accept
or retain an unwanted minister, or punishing a church for
failing to do so,” Hosanna-Tabor, 132 S. Ct. at 706.
As an affirmative defense, the ministerial exception can
serve as the basis for dismissing a complaint at the pleadings
stage under Rule 12(b)(6) only when the elements of the
defense appear on the face of the complaint. See Jones v.
Bock, 549 U.S. 199, 215 (2007) (citing 5B Charles Alan
Wright & Arthur R. Miller, Federal Practice and Procedure
§ 1357 (3d ed. 2004)); Rivera v. Peri & Sons Farms, Inc.,
735 F.3d 892, 902 (9th Cir. 2013). Therefore, if it is apparent

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 13 of 33

PURI V. KHALSA

13

on the face of the plaintiffs’ complaint that the defendants’
refusal to seat the plaintiffs on the disputed boards is a
“protected employment decision[]” under the ministerial
exception, see Elvig, 375 F.3d at 963, the plaintiffs’ claims
are altogether barred, and a civil court can neither order the
defendants to employ the plaintiffs nor award damages
against the defendants for past or future failure to do so.
The defendants argue the complaint should be dismissed
under the ministerial exception because it seeks relief for a
protected employment decision made by a religious
organization concerning its ministers. Specifically, they
contend the complaint alleges both that SSSC and UI are
“religious organizations” covered by the exception, and that
the disputed board positions are “ministerial” because they
can be occupied only by individuals meeting certain
“religious requirements,” including that they be Sikh
ministers. The plaintiffs do not dispute SSSC and UI are
religious organizations within the meaning of the ministerial
exception, but they argue the board positions are not
ministerial because, on the face of the complaint, it is not
apparent their duties involve conveying the church’s message
or carrying out its religious mission.3
As a threshold matter, it is not clear that the ministerial
exception could ever apply to the type of positions at issue
here. This is a dispute over seats on the boards of corporate
entities that are apparently affiliated with a church, but are

3
The plaintiffs also argue the religious requirements for SSSC board
membership do not apply to them, relying on an exhibit attached to their
disallowed second amended complaint. We do not reach this argument
because, even assuming the plaintiffs are subject to the religious
requirements, we conclude the ministerial exception does not apply.

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 14 of 33

14

PURI V. KHALSA

not themselves churches. Thus, the positions are far afield
from the “paradigmatic application of the ministerial
exception” to ordained ministers employed by a church, such
as Roman Catholic priests who “minister to the faithful” as
that term is generally understood. See Alcazar v. Corp. of the
Catholic Archbishop of Seattle, 627 F.3d 1288, 1291 (9th Cir.
2010) (en banc). Neither the Supreme Court nor this court
has applied the ministerial exception to the governing boards
of church-affiliated organizations, let alone to those whose
responsibilities are largely secular, as the complaint alleges
here. There is, therefore, reason to question whether the
exception is even potentially implicated.
At the same time, neither the Supreme Court nor this
court has ever expressly limited the ministerial exception to
particular types of positions, and both courts have expressly
declined to adopt any bright line rule defining the scope of
the exception. As the Supreme Court has made clear, there
is no “rigid formula for deciding when an employee qualifies
as a minister” within the meaning of the ministerial
exception. Hosanna-Tabor, 132 S. Ct. at 707. Our en banc
court echoed that view in Alcazar, where we “declined to
adopt any particular test” for “determining whether a
particular church employee . . . should be considered a
‘minister’” for First Amendment purposes. 627 F.3d at 1291.
Certain language in Hosanna-Tabor, moreover, suggests a
fairly broad application of the exception. The Court
explained “[t]he ministerial exception is not limited to the
head of a religious congregation,” and insulates a religious
organization’s “selection of those who will personify its
beliefs.” Hosanna-Tabor, 132 S. Ct. at 706–07. The Court
further suggested the exception extends to “the Church’s
choice of its hierarchy” when that choice implicates “a
religious group’s right to shape its own faith and mission.”

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 15 of 33

PURI V. KHALSA

15

Hosanna-Tabor, 132 S. Ct. at 705–06. We too have
suggested a potentially broad reach for the exception. See
Bollard, 196 F.3d at 947 (referring to the ministerial
exception as protecting “a church’s freedom to choose its
representatives”). In practice, there may be little difference
between deciding whether a defendant has established the
affirmative defense of the ministerial exception with respect
to a hiring decision for a particular employment position in a
particular case and deciding categorically whether the
exception applies to hiring decisions for an entire type or
class of employment positions, such as governing boards of
church-affiliated organizations. As explained below, the
former analysis considers, among other things, “the nature of
the religious functions performed” and “[t]he amount of time
an employee spends on particular activities.” HosannaTabor, 132 S. Ct. at 709. Any categorical analysis likely
would turn on very similar inquiries.
Ultimately, we do not attempt to resolve the question of
whether the ministerial exception ever applies to the type of
positions at issue here. We need not categorically define the
scope of the ministerial exception, because even if it is
potentially available in a case such as this one, it is clear the
defendants here have failed to make out the defense at this
juncture. For the purpose of the following analysis, therefore,
we only assume without deciding that the exception is
potentially implicated with respect to the type of positions in
dispute in the case before us.
The Supreme Court has provided some guidance on the
circumstances that might qualify an employee as a minister
within the meaning of the ministerial exception. First, an
employee is more likely to be a minister if a religious
organization holds the employee out as a minister by

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 16 of 33

16

PURI V. KHALSA

bestowing a formal religious title. See id. at 707. Although
an ecclesiastical title “by itself, does not automatically ensure
coverage, the fact that an employee has been ordained or
commissioned as a minister is surely relevant.” Id. at 708. A
second consideration is the “substance reflected in that title,”
such as “a significant degree of religious training followed by
a formal process of commissioning.” Id. at 707–08. Third,
an employee whose “job duties reflect[] a role in conveying
the Church’s message and carrying out its mission” is likely
to be covered by the exception, even if the employee devotes
only a small portion of the workday to strictly religious duties
and spends the balance of her time performing secular
functions. Id. Finally, an employee who holds herself out as
a religious leader is more likely to be considered a minister.
Id.
Based on the pleadings here, some circumstances weigh
in favor of considering the board positions ministerial. The
complaint alleges that a “mission and purpose” of SSSC and
UI is “to benefit the Sikh Dharma community and to advance
and promote [Yogi Bhajan’s] teachings,” and it is “surely
relevant” that their board members must be ordained
ministers of Sikh Dharma and must meet certain other
religious criteria. See id. at 708.
But, based on the face of the complaint, a number of other
circumstances weigh against applying the ministerial
exception. First, and most importantly, the pleadings do not
allege the board members have any ecclesiastical duties or
privileges. In assessing the responsibilities attendant to the
board positions, it is relevant that the entities involved are not
themselves churches, but rather corporate parents of a church.
SSSC’s primary responsibility appears to be holding title to
church property, and UI, in addition to being the sole member

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 17 of 33

PURI V. KHALSA

17

of SDI – i.e., the direct corporate parent of the Sikh Dharma
church – owns and controls a portfolio of for-profit and
nonprofit corporations, including a major security contractor
and a prominent tea manufacturer. Although the complaint
alleges the board members have “fiduciary duties to UI and
SSSC to hold assets in trust for the benefit of the Sikh
Dharma community,” it is not clear on the face of the
complaint that these duties are “religious” or “reflect[] a role
in conveying the Church’s message and carrying out its
mission.” Id.
No religious duties comparable to those found relevant in
Hosanna-Tabor appear in the pleadings here. In HosannaTabor, the Supreme Court observed the plaintiff was
“expressly charged . . . with ‘lead[ing] others toward
Christian maturity’ and ‘teach[ing] faithfully the Word of
God, the Sacred Scriptures, in its truth and purity and as set
forth in all the symbolical books of the Evangelical Lutheran
Church.’” Id. “In fulfilling these responsibilities, [the
plaintiff] taught her students religion[,] . . . led them in
prayer[,] . . . took her students to a school-wide chapel
service, and . . . took her turn leading it, choosing the liturgy,
selecting the hymns, and delivering a short message based on
verses from the Bible.” Id. The Court concluded, “[a]s a
source of religious instruction, [the plaintiff] performed an
important role in transmitting the Lutheran faith to the next
generation.” Id. By contrast, none of the allegations here
support a similar conclusion.
Although the Court has cautioned against relying too
heavily on “the relative amount of time . . . spent performing
religious functions,” it has recognized that “the nature of the
religious functions performed” and “[t]he amount of time an
employee spends on particular activities” are relevant

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 18 of 33

18

PURI V. KHALSA

considerations. Id. at 709. We, too, have “look[ed] to the
function of the position . . . in deciding whether the
ministerial exception applies,” Elvig, 375 F.3d at 958, and
have held, for instance, that the exception does not apply “to
lay employees of a religious institution if they are not serving
the function of ministers,” Bollard, 196 F.3d at 947. The
pleadings do not allege the board members “serv[e] the
function of ministers.” Id.
Second, the pleadings do not allege the board members
are held out as religious leaders, either by their respective
employers or by the board members themselves. A board
member of UI or SSSC has the job title of “manager” or
“trustee,” respectively, and the pleadings do not suggest these
apparently secular titles hold any ecclesiastical significance
in the Sikh Dharma faith. Although a board member must be
“qualified as a minister of Sikh Dharma,” and although we
have held “[t]he paradigmatic application of the ministerial
exception is to the employment of an ordained minister,”
Alcazar, 627 F.3d at 1291, this paradigm applies to
employment by a church, as a minister. An employee’s
status as an ordained minister, standing alone, does not
trigger the ministerial exception when that individual is
employed in a secular capacity by an entity other than a
church. Cf. id. at 1292 (“[T]he ministerial exception may not
apply to a seminarian who obtains employment with a church
outside the scope of his seminary training.”).
UI and SSSC are not churches, and although their board
members must be independently qualified as Sikh ministers,
they are not employed or held out by the organizations as
ministers. Nor is there any indication the board members
hold themselves out as religious leaders. These factors weigh
against viewing the board members as “representatives” of

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 19 of 33

PURI V. KHALSA

19

the church or as being “close to the heart of the church.”
Alcazar, 627 F.3d at 1291 (quoting Bollard, 196 F.3d at
946–47).
Finally, the pleadings do not show the board positions are
religious in substance, whether by requiring “significant
religious training,” by signifying ecclesiastical merit, or
otherwise. Hosanna-Tabor, 132 S. Ct. at 707–08. In
Hosanna-Tabor, the Court gave substantial weight to the six
years of rigorous religious training required to become a
called teacher, encompassing “college-level courses in
subjects including biblical interpretation, church doctrine, and
the ministry of the Lutheran teacher.” Id. at 707. The Court
also observed that a teacher could receive her call “only upon
election by the congregation, which recognized God’s call to
her to teach.” Id. Although it is possible that carrying out the
disputed board positions here involves similarly substantial
religious training and recognition, the record before us does
not reveal what is entailed in becoming “qualified as a
minister of Sikh Dharma” and “accept[ing] the directives and
proclamations of [Yogi Bhajan] . . . as such teachings, values,
and directives are understood by the Siri Sikdar Sahib/a of
Sikh Dharma,” nor does the record establish any functional
connection between the duties of a board member and the
religious criteria for selection. Therefore, in construing the
allegations of material fact in the light most favorable to the
plaintiffs, see Daniels-Hall, 629 F.3d at 998, we do not
assume the board positions are substantively religious on this
motion to dismiss.
Absent any allegation that board members have
ecclesiastical duties or are held out to the community as
religious leaders, and with scant pleadings on the religious
requirements for the positions, we agree with the plaintiffs

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 20 of 33

20

PURI V. KHALSA

that it is not apparent on the face of the complaint that the
disputed board positions are “ministerial.” Whereas the
ministerial exception typically applies to those who are
employed by a church to minister to the faithful, this case
appears to concern board members who, in that capacity, are
neither employed by a church nor employed to minister to the
faithful. We do not foreclose the defendants from ultimately
establishing that the ministerial exception applies, but the
factual allegations in the complaint are too far removed from
the core of the exception for us to conclude at this stage of the
proceedings that the exclusion of the plaintiffs from the board
positions is a “protected employment decision” falling within
the ministerial exception affirmative defense.
II.
Given the defendants cannot at this point rely on the
ministerial exception to bar the plaintiffs’ claims, we next
consider whether other principles of the Free Exercise and
Establishment Clauses nonetheless preclude the courts’
involvement in the internal affairs of UI and SSSC under
what we have previously termed the “doctrine of
ecclesiastical abstention.” Paul v. Watchtower Bible & Tract
Soc’y of N.Y., Inc., 819 F.2d 875, 878 n.1 (9th Cir. 1987).
The plaintiffs do not dispute UI and SSSC are religious
organizations protected by the religion clauses of the First
Amendment, but they contend the district court can resolve
this case without encroaching on that protection.
A.
Long before it formally recognized a ministerial
exception, the Supreme Court developed a doctrine, grounded
originally in common law but later in the First Amendment,

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 21 of 33

PURI V. KHALSA

21

“limiting the role of civil courts in the resolution of religious
controversies that incidentally affect civil rights.” Serbian E.
Orthodox Diocese for U.S. & Can. v. Milivojevich, 426 U.S.
696, 710 (1976). Under this doctrine of ecclesiastical
abstention, “a State may adopt any one of various approaches
for settling church . . . disputes so long as it involves no
consideration of doctrinal matters.” Jones v. Wolf, 443 U.S.
595, 602 (1979) (quoting Md. & Va. Eldership of Churches
of God v. Church of God at Sharpsburg, Inc., 396 U.S. 367,
368 (1970) (Brennan, J., concurring)). The Supreme Court
has recognized two principal approaches to deciding church
disputes without “jeopardiz[ing] values protected by the First
Amendment.” Presbyterian Church in U.S. v. Mary
Elizabeth Blue Hull Mem’l Presbyterian Church, 393 U.S.
440, 449 (1969).
The first, derived from Watson v. Jones, 80 U.S.
(13 Wall.) 679 (1872), and its progeny, is simply to “accept[]
the decision of the established decision-making body of the
religious organization.” Maktab Tarighe Oveyssi Shah
Maghsoudi, Inc. v. Kianfar, 179 F.3d 1244, 1248 (9th Cir.
1999).
[W]here resolution of the disputes cannot be
made without extensive inquiry by civil courts
into religious law and polity, the First and
Fourteenth Amendments mandate that civil
courts shall not disturb the decisions of the
highest ecclesiastical tribunal within a church
. . . but must accept such decisions as binding
on them, in their application to the religious
issues of doctrine or polity before them.

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 22 of 33

22

PURI V. KHALSA

Milivojevich, 426 U.S. at 709. But, recognizing that
deference can sometimes lead to entanglement of civil courts
in ecclesiastical issues and that some church disputes can be
resolved by application of solely secular legal rules, the Court
has also articulated an alternative to the Watson approach it
has termed the “neutral principles of law” approach. See
Jones, 443 U.S. at 602, 605.
1.
The Court first considered judicial intervention in church
disputes in Watson, when it was asked to resolve which of
two factions rightfully controlled the property of a local
Presbyterian church. See 80 U.S. (13 Wall.) at 681. Ruling
on common law grounds, the Court concluded “a broad and
sound view of the relations of church and state under our
system of laws” requires civil courts to defer to the
determinations of a church’s highest ecclesiastical authority
on “questions of discipline, or of faith, or ecclesiastical rule,
custom, or law.” Id. at 727.
The Court later applied the Watson rule to an individual’s
claim of entitlement to a chaplaincy in the Roman Catholic
Church. See Gonzalez, 280 U.S. at 10–11. Although the
plaintiff was entitled to the position under the terms of a will
establishing the chaplaincy, the archbishop had declined to
appoint the plaintiff because he lacked the qualifications for
the position as prescribed by canon law. Id. at 17–18. The
Court explained:
Because the appointment is a canonical act, it
is the function of the church authorities to
determine what the essential qualifications of
a chaplain are and whether the candidate

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 23 of 33

PURI V. KHALSA

23

possesses them. In the absence of fraud,
collusion, or arbitrariness, the decisions of the
proper church tribunals on matters purely
ecclesiastical, although affecting civil rights,
are accepted in litigation before the secular
courts as conclusive, because the parties in
interest made them so by contract or
otherwise.
Id. at 16.
The Supreme Court subsequently adopted the holdings of
Watson and Gonzalez as a constitutional rule insofar as they
pertained to the “[f]reedom to select the clergy,” explaining
that a church’s freedom to do so, “where no improper
methods of choice are proven, . . . must now be said to have
federal constitutional protection as a part of the free exercise
of religion against state interference.” Kedroff, 344 U.S. at
116; see also id. at 116 n.23 (quoting Gonzalez, 280 U.S. at
16–17). Under this principle of noninterference, extended to
cover judicial action in Kreshik v. Saint Nicholas Cathedral,
363 U.S. 190, 191 (1960) (per curiam), civil courts may not
“[b]y fiat . . . displace[] one church administrator with
another” and thereby “pass[] the control of matters strictly
ecclesiastical from one church authority to another.” Kedroff,
344 U.S. at 119. Doing so would “intrude[] for the benefit of
one segment of a church the power of the state into the
forbidden area of religious freedom contrary to the principles
of the First Amendment.” Id.
The Supreme Court’s early church dispute cases
embraced “a spirit of freedom for religious organizations, an
independence from secular control or manipulation – in short,
power to decide for themselves, free from state interference,

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 24 of 33

24

PURI V. KHALSA

matters of church government as well as those of faith and
doctrine.” Id. at 116. This deferential doctrine recognizes
that “First Amendment values are plainly jeopardized when
church [disputes are] made to turn on the resolution by civil
courts of controversies over religious doctrine and practice.”
Presbyterian Church, 393 U.S. at 449.
This does not mean, however, that civil courts have no
role in disputes involving religious organizations. Unlike the
ministerial exception, which completely bars judicial inquiry
into protected employment decisions, the ecclesiastical
abstention doctrine is a qualified limitation, requiring only
that courts decide disputes involving religious organizations
“without resolving underlying controversies over religious
doctrine.” Kianfar, 179 F.3d at 1248 (quoting Presbyterian
Church, 393 U.S. at 448).
2.
The Court introduced the neutral-principles approach in
the context of a property dispute between two local churches
that sought to withdraw from the national Presbyterian
Church in the United States. See Presbyterian Church,
393 U.S. at 441–43. Presbyterian Church held that Georgia’s
departure-from-doctrine rule, an alternative to the Watson
approach never endorsed by the Court but nonetheless
followed by some states, “require[d] the civil courts to engage
in the forbidden process of interpreting and weighing church
doctrine” and was therefore unconstitutional. Id. at 451. In
so holding, the Court recognized “the First Amendment
severely circumscribes the role that civil courts may play in
resolving church property disputes.” Id. at 449. But the Court
continued:

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 25 of 33

PURI V. KHALSA

25

It is obvious, however, that not every civil
court decision as to property claimed by a
religious organization jeopardizes values
protected by the First Amendment. Civil
courts do not inhibit free exercise of religion
merely by opening their doors to disputes
involving church property. And there are
neutral principles of law, developed for use in
all property disputes, which can be applied
without ‘establishing’ churches to which
property is awarded.
Id.
A year later, in Maryland & Virginia Eldership, the Court
approved the Maryland high court’s use of the neutralprinciples approach to resolve a church property dispute
between a regional church and two secessionist
congregations. See 396 U.S. at 367–68 (per curiam). The
Maryland Court of Appeals “relied upon provisions of state
statutory law governing the holding of property by religious
corporations, upon language in the deeds conveying the
properties in question to the local church corporations, upon
the terms of the charters of the corporations, and upon
provisions in the constitution of the General Eldership
pertinent to the ownership and control of church property.”
Id. at 367 (footnote omitted) (citing 254 A.2d 162 (Md.
1969)). The Court rejected the petitioners’ argument that this
application of neutral state law principles “deprived the
General Eldership of property in violation of the First
Amendment” and dismissed the appeal for want of a
substantial federal question, because “the Maryland court’s
resolution of the dispute involved no inquiry into religious
doctrine.” Id. at 367–68.

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 26 of 33

26

PURI V. KHALSA

In a concurrence to the per curiam opinion in Maryland
& Virginia Eldership later drawn on by a majority of the
Court in Jones v. Wolf, see 443 U.S. at 602–03, Justice
Brennan explained, “a State may adopt any one of various
approaches for settling church property disputes so long as it
involves no consideration of doctrinal matters, whether the
ritual and liturgy of worship or the tenets of faith.” Md. &
Va. Eldership, 396 U.S. at 368 (Brennan, J., concurring).
“Thus the States may adopt the approach of Watson v. Jones,
and enforce the property decisions made” by a church’s
highest ecclesiastical authority. Id. at 368–69 (citation
omitted) (citing Watson, 80 U.S. (13 Wall.) at 722, 724). But
“the use of the Watson approach is consonant with the
prohibitions of the First Amendment only if the appropriate
church governing body can be determined without the
resolution of doctrinal questions and without extensive
inquiry into religious policy.” Id. at 370. Alternatively,
“‘[n]eutral principles of law, developed for use in all property
disputes,’ provide another means for resolving litigation over
religious property.”
Id. (citation omitted) (quoting
Presbyterian Church, 393 U.S. at 449). For example, when
“the identity of the governing body or bodies that exercise
general authority within a church is a matter of substantial
controversy,” courts can avoid becoming impermissibly
entangled in that ecclesiastical dispute by “determin[ing]
ownership by studying deeds, reverter clauses, and general
state corporation laws.” Id. at 369–70.
In Jones, the Court definitively held that “civil courts,
consistent with the First and Fourteenth Amendments to the
Constitution, may resolve [church property] dispute[s] on the
basis of ‘neutral principles of law.’” 443 U.S. at 597. The
Court observed:

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 27 of 33

PURI V. KHALSA

27

The primary advantages of the neutralprinciples approach are that it is completely
secular in operation, and yet flexible enough
to accommodate all forms of religious
organization and polity. The method relies
exclusively on objective, well-established
concepts of trust and property law familiar to
lawyers and judges. It thereby promises to
free civil courts completely from
entanglement in questions of religious
doctrine, polity, and practice.
Id. at 603. The Court recognized “the application of the
neutral-principles approach is [not] wholly free of difficulty”
as it may, for instance, “require[] a civil court to examine
certain religious documents, such as a church constitution, for
language of trust in favor of the general church.” Id. at 604.
“In undertaking such an examination, a civil court must take
special care to scrutinize the document in purely secular
terms, and not to rely on religious precepts.”
Id.
Furthermore, “there may be cases where the deed, the
corporate charter, or the constitution of the general church
incorporates religious concepts in the provisions relating to
the ownership of property,” and, “[i]f in such a case the
interpretation of the instruments of ownership would require
the civil court to resolve a religious controversy, then the
court must defer to the resolution of the doctrinal issue by the
authoritative ecclesiastical body.” Id. (citing Milivojevich,
426 U.S. at 709). Despite these challenges, the Court
concluded “[o]n balance, . . . the promise of nonentanglement
and neutrality inherent in the neutral-principles approach
more than compensates for what will be occasional problems
in application.” Id.

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 28 of 33

28

PURI V. KHALSA

Property disputes have proved especially amenable to
application of the neutral-principles approach. See Kianfar,
179 F.3d at 1249. But we are unaware of any authority or
reason precluding courts from deciding other types of church
disputes by application of purely secular legal rules, so long
as the dispute does not fall within the ministerial exception
and can be decided “without resolving underlying
controversies over religious doctrine.” Presbyterian Church,
393 U.S. at 449; see also Milivojevich, 426 U.S. at 710 (“This
principle applies with equal force to church disputes over
church polity and church administration.”). Indeed, “we must
be careful not to deprive religious organizations of all
recourse to the protections of civil law that are available to all
others,” because “[s]uch a deprivation would raise its own
serious problems under the Free Exercise Clause.” Kianfar,
179 F.3d at 1248.
B.
1.
The Supreme Court has made clear that “a State may
adopt any one of various approaches for settling church . . .
disputes so long as it involves no consideration of doctrinal
matters.” Jones, 443 U.S. at 602 (quoting Md. & Va.
Eldership, 396 U.S. at 368 (Brennan, J., concurring)). It is
thus constitutionally permissible for a court to apply either
the Watson approach (deferring to a church’s highest
ecclesiastical authority) or the neutral-principles approach to
such disputes, as long as the court decides the dispute
“without resolving underlying controversies over religious
doctrine.” Kianfar, 179 F.3d at 1248 (quoting Presbyterian
Church, 393 U.S. at 449). But we are not without further

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 29 of 33

PURI V. KHALSA

29

guidance in deciding the proper approach for cases litigated
in federal court.
First, Jones suggested a clear preference for the neutralprinciples approach, noting that its “promise[] to free civil
courts completely from entanglement in questions of religious
doctrine, polity, and practice” outweighed occasional
difficulties in its application. Jones, 443 U.S. at 603–04.
Following Jones, we held that where a religious entity has
adopted civil “legal structures, it is incumbent upon the civil
court . . . to apply to those structures the secular law that
governs them.” See Kianfar, 179 F.3d at 1250.4
Second, where both approaches are available as a
constitutional matter, we have made clear a court may apply
the neutral-principles approach even though the Watson
approach would lead to a contrary result. See id. at 1249
(discussing the Supreme Court’s approval of a state approach
that required a decision “by neutral principles even though
the outcome might contravene the decision of the hierarchical
church” (citing Jones, 443 U.S. at 604–06)).

4

This holding follows from a principle announced in Watson itself.
See Jones, 443 U.S. at 603 n.3 (“[E]ven in Watson v. Jones, . . . the
Court[] stated that, regardless of the form of church government, it would
be the ‘obvious duty’ of a civil tribunal to enforce the ‘express terms’ of
a deed, will, or other instrument of church property ownership.” (quoting
Watson, 80 U.S. (13 Wall.) at 722–23)). The Court’s endorsement of the
neutral-principles approach in Jones significantly buttressed this principle,
and further supported its application where the “legally cognizable
form[s]” or structures are embedded within church-related documents,
such as corporate charters or even church constitutions. See Jones,
443 U.S. 603, 606.

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 30 of 33

30

PURI V. KHALSA

Third, the Watson approach is not appropriate when “the
nature of the religious organization or the identity of its
decision-making body is disputed on the basis of religious
doctrine.” Id. at 1248–49. Where the “locus of control . . .
[is] ambiguous,” Watson deference “would appear to require
‘a searching and therefore impermissible inquiry into church
polity.’” Jones, 443 U.S. at 605 (quoting Milivojevich,
426 U.S. at 723).
Finally, our general preference in federal cases for
resolving claims by applying neutral principles is further
supported here by the fact that most claims in this case are
based on state law. Oregon law would call for application of
the state’s neutral-principles approach if this matter were
before a state court. See Hope Presbyterian Church of Rogue
River v. Presbyterian Church (U.S.A.), 291 P.3d 711, 720–21
(Or. 2012) (outlining a neutral-principles approach after
“reexamin[ing] the proper methodology for resolving church
property disputes in Oregon” in light of the “new legal
context for evaluating church property disputes under the
First Amendment” provided by Jones).5
5

The Supreme Court has not outlined one specific neutral-principles
approach, and there may be significant variation in the approaches of
various states. See Jones, 443 U.S. at 599–610; see also Church of God
in Christ, Inc. v. Graham, 54 F.3d 522, 526–27 (8th Cir. 1995) (applying
Missouri’s neutral-principles approach and refusing to apply an element
of Michigan’s disparate approach). Additionally, other federal circuit
courts have considered the appropriate state law to apply to resolve church
property disputes when sitting in diversity. See Scotts African Union
Methodist Protestant Church v. Conference of African Union First
Colored Methodist Protestant Church, 98 F.3d 78, 92–94 (3d Cir. 1996)
(applying New Jersey law, as predicted by federal court, to follow the
state’s neutral-principles approach); Askew v. Trs. of Gen. Assembly of
Church of the Lord Jesus Christ of the Apostolic Faith Inc., 684 F.3d 413,
419 (3d Cir. 2012) (noting “Pennsylvania courts opt to apply neutral civil

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 31 of 33

PURI V. KHALSA

31

In light of the preference to apply neutral principles to
enforce secular rights where possible, the Oregon state law
character of most of the claims in this case, and Oregon’s
adoption of the neutral-principles approach, we proceed to
determine whether such an approach may be constitutionally
applied in this case.
2.
It appears a neutral-principles approach “may resolve . . .
the disputed . . . issues without significant constitutional
difficulties,” and is a proper means of resolving this dispute.
Kianfar, 179 F.3d at 1249. The plaintiffs do not seek
recourse to civil courts for resolution of a controversy over
religious doctrine. Nor do they ask civil courts to decide
whether a religious organization properly applied
ecclesiastical rules in settling a leadership dispute, as was true
in Milivojevich, 426 U.S. at 708, and of the one request for
relief we held could not be decided by neutral principles in
Kianfar, 179 F.3d at 1250. Rather, the plaintiffs here ask the
courts to decide what amounts to a secular factual question:
under Oregon law and the secular governing documents of
UI, an Oregon nonprofit limited liability company, and SSSC,
an Oregon nonprofit religious corporation, were the plaintiffs
elected or designated to the disputed board positions? This
question is quintessentially “susceptible to decision by neutral
principles.” Id. at 1249.
law principles whenever possible to resolve such cases” before
determining that such approach was improperly applied to an
ecclesiastical question). Here, as in Kianfar, we do not seek to resolve
which neutral-principles approach may be properly applied. Rather, our
review is limited to the threshold constitutional question of whether the
issues raised can be decided at all without violating the First Amendment.
See Kianfar, 179 F.3d at 1248.

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 32 of 33

32

PURI V. KHALSA

At this stage, the parties do not contest whether the
plaintiffs meet the religious eligibility requirements for the
disputed board positions, and the defendants “do not offer a
religious justification” for their failure to seat the plaintiffs on
the boards. Bollard, 196 F.3d at 947. The dispute, which
“concern[s] the [d]efendants’ actions, not their beliefs,” turns
entirely on “what the [defendants] did, . . . and the texts
guiding [their] actions can be subjected to secular legal
analysis.” Elvig, 375 F.3d at 963, 968. As in Bollard, “[t]his
is a restricted inquiry. Nothing in the character of th[e]
defense will require a jury to evaluate religious doctrine or
the ‘reasonableness’ of the religious practices followed . . . .
Instead, the jury must make [only] secular judgments . . . .”
Bollard, 196 F.3d at 950; see also Elvig, 375 F.3d at 963. As
this dispute has been presented to us, it appears the district
court can resolve it “by relying on state statutes . . . and the
terms of corporate charters of religious organizations.”
Kianfar, 179 F.3d at 1249 (citing Md. & Va. Eldership,
396 U.S. at 367). Thus, there is “no danger that, by allowing
this suit to proceed, we will thrust the secular courts into the
constitutionally untenable position of passing judgment on
questions of religious faith or doctrine.” Bollard, 196 F.3d at
947. Under these circumstances, the availability of the
neutral-principles approach obviates the need for
ecclesiastical abstention.
C.
Even if ecclesiastical abstention would otherwise preclude
resort to civil courts, the plaintiffs contend this dispute is
susceptible to judicial review under the so-called “fraud or
collusion” exception. See Askew, 684 F.3d at 418, 420 (“A
doctrinally grounded decision made during litigation to
insulate questionable church actions from civil court review

Case: 13-36024, 01/06/2017, ID: 10256712, DktEntry: 67-1, Page 33 of 33

PURI V. KHALSA

33

may indeed raise an inference of fraud or bad faith,” and
“[u]nder those circumstances, the integrity of the judicial
system may outweigh First Amendment concerns such that a
civil court may inquire into the decision.”). Because we hold
it is not apparent from the complaint that ecclesiastical
abstention applies, we have no occasion to address the fraud
or collusion exception here.
CONCLUSION
“[A]pplying any laws to religious institutions necessarily
interferes with the unfettered autonomy churches would
otherwise enjoy, [but] this sort of generalized and diffuse
concern for church autonomy, without more, does not exempt
them from the operation of secular laws.” Bollard, 196 F.3d
at 948. As this case has been presented to us, the defendants
have not established that the plaintiffs’ claims are barred by
the ministerial exception, and the ecclesiastical abstention
doctrine does not apply because the dispute is amenable to
resolution by application of neutral principles of law. Thus,
the district court erred in dismissing the plaintiffs’ claims
under the First Amendment.
For the reasons stated here and in the concurrently filed
memorandum disposition, the judgment of the district court
is vacated in part and affirmed in part, and the case is
remanded to the district court.
VACATED IN PART, AFFIRMED IN PART AND
REMANDED.
Each party shall bear its own costs on appeal.

APPENDIX D

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 1 of 24

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

JAN 06 2017

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK

BIBIJI INDERJIT KAUR PURI; RANBIR
SINGH BHAI; KAMALJIT KAUR
KOHLI; KULBIR SINGH PURI,

No.

U.S. COURT OF APPEALS

13-36024

D.C. No. 3:10-cv-01532-MO

Plaintiffs-Appellants,
MEMORANDUM*
v.
SOPURKH KAUR KHALSA; PERAIM
KAUR KHALSA; SIRI RAM KAUR
KHALSA; SIRI KARM KAUR
KHALSA; KARTAR SINGH KHALSA;
KARAM SINGH KHALSA; ROY
LAMBERT; SCHWABE, WILLIAMSON
& WYATT, an Oregon Professional
Corporation; LEWIS M. HOROWITZ;
LANE POWELL PC, an Oregon
Professional Corporation; UNTO
INFINITY, LLC, an Oregon Limited
Liability Company; SIRI SINGH SAHIB
CORPORATION, an Oregon non-profit
corporation; DOES, 1 through 5,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Oregon
Michael W. Mosman, Chief Judge, Presiding

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 2 of 24

Argued and Submitted March 10, 2016
Portland, Oregon
Before: FISHER, BERZON, and WATFORD, Circuit Judges.
The plaintiffs, individually and on behalf of Unto Infinity, LLC (UI), and
Siri Singh Sahib Corporation (SSSC), brought claims alleging the defendants
conspired to exclude them from certain management positions, convert millions of
dollars in assets from entities under their control for personal benefit, and conceal
their fraudulent conduct. In a concurrently filed opinion, we vacate the district
court’s dismissal of the plaintiffs’ direct claims under the First Amendment. Here,
we affirm the district court’s dismissal of the plaintiffs’ derivative claims and
address the defendants’ alternative theories for dismissal of the direct claims.
A. Derivative Claims
The district court dismissed all derivative claims, concluding the plaintiffs
lacked derivative standing under Federal Rule of Civil Procedure 23.1(a).1 The
parties dispute the standard of review for dismissals based on Rule 23.1 standing,
citing conflicting circuit precedent. Compare Quinn v. Anvil Corp., 620 F.3d 1005,
1012 (9th Cir. 2010) (stating we review de novo whether a plaintiff has Rule 23.1
1

Because Rule 23.1(a) provides a sufficient basis to dismiss all derivative
claims, and because we affirm on that basis, we do not reach the alternative
grounds for dismissal provided by the district court.
2

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 3 of 24

standing), and Kona Enters., Inc. v. Estate of Bishop, 179 F.3d 767, 769 (9th Cir.
1999) (same), with Larson v. Dumke, 900 F.2d 1363, 1364 (9th Cir. 1990) (stating
we review a district court’s determination of Rule 23.1 standing for abuse of
discretion), and Hornreich v. Plant Indus., Inc., 535 F.2d 550, 552 (9th Cir. 1976)
(same). We need not resolve this conflict, because the district court did not err
under either standard.
A “derivative action may not be maintained if it appears that the plaintiff
does not fairly and adequately represent the interests of shareholders or members
who are similarly situated in enforcing the right of the corporation or association.”
Fed. R. Civ. P. 23.1(a). A number of factors are considered “in determining the
adequacy of representation by a derivative plaintiff under Rule 23.1.” Larson, 900
F.2d at 1367. As the plaintiffs concede, “the most important element to be
considered is whether plaintiff’s interests are antagonistic to those plaintiff is
seeking to represent.” 7C Charles Alan Wright & Arthur R. Miller, Federal
Practice and Procedure § 1833 (3d ed. 2016). The district court found the
plaintiffs have substantial interests antagonistic to UI and SSSC, the organizations
they purport to represent. We agree.
First, the district court found the plaintiffs seek personal damages for lost
compensation against all defendants, including UI and SSSC, of at least $200,000.
3

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 4 of 24

The plaintiffs’ proposed but disallowed second amended complaint seeks personal
damages in excess of $4 million, indicating the true scope of their economic
antagonism is much greater than suggested by their operative pleadings.
Second, the district court found the plaintiffs have frequently been adverse
to UI, SSSC and their subsidiary and affiliated entities in other litigation across
multiple jurisdictions. To the extent the disputes underlying these various actions
remain active, they create further economic antagonism. These numerous and
contentious disputes also suggest a degree of “vindictiveness toward the
defendants,” another factor weighing against derivative standing. Larson, 900
F.2d at 1367.
Third, the plaintiffs’ requested relief would leave them in complete control
of the organizations whose interests they purport to represent, with the four
plaintiffs as the only board members of SSSC and one of the plaintiffs as the sole
board member of UI. The prospect of personally controlling organizations worth
many millions of dollars dramatically increases “the relative magnitude of
plaintiff[s’] personal interests as compared to [their] interest in the derivative
action itself,” id., such that the plaintiffs’ interests differ substantially from those of
other members of the community UI and SSSC are intended to benefit.

4

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 5 of 24

For these reasons, we agree with the district court that the plaintiffs are not
adequate derivative representatives under Rule 23.1(a). Accordingly, we affirm
the district court’s dismissal of the plaintiffs’ derivative claims.
The plaintiffs argue in a conclusory manner that they should have been
given leave to file a second amended complaint. Because the plaintiffs do not
explain how amendment could have cured the Rule 23.1(a) defects, there was no
abuse of discretion in dismissing the derivative claims with prejudice.
B. Alternative Grounds for Dismissal of the Direct Claims
Because we vacate dismissal of the direct claims under the First
Amendment, we address the defendants’ alternative arguments for dismissal of
these claims. We review de novo dismissals under Rules 9(b) and 12(b)(6). See
Vess v. Ciba-Geigy Corp. USA, 317 F.3d 1097, 1102 (9th Cir. 2003). We review
for an abuse of discretion the denial of leave to amend. See AmerisourceBergen
Corp. v. Dialysist W., Inc., 465 F.3d 946, 949 (9th Cir. 2006).
1.

Unjust Enrichment Against the Lawyer and Law Firm
Defendants

The plaintiffs asserted an unjust enrichment claim against Lane Powell, a
law firm; Lewis Horowitz, an attorney at the firm; Roy Lambert, longtime legal
counsel to Yogi Bhajan’s companies; and Schwabe, Williamson & Wyatt (SWW),

5

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 6 of 24

Lambert’s law firm, alleging it would be unjust for any of them to retain their
attorney’s fees.
In Oregon, the elements of the quasi-contractual claim of unjust enrichment
are (1) a benefit conferred, (2) awareness by the recipient that she has received the
benefit and (3) it would be unjust to allow the recipient to retain the benefit. See
Wilson v. Gutierrez, 323 P.3d 974, 978 (Or. Ct. App. 2014).
The defendants argue this claim fails because the first amended complaint
(“complaint”) alleges that third persons – UI and SSSC – conferred benefits on
these lawyers, not that the plaintiffs themselves did. The plaintiffs cite no
authority supporting the proposition that a claim for unjust enrichment lies when
the benefits in dispute were conferred by third persons rather than by the plaintiffs.
The Restatement (Third) of Restitution and Unjust Enrichment §§ 47-48 (2011)
sets out limited circumstances in which a plaintiff can pursue an unjust enrichment
claim against a third party, but the plaintiffs do not argue their allegations fall
under those provisions, and it is not self-evident that they do so.
Accordingly, the district court properly dismissed the unjust enrichment
claim against the lawyer and law firm defendants. Because the plaintiffs do not
identify what additional facts they would plead if they were granted leave to
amend, the court did not abuse its discretion by denying leave to amend.
6

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 7 of 24

2.

Reynolds Qualified Privilege for Lane Powell and Horowitz

The defendants argue any direct claims against the Lane Powell firm and
Horowitz should be dismissed under Reynolds v. Schrock, 142 P.3d 1062, 1063
(Or. 2006), which “hold[s] that a lawyer may not be held jointly liable with a client
for the client’s breach of fiduciary duty unless the third party shows that the lawyer
was acting outside the scope of the lawyer-client relationship.” This rule, however,
does not shield “actions by a lawyer that fall within the ‘crime or fraud’ exception
to the lawyer-client privilege, OEC 503(4)(a).” Id. at 1069. Here, because the
complaint alleges the services of Lane Powell and Horowitz were obtained to
enable or aid in commission of a fraudulent plan, the Reynolds privilege does not
apply. The defendants’ argument therefore fails.
3.

Legal Malpractice Claim Against Lambert and SWW

The plaintiffs allege a legal malpractice claim against Lambert and SWW.
“In the traditional legal malpractice action, as in other tort actions in which there is
a special relationship between the plaintiff and the defendant, the plaintiff usually
must allege and prove (1) a duty that runs from the defendant to the plaintiff; (2) a
breach of that duty; (3) a resulting harm to the plaintiff measurable in damages;
and (4) causation, i.e., a causal link between the breach of duty and the harm.”
Stevens v. Bispham, 851 P.2d 556, 560 (Or. 1993).
7

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 8 of 24

The plaintiffs have not satisfied this standard here, because they have not
alleged a duty – i.e., an attorney-client relationship between themselves and the
defendants. Although the complaint alleges the existence of an attorney-client
relationship in a conclusory manner, such “[t]hreadbare recitals of the elements of
a cause of action, supported by mere conclusory statements, do not suffice.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
The plaintiffs’ alternative attempts to plead an attorney-client relationship
also fail. The complaint, for instance, alleges these defendants represented Bibiji
in negotiating a trademark licensing agreement. The complaint, however, does not
allege a causal link between that representation and the harm alleged in the
complaint. See Stevens, 851 P.2d at 560. Any attorney-client relationship that may
have existed with respect to the trademark issues, therefore, is immaterial for
purposes of the claims made in this lawsuit.
The plaintiffs alternatively contend they have pled an attorney-client
relationship on the theory that Bibiji reasonably believed an attorney-client
relationship existed between herself and the defendants. This argument fails
because the complaint does not include allegations supporting an objectively
reasonable belief in such a relationship. See In re Conduct of Weidner, 801 P.2d
828, 837 (Or. 1990) (“[T]o establish that the lawyer-client relationship exists based
8

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 9 of 24

on reasonable expectation, a putative client’s subjective, uncommunicated
intention or expectation must be accompanied by evidence of objective facts on
which a reasonable person would rely as supporting existence of that intent; by
evidence placing the lawyer on notice that the putative client had that intent; by
evidence that the lawyer shared the client’s subjective intention to form the
relationship; or by evidence that the lawyer acted in a way that would induce a
reasonable person in the client’s position to rely on the lawyer’s professional
advice.” (footnote omitted)).
Finally, the plaintiffs rely on Oregon law providing that a lawyer owes a
duty to act as a reasonably competent attorney in protecting and defending the
interests not only of the client but also of “those who may be considered intended
beneficiaries of the duty to the client.” Onita Pac. Corp. v. Trs. of Bronson, 843
P.2d 890, 896 (Or. 1992). The plaintiffs, however, have not alleged they were
intended beneficiaries of the defendants’ representation. This argument is
therefore unpersuasive as well.
For these reasons, the district court properly dismissed the plaintiffs’ legal
malpractice claim against Lambert and SWW. As the plaintiffs have not shown
what additional facts they would allege were they given leave to amend, the district
court did not abuse its discretion by dismissing this claim with prejudice.
9

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 10 of 24

4.

Negligent Misrepresentation Claim Against Lane Powell and
Horowitz

The plaintiffs allege a negligent misrepresentation claim against Lane
Powell and Horowitz. The district court dismissed this claim for failure to allege a
duty. Under Oregon law, “a negligence claim for the recovery of economic losses
caused by another must be predicated on some duty of the negligent actor to the
injured party beyond the common law duty to exercise reasonable care to prevent
foreseeable harm.” Id. (footnote omitted). The plaintiffs contend Lane Powell and
Horowitz owed a duty to the plaintiffs because they owed a duty to UI and SSSC
and, as a result, they owed a duty to them as UI’s and SSSC’s putative board
members. The authority they cite in support of this theory, however, holds only
that an attorney’s duty to a client extends to “those who may be considered
intended beneficiaries of the duty to the client.” Id. They fail to present any legal
or factual support for the proposition that they were the intended beneficiaries of
the lawyer-client relationship between Lane Powell and Horowitz on the one hand
and certain corporate entities relating to UI and SSSC on the other. The plaintiffs’
argument therefore fails. The district court properly dismissed this claim, and
given the plaintiffs’ failure to identify additional facts they would plead to cure this

10

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 11 of 24

defect were they given leave to amend, the court did not abuse its discretion by
dismissing the claim with prejudice.
5.

Statute of Limitations as to Claims Against Lane Powell and
Horowitz

The complaint alleges Lane Powell and Horowitz are liable for fraud and
negligent misrepresentation in connection with the fraudulent conversion of UI’s
and SSSC’s assets to the owners of Golden Temple Management, LLC (GTM).
The defendants argue the plaintiffs’ fraud and negligent misrepresentation claims
against Lane Powell and Horowitz are untimely under Oregon’s two-year statute of
limitations governing fraud claims. That limitations period is subject to a
discovery rule. See ORS 12.110(1) (“[I]n an action at law based upon fraud or
deceit, the limitation shall be deemed to commence only from the discovery of the
fraud.”); Bell v. Benjamin, 222 P.3d 741, 744 (Or. Ct. App. 2009) (“For purposes
of that statute, a plaintiff ‘discovers’ the fraud ‘when the plaintiff knew or should
have known of the alleged fraud.’ ‘Whether the plaintiff should have known of the
alleged fraud depends on a two-step analysis. First, it must appear that plaintiff
had sufficient knowledge to excite attention and put a party upon his guard or call
for an inquiry.’ ‘If plaintiff had such knowledge, it must also appear that a

11

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 12 of 24

reasonably diligent inquiry would disclose the fraud.’” (citations omitted) (quoting
Mathies v. Hoeck, 588 P.2d 1, 2-3 (Or. 1978))).
But “[a] claim may be dismissed as untimely pursuant to a 12(b)(6) motion
‘only when the running of the statute of limitations is apparent on the face of the
complaint.’” United States ex rel. Air Control Techs., Inc. v. Pre Con Indus., Inc.,
720 F.3d 1174, 1178 (9th Cir. 2013) (alteration omitted) (quoting Von Saher v.
Norton Simon Museum of Art at Pasadena, 592 F.3d 954, 969 (9th Cir. 2010)).
Here, the alleged misconduct that forms the basis of this claim took place on
or before November 2008. The complaint alleges the plaintiffs learned about the
transfer of UI’s assets to GTM by January 2010. It also alleges Lambert testified
in a February 2010 deposition about the fraud in a manner that, in the defendants’
view, would have placed the plaintiffs on inquiry notice of the fraud. Under that
view, the complaint was not timely filed. The plaintiffs, however, maintain they
first became aware of Lambert’s February 2010 testimony sometime later, and that
Lambert’s testimony revealed only his actions, not those of Lane Powell and
Horowitz. It is not apparent from the face of the complaint that the plaintiffs were
put on inquiry notice of fraud by Lane Powell and Horowitz by February 2010, nor
is it apparent a reasonably diligent inquiry would have disclosed the alleged fraud
at that time. The defendants’ argument therefore fails. The defendants’ arguments
12

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 13 of 24

with respect to the plaintiffs’ aiding and abetting claims against Lane Powell and
Horowitz fail for the same reason.
6.

Statute of Limitations as to Lambert and SWW

The complaint includes claims for breach of fiduciary duty, fraud, negligent
misrepresentation, tortious interference with prospective economic advantage and
legal malpractice against Lambert and SWW arising from the allegedly wrongful
exclusion of the plaintiffs from the UI and SSSC boards. The defendants argue
these claims are barred by the applicable two-year statute of limitations. See ORS
12.110(1). The claims against Lambert were filed in December 2010; those against
SWW were added in March 2012.
(a) Breach of Fiduciary Duty, Fraud and Negligent Misrepresentation
Under Oregon’s discovery rule, which the defendants agree applies to the
plaintiffs’ fiduciary duty, fraud and negligent misrepresentation claims, the
question is whether the plaintiffs knew or, in the exercise of reasonable care,
should have known, facts which would make a reasonable person aware of a
substantial possibility that each of the three elements of legally cognizable harm
(harm, causation, and tortious conduct) exists. See Oregon Life & Health Ins.
Guar. Ass’n v. Inter-Reg’l Fin. Grp., Inc., 967 P.2d 880, 883 (Or. Ct. App. 1998).

13

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 14 of 24

The defendants argue the plaintiffs knew or should have known they were
tortiously excluded from the UI and SSSC boards by 2005, more than two years
before they filed claims against Lambert and SWW. The face of the complaint,
however, shows only that the plaintiffs were aware in 2005 that they had been
denied positions on the boards, not that they were being denied board positions
because of fraud or otherwise tortious conduct. The statute of limitations defense
therefore is not apparent from the face of the complaint. See Air Control Techs.,
720 F.3d at 1178.
(b) Tortious Interference
A claim for tortious interference accrues when the economic injury occurs.
See Cramer v. Stonebridge Inn, Inc., 713 P.2d 645, 647 (Or. Ct. App. 1986). If the
“plaintiffs’ claim is not based on fraud or deceit, the accrual of the claim is not
subject to a rule of discovery.” Butcher v. McClain, 260 P.3d 611, 614 (Or. Ct.
App. 2011). Here, however, the plaintiffs’ interference claim is based on Lambert
and SWW’s concealment of facts regarding business and board operations. Thus,
the discovery rule applies, and the defendants’ statute of limitations argument fails
for the reasons stated in part (a) above.
7.

Pleading with Particularity Under Rule 9(b)

14

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 15 of 24

The district court dismissed the following claims under Federal Rule of Civil
Procedure 9(b): fraud, negligent misrepresentation, federal Racketeer Influenced
and Corrupt Organizations Act (RICO) and Oregon Racketeer Influenced and
Corrupt Organizations Act (ORICO) as to all defendants except Lambert, Sopurkh
and Kartar; unjust enrichment as to all defendants except Kartar, Sopurkh and
Karam; legal malpractice as to all defendants; and aiding and abetting as to all
defendants. The plaintiffs challenge those rulings on appeal. The defendants, on
the other hand, contend Rule 9(b) dismissal is appropriate as to all defendants and
all claims.
Under Rule 9(b), a plaintiff “must state with particularity the circumstances
constituting fraud.” Fed. R. Civ. P. 9(b). This means the plaintiff must allege “the
who, what, when, where, and how of the misconduct charged,” including what is
false or misleading about a statement, and why it is false. Ebeid ex rel. United
States v. Lungwitz, 616 F.3d 993, 998 (9th Cir. 2010) (quoting Vess, 317 F.3d at
1106). “[M]ere conclusory allegations of fraud are insufficient.” Wool v. Tandem
Computers Inc., 818 F.2d 1433, 1439 (9th Cir. 1987), overruled on other grounds
as stated in Flood v. Miller, 35 F. App’x 701, 703 n.3 (9th Cir. 2002). Broad
allegations that include “no particularized supporting detail” do not suffice,
Bly-Magee v. California, 236 F.3d 1014, 1018 (9th Cir. 2001), but “statements of
15

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 16 of 24

the time, place and nature of the alleged fraudulent activities are sufficient,” Wool,
818 F.2d at 1439. Allegations of fraud based on information and belief may
suffice as to matters peculiarly within the opposing party’s knowledge, so long as
the allegations are accompanied by a statement of the facts upon which the belief is
founded. See id. We apply Rule 9(b) to the plaintiffs’ various averments of fraud.2

2

The plaintiffs point out, correctly, that “there is no absolute requirement
that where several defendants are sued in connection with an alleged fraudulent
scheme, the complaint must identify false statements made by each and every
defendant,” because “‘[p]articipation by each conspirator in every detail in the
execution of the conspiracy is unnecessary to establish liability, for each
conspirator may be performing different tasks to bring about the desired result.’”
Swartz v. KPMG LLP, 476 F.3d 756, 764 (9th Cir. 2007) (quoting Beltz Travel
Serv., Inc. v. Int’l Air Transp. Ass’n, 620 F.2d 1360, 1367 (9th Cir. 1980)). But
allegations of conspiracy do not excuse the plaintiffs from offering detailed and
particularized allegations regarding each defendant’s role in the fraud. As Swartz
explains, “Rule 9(b) does not allow a complaint to merely lump multiple
defendants together but ‘require[s] plaintiffs to differentiate their allegations when
suing more than one defendant . . . and inform each defendant separately of the
allegations surrounding his alleged participation in the fraud.’” Id. at 764-65
(alterations in original) (quoting Haskin v. R.J. Reynolds Tobacco Co., 995 F.
Supp. 1437, 1439 (M.D. Fla. 1998)). “In the context of a fraud suit involving
multiple defendants, a plaintiff must, at a minimum, ‘identif[y] the role of [each]
defendant[] in the alleged fraudulent scheme.’” Id. at 765 (alterations in original)
(quoting Moore v. Kayport Package Express, Inc., 885 F.2d 531, 541 (9th Cir.
1989)). “There is no flaw in a pleading, however, where collective allegations are
used to describe the actions of multiple defendants who are alleged to have
engaged in precisely the same conduct.” United States ex rel. Swoben v. United
Healthcare Ins. Co., ___F.3d ___, 2016 WL 7378731, at *17 (9th Cir. Dec. 16,
2016).
16

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 17 of 24

Claim 1 – Declaratory Relief. The defendants do not distinctly challenge
these allegations and the district court did not address the issue. We assume this
claim satisfies Rule 9(b).
Claim 2 – Breach of Fiduciary Duty. The plaintiffs raise solely a derivative
claim of breach of fiduciary duty. Because this claim fails under Rule 23.1(a), we
need not address the defendants’ arguments under Rule 9(b).
Claim 3 – Fraud. The complaint’s allegations of fraud in part allege the
circumstances of fraud with sufficient particularity. The complaint includes
minimally sufficient allegations against Sopurkh (¶ 53.1), Kartar (¶ 53.4) and
Lambert and SWW (¶¶ 53.5, 55, 55.2). As to the remaining defendants, however,
the complaint includes only broad and conclusory allegations regarding the
circumstances of fraud, without supporting particularized detail. E.g., ¶¶ 52.1,
53.1, 53.2, 53.3, 53.6, 54, 56.2, 57, 57.1, 57.2, 57.3. For example, the complaint
alleges the defendants “falsely and fraudulently represented to BIBIJI that she was
not on the Board of Managers of UI and had no management authority at UI.” ¶
52.1. It further alleges that “[s]aid Defendants adopted and ratified the acts of the
others in fraudulently exclud[ing] BIBIJI from participating in the management of
UI.” ¶ 52.1. These allegations lack the particularized detail Rule 9(b) demands.
See Ebeid, 616 F.3d at 1000 (holding a complaint’s “general allegations – lacking
17

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 18 of 24

any details or facts setting out the who, what, when, where, and how of the
[allegedly fraudulent conduct]” – were insufficient to satisfy Rule 9(b) (internal
quotation marks omitted)); Cafasso, U.S. ex rel. v. Gen. Dynamics C4 Sys., Inc.,
637 F.3d 1047, 1057 (9th Cir. 2011) (holding a complaint failed to satisfy Rule
9(b) where the allegations were lacking in detail); United States ex rel. Lee v.
SmithKline Beecham, Inc., 245 F.3d 1048, 1051 (9th Cir. 2001) (holding a “broad
claim” with “no factual support” was insufficient to satisfy Rule 9(b)).3
We recognize other portions of the complaint allege additional details (¶¶
20 – 27.18). The portion of the complaint dealing explicitly with the fraud claim
(¶¶ 51-59), however, does not cross reference these earlier allegations in any
intelligible manner. The complaint’s vague references to these details, using
language such as “as alleged above” (¶¶ 57.1, 57.2), are insufficient in a case such
as this, involving a lengthy and difficult to decipher pleading.
The complaint also includes a number of allegations made on information
and belief. Such allegations are appropriate regarding matters known only to the
defendants, but only insofar as the complaint also explains the basis for the belief.

3

The chart the plaintiffs included in ¶ 29 of the complaint does not supply
all of the requisite details.
18

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 19 of 24

See Wool, 818 F.2d at 1439. Here, although the complaint sometimes satisfies this
requirement (e.g., ¶ 55.2), it often does not (e.g., ¶ 53.6).
In sum, the fraud claim fails under Rule 9(b) except as to Sopurkh, Kartar,
Lambert and SWW.4
However, because the complaint contains allegations elsewhere that are
more specific, and because existing averments come close to Rule 9(b) adequacy in
some respects, it is not clear the plaintiffs could not cure the deficiencies by further
amendment. The plaintiffs therefore shall be granted leave to amend. See Vess,
317 F.3d at 1107-08 (“As with Rule 12(b)(6) dismissals, dismissals for failure to
comply with Rule 9(b) should ordinarily be without prejudice,” and “‘[l]eave to
amend should be granted if it appears at all possible that the plaintiff can correct
the defect.’” (quoting Balistreri v. Pacifica Police Dep’t, 901 F.2d 696, 701 (9th
Cir. 1998))). This case does not involve a “repeated failure to cure deficiencies by
amendments previously allowed.” Foman v. Davis, 371 U.S. 178, 182 (1962)

4

With respect to the fraud claim, the complaint does include a relatively
specific allegation regarding Peraim and Karm – their signing the SSSC consent
minutes denying the existence of a letter from Yogi Bhajan naming the plaintiffs to
the SSSC board (¶ 55.1). But the complaint offers only conclusory allegations to
suggest this conduct was fraudulent. See ¶ 56.2 (alleging in a conclusory manner
that the defendants knew their representations to be false). The complaint
therefore fails to allege a plausible or particularized claim against Peraim and
Karm as required by Rules 8 and 9(b).
19

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 20 of 24

(emphasis added). “Dismissal with prejudice and without leave to amend is not
appropriate unless it is clear on de novo review that the complaint could not be
saved by amendment.” Eminence Capital, LLC v. Aspeon, Inc., 316 F.3d 1048,
1052 (9th Cir. 2003).
Claim 4 – Negligent Misrepresentation. The defendants argue, and the
plaintiffs do not contest, that Rule 9(b) applies to this claim. The complaint’s
allegations concerning negligent misrepresentations are uniformly conclusory.
They include only broad reference to allegations made in previous paragraphs,
lacking particularized detail of any alleged misrepresentations. E.g., ¶¶ 61, 61.2,
62, 62.1, 62.2, 65, 65.1. The only allegation of misrepresentation made with any
particularity concerns Kartar’s and Karam’s false claims of ownership in Golden
Temple trademarks (¶ 61.9), but that misrepresentation does not appear to be a part
of the claims raised in this lawsuit. The negligent misrepresentation claim thus
fails under Rule 9(b) as to each defendant. For similar reasons stated in the
analysis for Claim 3, however, this claim shall be dismissed without prejudice.
Claim 5 – Tortious Interference with Prospective Economic Advantage.
Because this claim is grounded in fraud, it is subject to Rule 9(b). See Vess, 317
F.3d at 1103-04 (explaining that “Rule 9(b) applies to ‘averments of fraud’ in all
civil cases in federal district court”). The allegations regarding this claim are
20

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 21 of 24

minimally sufficient with respect to Sopurkh (¶ 70), Lambert (¶ 70.1) and SWW (¶
70.1). With respect to the remaining defendants, however, the complaint once
again alleges the circumstances of fraud in broad and conclusory terms, lacking
particularized detail. E.g., ¶¶ 68.2, 68.3, 70, 70.2, 70.4, 70.5, 70.6. The claim
therefore fails under Rule 9(b) with respect to defendants other than Sopurkh,
Lambert and SWW. Because the fraudulent conduct alleged in this claim overlaps
in part with allegations made as to Claim 3, this claim too shall be dismissed
without prejudice.
Claim 6 – Conversion. The plaintiffs’ conversion claim is entirely
derivative. Because the derivative claim fails under Rule 23.1(a), we need not
address the defendants’ Rule 9(b) arguments.
Claim 7 – Unjust Enrichment. Because the unjust enrichment claim is based
on fraud, it too is subject to Rule 9(b). See Vess, 317 F.3d at 1103-04. The
complaint fails to allege the underlying circumstances of fraud with particularity,
offering only broad and conclusory allegations lacking in particularized detail.
E.g., ¶¶ 82-89. The complaint therefore fails under Rule 9(b) as to each defendant.
As with the other claims that are deficient under Rule 9(b), it is possible that the
more detailed allegations contained in ¶¶ 20 through 27.18 could, if more clearly

21

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 22 of 24

connected to this claim, provide sufficient detail to satisfy Rule 9(b), so leave to
amend should have been granted.
Claim 8 – RICO and ORICO. The complaint’s RICO and ORICO
allegations suffer from similar infirmities. A number of the most important
allegations are broad and conclusory, lacking details particularized to each
defendant. E.g., ¶¶ 99.1, 100.1, 101.2, 101.5, 102, 103, 106.15, 106.16, 106.18,
106.19. Others allege facts based on information and belief without providing a
basis for the belief (¶ 101.5). By contrast, the complaint includes minimally
sufficient factual detail regarding Sopurkh (¶¶ 106.7, 106.8, 106.9) and against
Lambert and SWW (¶¶ 105.1, 106.6, 106.10, 106.11). The RICO and ORICO
claims therefore fail under Rule 9(b) as to each defendant other than Sopurkh,
Lambert and SWW.
Claim 9 – Legal Malpractice. To the extent the legal malpractice claim is
derivative, we affirm dismissal under Rule 23.1(a). To the extent the complaint
alleges a direct claim, we affirm dismissal based on the plaintiffs’ failure to allege
an attorney-client relationship between themselves and Lambert and SWW. We
therefore need not address the defendants’ Rule 9(b) arguments.
Claim 10 – Aiding and Abetting. The aiding and abetting claim against
Horowitz and Lane Powell includes some allegations that are too conclusory to
22

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 23 of 24

satisfy Rule 9(b). E.g., ¶¶ 129, 130. The allegations in ¶ 131, however, are
sufficiently detailed to satisfy the rule. The defendants’ Rule 9(b) arguments
regarding the aiding and abetting claim therefore fail.
C. Disposition
In sum, we vacate dismissal of the plaintiffs’ claims under the First
Amendment for the reasons stated in our concurrently filed opinion. We affirm
dismissal with prejudice of all derivative claims under Rule 23.1(a). With respect
to the plaintiffs’ direct claims, we further hold as follows:
The district court shall dismiss claim 3 (fraud) without prejudice against all
defendants other than Sopurkh, Kartar, Lambert and SWW for failure to plead the
circumstances of fraud with requisite particularity under Rule 9(b) or plausibility
under Rule 8(a).
We affirm the dismissal with prejudice of claim 4 (negligent
misrepresentation) as to Lane Powell and Horowitz based on the plaintiffs’ failure
to allege a duty. As to the remaining defendants, the district court shall dismiss the
claim without prejudice for failure to plead the circumstances of fraud with
requisite particularity under Rule 9(b).

23

Case: 13-36024, 01/06/2017, ID: 10256716, DktEntry: 68-1, Page 24 of 24

The district court shall dismiss claim 5 (tortious interference) without
prejudice against all defendants other than Sopurkh, Lambert and SWW for failure
to plead the circumstances of fraud with particularity under Rule 9(b).
We affirm the dismissal with prejudice of claim 7 (unjust enrichment)
against defendants Lambert, SWW, Horowitz and Lane Powell for failure to state a
claim. The district court shall dismiss the claim without prejudice as to the
remaining defendants for failure to plead the circumstances of fraud with
particularity under Rule 9(b).
The district court shall dismiss claim 8 (RICO/ORICO) without prejudice
against all defendants other than Sopurkh, Lambert and SWW for failure to plead
the circumstances of fraud with particularity under Rule 9(b).
We affirm the dismissal with prejudice of claim 9 (legal malpractice) against
Lambert and SWW for failure to allege an attorney-client relationship.
We vacate the dismissal of claim 10 (aiding and abetting). This claim
minimally satisfies Rule 9(b).
The parties shall bear their own costs on appeal.
AFFIRMED IN PART, VACATED IN PART AND REMANDED.

24

APPENDIX E

10-11-13puri
1
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
BIBIJI INDERJIT KAUR PURI,
RANBIR SINGH BHAI, KAMALJIT
KAUR KOHLI, and KULBIR SINGH
PURI,

)
)
)
)
)
Plaintiffs,
)
)
vs.
)
)
SOPURKH KAUR KHALSA; PERAIM
)
KAUR KHALSA; SIRI RAM KAUR
)
KHALSA; KARTAR SINGH KHALSA; )
KARAM SINGH KHALSA; ROY
)
LAMBERT; UNTO INFINITY, LLC, )
an Oregon limited liability
)
Company; SIRI SINGH SAHIB
)
CORPORATION, an Oregon
)
nonprofit corporation; DOES
)
1-5; SIRI KARM KAUR KHALSA;
)
SCHWABE, WILLIAMSON & WYATT, )
an Oregon professional
)
corporation; LANE POWELL, an )
Oregon professional
)
corporation; and LEWIS M.
)
HOROWITZ,
)
)
Defendants.
)
______________________________)

Case No. 3:10-cv-01532-MO

October 11, 2013

Portland, Oregon

17
18
19

Oral Argument

20

TRANSCRIPT OF PROCEEDINGS

21

BEFORE THE HONORABLE MICHAEL W. MOSMAN

22

UNITED STATES DISTRICT COURT JUDGE

23
24
25
2
1
2

APPEARANCES
Page 1

10-11-13puri
3
4

FOR THE PLAINTIFFS:

5

Mr. Surjit Soni
The Soni Law Firm
35 N. Lake Avenue, Suite 730
Pasadena, CA 91101

6
7
8

FOR DEFENDANT SIRI
RAM KAUR KHALSA:

9
10

Ms. Leslie S. Johnson
Kent & Johnson, LLP
1500 S.W. Taylor Street
Portland, OR 97205

11
12
13
14

FOR DEFENDANT ROY
LAMBERT:

Mr. Stephen C. Voorhees
Ms. Candice R. Broock
Kilmer Voorhees & Laurick, PC
732 N.W. 19th Avenue
Portland, OR 97209

15
16
17
18
19
20
21
22

FOR DEFENDANTS UNTO
INFINITY, LLC, SIRI
SINGH SAHIB CORP.,
KARTAR SINGH KHALSA,
KARAM SINGH KHALSA,
PERAIM KAUR KHALSA,
SIRI KARM KAUR KHALSA,
SOPURKH KAUR KHALSA:
Mr. John F. McGrory, Jr.
Mr. Paul J.C. Southwick
Davis Wright Tremaine LLP
1300 S.W. Fifth Avenue, Suite 2400
Portland, OR 97201

23
24
25
3
1
2
3
4
5
6

FOR DEFENDANT SCHWABE,
WILLIAMSON & WYATT:
Mr. Ralph E. Cromwell, Jr.
Byrnes Keller Cromwell LLP
1000 S.W. Second Avenue, 38th Floor
Seattle, WA 98104
Ms. Janet M. Schroer
Hart Wagner, LLP
1000 S.W. Broadway, Suite 2000
Portland, OR 97205

7
Page 2

10-11-13puri
8
9

FOR DEFENDANTS LANE
POWELL and LEWIS M.
HOROWITZ:

Mr. Joseph C. Arellano
Kennedy Watts Arellano & Ricks, LLP
1211 S.W. Fifth Avenue, Suite 2850
Portland, OR 97204

10
11
12
13

COURT REPORTER:

Bonita J. Shumway, CSR, RMR, CRR
United States District Courthouse
1000 S.W. Third Ave., Room 301
Portland, OR 97204
(503) 326-8188

14
15
16
17
18
19
20
21
22
23
24
25

4
1

(P R O C E E D I N G S)

2

THE CLERK:

Your Honor, this is the time and place

3

set for oral argument in Case No. 3:10-cv-1532-MO, Puri, et

4

al. v. Khalsa, et al.

5
6
7
8
9

Counsel, can you introduce yourself for the
record.
MR. SONI:

Good morning, Your Honor.

Surj Soni on

behalf of plaintiffs.
MR. McGRORY:

John McGrory on behalf of Unto

10

Infinity, LLC; Siri Singh Sahib Corp; and the individuals

11

Sopurkh Kaur Khalsa; Peraim Kaur Khalsa; Kartar Singh
Page 3

12

10-11-13puri
Khalsa; Karam Singh Khalsa. And that's it, Your Honor.

13
14

And I have Paul Southwell with me, too.
going to be splitting the argument, Your Honor.

15
16

We're

MR. CROMWELL:

Ralph Cromwell, representing

Defendant Schwabe, Williamson & Wyatt, Your Honor.

17

MR. VOORHEES:

Steve Voorhees, representing

18

Defendant Roy Lambert.

19

me, who represents Roy Lambert, and will be handling part of

20

the argument, Your Honor.

21

And I also have Candace Broock with

MR. ARELLANO:

Your Honor, Joseph Arellano,

22

representing newly added defendants Lane Powell and Lewis

23

Horowitz.

24
25

MS. JOHNSON:

Leslie Johnson for Defendant Siri

Ram Kaur Khalsa.
5

1

MS. SCHROER:

Janet Schroer from Hart Wagner,

2

representing Schwabe, Williamson & Wyatt.

And I'm here with

3

Ralph Cromwell, and we're going to split up the argument.

4

THE COURT:

5

Let me go through my tentative thoughts, and we'll

6
7

Thank you all.

take oral argument from there.
There are three sort of broad conspiracies alleged

8

in the first amended complaint, and I'm only briefly

9

summarizing them, so don't panic if I don't get everything

10

that's alleged in the conspiracy in this brief summary.

11

It's just a way to differentiate them somewhat.

12

The first is a conspiracy to exclude certain of

13

the plaintiffs from management of UI and SSSC.

14

involves -- centers on the consent minutes and the memo of

15

understanding as to subsequent events.

16

And that

The second conspiracy alleges -- that's alleged is
Page 4

10-11-13puri
17

essentially to usurp assets of EWTC for personal benefit,

18

both by transfer or sale of those assets and by unjust

19

compensation, voting in higher compensation later.

20

And the third is a conspiracy to cover up the

21

change in corporate governance, corporate governing

22

documents, and to cover up the transfer of EWTC assets.

23

There is, as I will discuss in a minute, an

24

important correlative state court piece of litigation that

25

ended in formal settlement finally adjudicated in state
6

1

court.

So the UI defendants have filed a motion to dismiss

2

while others have made the same argument.

3

on theirs because I think it was the one most -- just

4

happened to be the one most helpful to me on these points,

5

but the points run across other defendants.

6

motion to dismiss, they raise several sort of systemic

7

challenges to the claims here -- well, starting with the

8

derivative claims here.

9

I'm only focusing

And in their

So we have, as you are very familiar, both

10

derivative claims and direct claims.

11

with the systemic challenges raised to the derivative

12

claims.

13

And I'm going to start

The first is standing, and that centers on an

14

Oregon statute for who can bring derivative actions.

And

15

there are two in play:

16

derivative action against an LLC; and the other for who can

17

bring such an action against a nonprofit corporation.

18

basically for our purposes, the LLC requires that a person

19

be a member; and the nonprofit corp., that the person be a

20

director.

the one governing who can bring a

Page 5

And

10-11-13puri
We talked last time about the plaintiffs' argument

21
22

that while they -- in terms of their derivative action

23

against SSSC, which would require them to have been

24

directors -- excuse me.

25

statute right.

I want to make sure I get the

The statute governing SSSC would be 65.174
7

1

for nonprofit corps.

So when we discussed this last time,

2

and again this time, we all understand, it's agreed upon

3

that in fact the technical requirements of that statute are

4

not met, but the argument made by plaintiffs is that while

5

they're not directors, they should have been made such.

6

therefore it's a bit of a -- I won't call it circular, but

7

it's an argument that essentially says the only reason we

8

don't meet the requirements has to do with the very nature

9

of the litigation; therefore, we should be deemed to have

10

standing.

11

remain somewhat sympathetic to it now, in the sense of

12

standing under 65.174.

13

And

I was sympathetic to that argument last time.

I

The derivative claims against UI require that

14

plaintiffs, in order to have standing, be members.

15

have -- they're not, and they haven't provided any legal

16

basis for disregarding UI's specific organizational

17

structure.

18

as I said, these are my tentative thoughts.

19

say no standing in a derivative action against UI.

20

The statute is very clear.

They

So I'm inclined -I'm inclined to

That's the Oregon statute on standing.

Of course,

21

we're in federal court, and that brings into play 23.1, both

22

in direct federal actions and diversity cases that still

23

apply.

24

whether the facts support the particular derivative

25

plaintiff bringing that kind of action.
Page 6

And that's a sort of a more equitable look at

And it looks at a

10-11-13puri
8
1

variety of factors, including economic antagonism, other

2

litigation, the magnitude of the derivative plaintiffs'

3

personal interest compared to the scope of litigation,

4

evidence of vindictiveness in either direction, but

5

particularly by plaintiff, derivative plaintiff against

6

putative defendants, and any support or other evidence of

7

alignment between the derivative plaintiffs and other

8

shareholders.

9

I've taken a look at those factors in light of

10

this litigation, and it's my view that plaintiffs cannot

11

fairly and adequately bring these claims in a representative

12

capacity.

13

against UI and SSSC.

14

the argument that they are essentially family of YB, I'll

15

call him, and their intimate past acquaintance with him

16

doesn't matter for their ability to fairly and adequately

17

bring claims in a representative capacity.

18

They do have in this very action direct claims
It doesn't really matter -- they make

There are claims brought by Bibiji that create

19

direct economic antagonism here and, at a minimum, the claim

20

that a UI subsidiary has falsely claimed ownership of

21

certain intellectual property brings in some of the other

22

litigation mentioned in other districts as a form of

23

inconsistent or economically antagonistic lawsuits

24

elsewhere.

25

So I think, for an abundant number of reasons, the
9

1
2

facts of this case do not support standing under 23.1.
The second systemic argument is res judicata, and
Page 7

3

10-11-13puri
that's how you tell whether a lawyer is over 40 or not, if

4

he still calls it res judicata as opposed to issue

5

preclusion or claim preclusion.

6

give me a memo on res judicata, it's like saying you like

7

Elton John in this era.

8
9

When I ask my law clerks to

So here it's all about the state court litigation,
and is there an identity of parties there.

And that has a

10

lot to do with just how that litigation played out, what the

11

claims were, how the state judge viewed the sort of

12

litigative standing of the plaintiffs in that action

13

compared to ours.

14

So the defendants contend that the parties are the

15

same in the two actions; that the plaintiffs in the state

16

court case asserted the same derivative claims against the

17

individual UI defendants for the same conduct, or could have

18

asserted the claims, which is another form of claim

19

preclusion.

20

We have in the state court action this sort of

21

unusual fact of the State itself was involved and asserted

22

its interests in overseeing charitable conduct in the state

23

of Oregon, and signed off on the settlement as in the best

24

interest of the institutional entities here.

25

So I tentatively agree with those arguments that
10

1

the issues are the same, that the State and private

2

plaintiffs in that case pursued claims on behalf of the same

3

charitable entities, including in the state litigation

4

claims were pursued by them on behalf of SSSC and UI; that

5

they were in the state court action -- that is, SSSC and

6

UI -- were nominal defendants and parties to the settlement

7

agreement, and that the settlement agreement released all
Page 8

10-11-13puri
8

claims.

9

claim preclusion and issue preclusion bar plaintiffs'

10

I would tentatively find that in that case both

derivative claims here.

11

The third systemic challenge raised is mootness.

12

And so there are three main arguments for mootness:

13

that the individual UI defendants have resigned from the

14

board or been replaced; second, that UI and SSSC have

15

settled and released all their claims -- these are

16

derivative claims we're talking about, so UI and SSSC have

17

settled and released all their claims with respect to the

18

individual UI defendants, there are no longer any claims

19

left; that the comprehensive settlement has forestalled any

20

occasion for meaningful relief through a kind of a short

21

pathway that involves the agreement to indemnify, so that,

22

as is obvious, if you obtain relief and the derivative claim

23

involves UI or SSSC indemnifying individuals, then you don't

24

get meaningful relief on behalf of UI or SSSC.

25

one,

Plaintiffs' essential argument here is that at
11

1

least as to mootness and then as to the decisions made

2

subsequent to that in the settlement agreement and in the

3

indemnity agreement by the board, that it's the wrong board,

4

that it's all invalid because the current board lacked the

5

legal authority to do what they did, it should have been

6

different people on the board.

7

established principle of directors' authority when there's

8

been a challenge to their right to be on the board.

9

serve as the de facto board under corporate law, and their

And that is not the

They

10

decisions, unless otherwise voided, are not improper that

11

way.
Page 9

12

10-11-13puri
So my own tentative view is that because of the

13

comprehensive settlement agreement, indemnity agreement and

14

the makeup of a board that doesn't contain people being

15

challenged, that there is no live controversy, and the

16

derivative claims are moot.

17

Those are the systemic challenges to the

18

derivative claims.

19

several of the direct claims:

20

the declaratory relief; the second for breach of fiduciary

21

duty; the fourth for negligent misrepresentation; and the

22

fifth for tortious interference.

23

There's also systemic challenges to
the first claim for relief,

And this systemic argument against all of those is

24

brought by UI and SSSC, not by the individual defendants,

25

and it rests on factual and legal aspects.

The factual
12

1
2

aspect here is actually agreed upon.
And so I should say at the outset that the

3

systemic challenge we're talking about is the First

4

Amendment, free exercise and no entanglement challenge.

5

the factual element is actually asserted in the first

6

amended complaint, which is that the organizations involved

7

are religious organizations, and that the managers and

8

directors of both UI and SSSC are required to be what Anglo

9

law calls ministers coming within a variety of cases about

10
11

And

that subject.
So I don't see any real factual dispute that the

12

setting is one where the First Amendment cases would apply,

13

and so the legal argument is just a series of sort of

14

concentric circles about the case law out there.

15
16

The first argument just rests on general First
Amendment principles that courts are not to inject
Page 10

10-11-13puri
17

themselves into the kinds of decisions such as which

18

ministers ought to be running religious institutions, and

19

then sort of getting more specific with each circle.

20

The second argument is that the Kedroff and

21

Serbian cases -- fascinating cases -- stand for the

22

proposition that in exactly this kind of case, the Supreme

23

Court has reversed state courts, finding that state law

24

required application of otherwise neutral state laws where

25

it would require resolution of quintessentially religious
13

1
2
3
4

controversies.

And so I think that's correct.

The third is that Hosanna-Tabor bars the
above-mentioned claim.
I'll say that in the Ninth Circuit, the

5

ministerial exception, if you'll call it that, applied in

6

Hosanna-Tabor, predates Hosanna-Tabor and, in fact, has been

7

held to be generally applicable not just to Title VII cases,

8

but across the board to state laws that would require a

9

court to decide which minister should lead in any sort of

10

activity of religious institutions.

11

And the fourth argument made is that I already

12

said this once, and I should have done it with prejudice

13

last time, and I shouldn't change my mind this time.

14

So I'm inclined to agree that particularly in

15

light of Hosanna-Tabor and Kedroff and the Serbian cases,

16

that this is an area where what is being asked of the Court,

17

on these institutional claims at least, given the

18

allegations in the first amended complaint that these are

19

religious institutions run by religious leaders, that the

20

Court -- what's being asked is that I pick winners among
Page 11

21

10-11-13puri
contested sort of who ought to be the religious leaders of

22

this organization.

23

denies me the authority to do that.

24
25

And I think the First Amendment flatly

So those are the systemic challenges.

And I guess

what might be helpful before I take up pleading challenges
14

1

to the more specific claims is to hear any further argument

2

on those systemic challenges.

3

Mr. Soni, all of my thoughts except for standing

4

under the Oregon statute for SSSC have put the ball in your

5

court.

I'll hear from you first.

Page 12

10-11-13puri

21

6

THE COURT:

Here's the issue that we're really

7

talking about is is there any reason to believe that the

8

current board, if they thought a billion dollars was sitting

9

out there, that they should go after it in the best

10

interests of the board, that they'd have some disincentive

11

to do so.

12

bias, some conflict of interest, something like that, and I

13

haven't heard anything like that about the current board.

14

And so that -- you know, they've got to have some

What I hear is that they're not the right people,

15

they're not the ones chosen, but that doesn't get you there.

16

You've got to show me why they wouldn't pursue fraudulently

17

stolen assets on behalf of the entities if they thought it

18

was out there.

19

MR. SONI:

If you look at the nature of the

20

settlement that occurred with the gang of four, three of

21

them received money, rather than paying back any money, in

22

order to encourage them to give up their board seats.

23

fourth paid back a fraction of what he had taken and the

24

value that he received, and received -- and all four of them

25

received indemnification in order to turn over control.
Page 18

The

10-11-13puri
22
1

The plaintiffs in the state court action moved,

2

claiming special standing.

They were successful and the

3

state court was still in the process of formulating an

4

appropriate remedy.

5

Now, I understand that the argument that the gang

6

of four and others would make is First Amendment, the Court

7

couldn't fashion a remedy, but that's not true.

8

Hosanna-Tabor nor any other case says that the Court cannot

9

require a religious entity to comply with its fundamental

Neither

10

corporate charter, which does not involve questions of

11

religious decision.

12

involve questions of religious decision.

13

converted assets, breached their fiduciary duties.

14

were facts that have been found.

None of the issues involved here
The gang of four
Those

15

THE COURT:

Thank you.

16

I think I understand your argument on Rule 23.1.

17

We're going to move on to the specific claims in just a

18

moment.

19
20

Any response any defendant wishes to make on the
systemic claims?

21
22

MR. CROMWELL:

Your Honor, Ralph Cromwell,

representing Schwabe Williamson & Wyatt.

23

Just a very small point that you've sort of

24

touched on here about whether demand is excused or demand is

25

futile.

We filed a short pleading this morning, asking you
23

1

to take judicial notice that Unto Infinity, the entity,

2

suing in its own name, suing on its own behalf, has filed
Page 19

3

10-11-13puri
suit in Multnomah County against my client, Schwabe

4

Williamson & Wyatt, seeking to pursue these same claims.

5

this is not a situation where not only is demand not futile,

6

because if they made a demand, the board would be

7

disinterested and able to pursue it, but it's a situation

8

where the entity and its board have in fact already done so.

9

And I don't see how demand can be futile when the entity,

10

suing in its own behalf, pursues the exact claim she is

11

saying I demand they bring.

12

Now, I want to be candid with you.

So

This is not a

13

recent development.

14

It's been pending so long that -- almost two years, that in

15

fact it's been resolved.

16

This action was filed some time ago.

We're a new party here.

We did not have an

17

opportunity to pursue -- participate in the last round of

18

motions, but on the fundamental issue of is demand excused

19

and is demand futile, I would ask you to take judicial

20

notice that in fact it can't be futile because they're doing

21

exactly what she would have to demand that they do.

22

Thank you.

23

THE COURT:

Just to be precise, you're probably

24

not asking me to take judicial notice of your argument, but

25

to take judicial notice of the pleadings?
24

1

MR. CROMWELL:

2

THE COURT:

3

MR. CROMWELL:

4

THE COURT:

5
6
7

Yes, the existence of the lawsuit.

The particular pleadings?
Yes.

And that's in your motion.

Which

pleadings are you asking me to take judicial notice of?
MR. CROMWELL:

The complaint, Unto Infinity suing

in its own behalf, bringing the malpractice -Page 20

10-11-13puri
8
9

THE COURT:

That's all right.

I mean, I always am

willing to take judicial notice of filed complaints in

10

related state court pleadings.

11

notice.

12

complaint.

That's classic judicial

I grant your request to take judicial notice of the

13

MR. CROMWELL:

Thank you.

14

MR. VOORHEES:

Your Honor, Steve Voorhees.

Roy

15

Lambert is also a party in that same lawsuit, and I think I

16

heard you indicate that there had not been the First

17

Amendment argument presented by other parties, including

18

Lambert.

19

our motion G on the intentional interference claim does

20

include the Hosanna-Tabor argument, Your Honor.

And I, as I was writing down notes, I do note that

21

THE COURT:

Thank you.

22

Let me talk about the specific -- well, let me

23

sort of split this in pieces, then.

I stand by the

24

tentative comments I made earlier, and those will be my

25

actual rulings on the systemic arguments.

I find the
25

1

derivative claims barred by res judicata, as I have tried to

2

separate it out into claim and issue preclusion, mootness.

3

I find a standing issue sufficient to find no

4

standing under Rule 23.1.

5

need for any ruling on 65.174 and 63.801, although I clearly

6

find no standing in the derivative suits brought against UI

7

under ORS 63.801.

8
9
10
11

MR. McGRORY:

That really sort of avoids the

Do you want to hear argument on that

other statute issue, or do you want to leave it the way it
is?
THE COURT:

I think if you win three ways, you
Page 21

12

10-11-13puri
shouldn't reach for four.

13

MR. McGRORY:

14

THE COURT:

Thank you, Your Honor.
The First Amendment issue we discussed

15

isn't an argument against derivative claims, it's against

16

direct claims, specifically the first, second, fourth and

17

fifth claims.

18

cases, including but not limited to Kedroff, Serbian and

19

Hosanna-Tabor, bar the relief side of those claims, and

20

grant the motion to dismiss those claims on the basis of

21

those First Amendment cases.

22

I reject the argument that a variety of

What remains are a series of claims subject to

23

motions to dismiss based on what you might call a pleading

24

argument as opposed to a legal argument, as opposed to an

25

argument about res judicata or First Amendment.
26

1

So my first job is to determine what pleading

2

standard applies, and that's really a difference between

3

whether the fraud pleading standard applies to many of these

4

or not.

5

fraud, and normally would invoke the heightened pleading

6

standard of Rule 9(b), Iqbal-Twombly and the like.

7

The case -- the claims for the most part sound in

There is a case, Wool v. Tandem Computers, in

8

which an exception is recognized, where the plaintiff

9

asserts that it's the defendants who really have access to

10

the information, and that the knowledge necessary to

11

heighten the pleadings under Iqbal-Twombly is peculiarly

12

within the opposing party's knowledge.

13

In my view, that exception manifestly does not

14

apply here.

One, we've had a boatload of discovery in the

15

state court proceedings on -- related to these factual

16

assertions, and that's gone on far enough to be concluded;
Page 22

10-11-13puri
17

and two, these are not telephone owners suing AT&T.

These

18

are people with their own avenues of connection to the

19

institutions involved.

20

plaintiff wouldn't know about the secret fraudulent

21

conversations of an inventor, because that would be an

22

exception and would swallow the rule of 9(b) pleading.

23

So here I don't think the facts of this case

It's not enough just to say that a

24

justify invoking what I'll call the Wool exception, and

25

therefore the heightened pleading standard for fraud

Page 23

10-11-13puri

25

THE COURT:

Just so I'm clear, you're not
34

1

alleging -- and I apologize for slightly rephrasing the

2

hypothetical, but if the $150 million were not derivative,

3

if it were a separate direct claim brought by someone

4

nonderivatively for a minister embezzling money from a

5

church, I don't hear you saying that that kind of claim

6

would be barred by the First Amendment.

7
8

MR. McGRORY:

the basis for the claim is.

9
10

THE COURT:

MR. McGRORY:

Embezzlement.

That's not barred by

I would agree, I would agree.

But

the --

13
14

The only claim --

those --

11
12

We would have to look to see what

THE COURT:

So your real argument is just that

it's not direct, it's derivative?

15

MR. McGRORY:

Yes, it's absolutely derivative.

16

But the other part of it is the other relief asked

17

for -- in all the claims you've mentioned, there's two types

18

of relief:

19

their board service, which I had thought when you granted

20

the motion on First Amendment, I really think that applies

One, they want on the boards and get paid for

Page 29

21

10-11-13puri
to all of their claims. I don't think you need to --

22

THE COURT:

Well, just so I'm clear, and I don't

23

want to miss one, you're contending that the relief sought

24

in Claim 3 for fraud is either, one, barred by the First

25

Amendment or -- which is essentially injunctive relief, or
35

1

two, money sought derivatively on behalf of the entities.

2

That's Claim 3, right?

3

MR. McGRORY:

4

THE COURT:

5

MR. McGRORY:

6

THE COURT:

7

MR. McGRORY:

Almost.
I believe the answer is just yes.
Technically, it's not, but -Help me out, then.
The First Amendment, there's two

8

parts of it.

9

of it is being paid a salary because you would make them --

10

if you make them -- if you make them a director, that's the

11

injunctive relief part.

12

One is injunctive relief, and the other part

THE COURT:

So injunctive is probably the wrong

13

shorthand to put on it.

14

the board.

15

MR. McGRORY:

16

THE COURT:

17

MR. McGRORY:

18

THE COURT:

19

the First Amendment?

20

MR. McGRORY:

21

THE COURT:

They also have a tagalong claim.

But the claim is to be put back on

Yes.
Put on the board and paid.
Yes.
And that's barred, in your view, by

Yes.
So there's two pieces to the fraud

22

damages claim.

23

and paid, barred by, at a minimum, the Serbian case and

24

Hosanna-Tabor?

25

One is this first piece, be put on the board

MR. McGRORY:

Correct.
Page 30

10-11-13puri
36
1

THE COURT:

And two is $150 million in damages,

2

which you say is not damages that could be claimed in an

3

individual capacity by these plaintiffs but only damages

4

that could be claimed on behalf of the entities for being

5

pillaged?

6

MR. McGRORY:

7

THE COURT:

8

The same two claims with the same two answers on

9
10
11

Correct.
That's fraud.

negligent misrepresentation?
MR. McGRORY:

Yeah.

Because if you look at

paragraph --

12

THE COURT:

13

MR. McGRORY:

14

And then there's paragraph 66, negligent

15

THE COURT:

17

MR. McGRORY:
interference.

THE COURT:

20

MR. McGRORY:

THE COURT:

23

MR. McGRORY:

25

Fifth claim for relief, tortious

Conversion?
Conversion -- conversion is only

brought derivatively.

22

24

Tortious interference, same answer?

It's paragraph 71.

19

21

On fraud, it's 58.

misrepresentation, identical.

16

18

What was the paragraph on fraud?

It's paragraph 79.
Unjust enrichment?
Unjust enrichment is identical to

the first ones we talked about.
THE COURT:

It's paragraph 90.

RICO? -- well, RICO and ORICO.
37

1

MR. McGRORY:

2

MR. VOORHEES:

Let me find them.
Looks like 107 to me.
Page 31

3
4

10-11-13puri
MR. McGRORY: 107, and it's identical to the first
ones we talked about.

5

THE COURT:

What about legal malpractice?

6

MR. VOORHEES:

Your Honor, that's paragraph 127,

7

solely damages to UI and SSSC, all derivative claims, and

8

acknowledged as such in the reply memorandum by Mr. Soni.

9
10

THE COURT:

All right.

Thank you.

I'm going to turn then to Mr. Soni for the

11

argument I did not bring up in my summary, which is that

12

although these are direct claims, styled as direct claims,

13

the damages sought -- I know you disagree with my ruling on

14

whether the religious exemption applies, but let's put that

15

to one side.

16

the paragraphs in front of you.

17

of the claims we've just discussed, Mr. McGrory and I, the

18

$150 million damages are sought on behalf of the entities,

19

not on behalf of the individual plaintiffs as individuals?

20

What about the damages component?

MR. SONI:

You have

Is it correct that in each

I'm troubled by the fact that

21

Mr. McGrory's client in the state court brought an action

22

claiming special standing as beneficiaries for the money

23

that was embezzled by the gang of four, and somehow they

24

maintain that that was permitted and the Court could

25

exercise the power to force those defendants to return those
38

1

funds, and that Bibiji here, who is Bhai Sahiba, the chief

2

religious authority for the community, was placed on the

3

board by YB, is bringing this action for the very same

4

embezzlement and seeking the return of the funds as now

5

deemed -- or being argued to be a First Amendment violation.

6

The complaint, as framed, states that she does not

7

seek to retain these funds, and that the recovery of the 150
Page 32

10-11-13puri
8

she would return to SSSC and UI for the benefit of the

9

beneficiaries of those trusts.

She does not seek to retain

10

that, but she does seek to recover for an embezzlement by

11

these four ministers, which fairly closely parallels your

12

hypothetical.

13
14

THE COURT:

But the entity embezzled was not the

individuals, it was UI and SSSC.

15

MR. SONI:

Correct.

And your example indicated

16

that it was anything other than an entity that was embezzled

17

from.

18

would be prohibited by the First Amendment.

19

agreed, and I understand the Court agreed.

And the question was, would that be something that

20

THE COURT:

That's not the issue.

And Mr. McGrory

The issue isn't

21

whether the $150 million, seeking it is barred by the First

22

Amendment.

23

being embezzlement.

24

standing, mootness, res judicata.

25

In my view, it is not, just by virtue of it

MR. SONI:

The issue is whether it's barred my

I understand.

And I think the
39

1
2

answer -THE COURT:

That depends in part, in major part on

3

whether it's being sought derivatively.

4

your answer that it is being sought derivatively.

5

MR. SONI:

And I take it from

It is, but I submit to you that not --

6

whether you call it a derivative claim under the Oregon

7

statutes or you call it special standing for recovery of, as

8

Mr. McGrory did in the state court action, Bibiji certainly

9

does have a standing to assert a claim with respect to an

10

identified embezzlement, where the wrongdoer is unknown, the

11

amount taken is identified, and that she should be allowed
Page 33

12
13

10-11-13puri
to proceed to make that recovery.
Now, your other arguments, or the other theories

14

that are raised is res judicata and mootness, and as

15

previously stated, res judicata does not apply.

16

entities, SSSC and UI, did not participate in the underlying

17

action, and neither the state court nor the attorney general

18

did an analysis or justification, other than a mere

19

conclusory statement that they thought it was in good faith

20

and reasonable.

21

parties entering into the settlement agreement had a right

22

to bind SSSC or UI.

They did not evaluate whether or not the

23

THE COURT:

24

I grant the motions to dismiss.

25

Those

Thank you.
I grant the

motions on the systemic challenges, as I divided them up
40

1

that way, for the reasons I stated earlier.

2

that what I had previously called the direct claims, the

3

damages for such are either barred by the First Amendment

4

seeking the sort of thing the cases we talked about do not

5

allow me to order a religious institution to do one way or

6

the other, or represent damages sought derivatively, and

7

therefore barred by the other doctrines I've discussed:

8

standing under Rule 23.1, at a minimum, mootness,

9

res judicata.

10

I now agree

For what it's worth, I stand by my tentative

11

comments on the nature of the pleadings, and add to that

12

that I will dismiss Claim 10, both because it's partly

13

derivative, and because it fails to meet the pleading

14

standard against Mr. Horowitz under 9(b), Iqbal-Twombly.

15
16

I grant the request for judicial notice made
earlier this morning for the other Multnomah County
Page 34

10-11-13puri
17

complaint referenced.

18

judicial notice, two of them combined to 20 parts filed

19

earlier.

20

current corporate structure chart showing the corporate

21

structure of the Sikh Dharma entities.

22
23
24
25

There's a 20-part request for

The only one I don't grant out of the 20 is the

I deny the motion for leave to amend the
complaint.
And these dismissals, for reasons I discussed a
moment ago, are with prejudice.
41

1

Thank you all.

We'll be in recess.

2

THE CLERK:

3

(Proceedings concluded.)

This court is adjourned.

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
Page 35

APPENDIX F

Case: 18-35479, 02/03/2020, ID: 11582118, DktEntry: 64, Page 1 of 2

FILED
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BIBIJI INDERJIT KAUR PURI; RANBIR
SINGH BHAI; KAMALJIT KAUR
KOHLI; KULBIR SINGH PURI,
Plaintiffs-Appellants,

No.

FEB 3 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

18-35479

D.C. No. 3:10-cv-01532-MO
District of Oregon,
Portland

v.
ORDER
SOPURKH KAUR KHALSA; PERAIM
KAUR KHALSA; SIRI RAM KAUR
KHALSA; KARTAR SINGH KHALSA;
KARAM SINGH KHALSA; UNTO
INFINITY, LLC, an Oregon Limited
Liability Company; SIRI SINGH SAHIB
CORPORATION, an Oregon non-profit
corporation; SIRI KARM KAUR
KHALSA; LANE POWELL PC, an
Oregon Professional Corporation; LEWIS
M. HOROWITZ; GURUDHAN SINGH
KHALSA; GURU HARI SINGH
KHASLSA; EWTC MANAGEMENT,
LLC; AJEET SINGH KHALSA,
Defendants-Appellees.

Before: GILMAN,* PAEZ, and RAWLINSON, Circuit Judges.

*

The Honorable Ronald Lee Gilman, United States Circuit Judge for
the U.S. Court of Appeals for the Sixth Circuit, sitting by designation.

Case: 18-35479, 02/03/2020, ID: 11582118, DktEntry: 64, Page 2 of 2

The panel has voted to deny the Petition for Panel Rehearing. Judges Paez
and Rawlinson voted, and Judge Gilman recommended, to deny the Petition for
Rehearing En Banc.
The full court has been advised of the Petition for Rehearing En Banc, and
no judge of the court has requested a vote.
Plaintiffs-Appellants’ Petition for Panel Rehearing and Rehearing En Banc,
filed January 6, 2020, is DENIED.

2

APPENDIX G

The First Amendment to the Constitution provides, in relevant part: “Congress shall
make no law respecting an establishment of religion, or prohibiting the free exercise
thereof ***.” U.S. Const. Amend. I. is reproduced in the appendix to this petition. (App.
___, infra)

APPENDIX H

Oregon Revised Statutes provide, in relevant part, “An action . . . shall be commenced
within two years; provided, that in an action at law based upon fraud or deceit, the
limitation shall be deemed to commence only from the discovery of the fraud or deceit.”
(App. ___, infra) O.R.S. §12.110(1).

